<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-100, Part 7]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 111-100, Pt. 7

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                        MAY 20 AND JUNE 3, 2009


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                     2010--Part 7  STRATEGIC FORCES



                                                  S. Hrg. 111-100 Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                        MAY 20 AND JUNE 3, 2009


         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
52-626                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        DAVID VITTER, Louisiana
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         JAMES M. INHOFE, Oklahoma
MARK UDALL, Colorado                 LINDSEY GRAHAM, South Carolina
MARK BEGICH, Alaska

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                        Military Space Programs
                              may 20, 2009

                                                                   Page

Payton, Gary E., Deputy Under Secretary of the Air Force for 
  Space Programs.................................................     4
Kehler, Gen. C. Robert, USAF, Commander, Air Force Command.......     9
James, Lt. Gen. Larry D., USAF, Commander, 14Th Air Force, Air 
  Force Space Command and Commander, Joint Functional Component 
  Command for Space, United States Strategic Command.............    15
Harris, VADM Harry B., Jr., USN, Deputy Chief of Naval Operations 
  for Communication Networks.....................................    19
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    22

                       Strategic Forces Programs
                              june 3, 2009

D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, Department of Energy..................    49
Alston, Maj. Gen. C. Donald, USAF, Assistant Chief of Staff, 
  Strategic Deterrence and Nuclear Integration...................    99
Carpenter, Maj. Gen. Floyd L., USAF, Commander, 8th Air Force, 
  Air Combat Command.............................................   102
Johnson, RADM Stephen E., USN, Director, Strategic Systems 
  Programs.......................................................   104

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Sessions, 
and Vitter.
    Committee staff member present: Jennifer L. Stoker, 
security clerk.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Michael V. Kostiw, 
professional staff member; and Daniel A. Lerner, professional 
staff member.
    Staff assistants present: Kevin A. Cronin and Brian F. 
Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Caple, assistant to 
Senator Bill Nelson; Jennifer Barrett, assistant to Senator 
Udall; Rob Soofer, assistant to Senator Inhofe; Pete Landrum, 
assistant to Senator Sessions; and Michael T. Wong, assistant 
to Senator Vitter.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon. I will insert my 
prepared statement for the record at this point, and now turn 
to our ranking member, Senator Vitter.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    I would like to welcome all of our witnesses today to the Strategic 
Forces Subcommittee hearing on military space programs and issues. 
Today we have Gary Payton, the Deputy Under Secretary of the Air Force 
for Space; General Robert Kehler, Commander of Air Force Space Command; 
Lt. Gen. Larry James, Commander of 14th Air Force and the Joint 
Functional Component Commander for Space; Vice Admiral Harry Harris, 
the Deputy Chief of Naval Operations for Communications Networks; and 
Cristina Chaplain, the Director of Acquisition and Sourcing Management 
at the Government Accountability Office. All of your statements will be 
included in the record.
    I would also like to welcome Senator Vitter, who, as of last week, 
is the new ranking member on the Strategic Forces Subcommittee, 
replacing Senator Sessions. I look forward to a productive working 
relationship.
    It has been a pleasure to work with Senator Sessions over these 
past several years. We have tackled a lot of difficult issues together. 
I am glad he will stay on the subcommittee.
    Space is essential for modern life and for a modern military, but 
getting satellites built and on orbit is not easy and not cheap.
    Most of the space programs continue to struggle, although there has 
been improvement in some programs, others, such as Space-Based Infrared 
Satellite-Geosynchronous Orbit and the advanced extremely high 
frequency satellite continue to be delayed. What are the problems and 
how do they get fixed?
    While the United States has been very lucky that satellites, once 
launched, generally have a history of lasting longer than planned, in 
some cases much longer. With the delays in the replacement programs 
there is a potential for gaps in the various programs. This is 
particularly true for missile warning.
    We will also look at what role small satellites can play in meeting 
certain requirements, augmenting or replacing capabilities, and in 
reducing the overall size, complexity, and cost of space systems.
    We look forward to hearing from all of you this afternoon.
    We will have a very short closed session in the Office of Senate 
Security relating to the launch of the North Korean missile at the 
conclusion of the opening session. We will plan on moving over there at 
a little after 3 o'clock.

               STATEMENT OF SENATOR DAVID VITTER

    Senator Vitter. Thank you very much, Mr. Chairman. It is 
great to be here as the ranking member of this subcommittee for 
the first time. I look forward to working with you and all the 
other members on these significant issues.
    I will submit my full opening statement for the record, but 
I do want to highlight a number of concerns.
    The Government Accountability Office (GAO) is here today, 
and I look forward to hearing from all the witnesses, including 
them. For sometime, they have highlighted a number of systemic 
problems associated with our major space acquisition programs. 
Generally, they have said that competition for dollars leads to 
low-cost estimation and unrealistic scheduling, and then that 
gets us in a bind down the line when the true costs of programs 
and true schedules come into clear focus. So I would like 
everyone's reaction to that ongoing critique and what we should 
do in light of it.
    I want to thank Chairman Levin and Ranking Member McCain 
for their acquisition reform bill, which I am happy to support 
and would love folks' reaction to what is in that bill, how 
that can make a difference and what more we need to do.
    I am also encouraged with many--not all, but certainly 
many--of Secretary Gates' strong recommendations to cancel 
certain programs that were not proving out like the 
Transformational Satellite (TSAT) program and to focus 
resources and certainly would like folks' detailed thoughts on 
that and how we move forward in a productive way.
    Then finally, I would point out a recent Institute for 
Defense Analyses (IDA) report, chartered by the Department of 
Defense (DOD), to address significant congressional concerns. 
One conclusion of the report is an assertion that ``no one is 
in charge,'' that leadership is fragmented with respect to 
strategy, budgets, requirements, and acquisitions, and it 
recommends that the President establish and lead the execution 
of a much more focused national space strategy. It also 
recommends a top-to-bottom overhaul, and I very much look 
forward to hearing everyone's reaction to that critique and 
those recommendations.
    But, again, Mr. Chairman, thanks for your leadership and I 
look forward to working with you.
    [The prepared statement of Senator Vitter follows:]

               Prepared Statement by Senator David Vitter

    Thank you very much, Mr. Chairman, I join you in welcoming our 
witnesses. This is my first hearing as ranking member of the Strategic 
Forces Subcommittee and I look forward to working with you on the many 
important issues under this subcommittee's jurisdiction.
    The administration's fiscal year 2010 budget provided a significant 
funding increase for Defense-wide, ``white space'' programs. This 
year's request at about $11.1 billion--$9.2 billion of which is for Air 
Force space programs represents a $412 million increase over fiscal 
year 2009 appropriated levels. I look forward to hearing from our 
witnesses today how this money will be spent wisely and what will be 
done to guarantee that the programs we fund in fiscal year 2010 break 
away from past practices of cost overruns and long delays.
    The Government Accountability Office (GAO), which I am pleased is 
here today to testify, has for some time highlighted a number of 
systemic problems associated with our major space acquisition programs. 
GAO has found that because the Department of Defense (DOD) starts more 
weapon programs that it can afford--competition for dollars lead to low 
cost estimation and unrealistic scheduling. GAO notes that DOD tends to 
start many of its space programs before it has a sound understanding 
and the appropriate assurance that the technologies it seeks are 
achievable within available funding. As a result of this broken 
acquisition process, the Department all too frequently puts itself in a 
bind with respect to supporting the warfighters' needs. Not only are we 
constantly underestimating cost, but according to GAO, delays in 
schedule are increasing the overall risk for capability gaps in areas 
such as positioning, navigation, and timing; missile warning; and 
weather monitoring.
    Under the leadership of Chairman Levin and Ranking Member McCain, 
this committee broadly recognized those problems in developing the 
``Weapon Systems Acquisition Reform Act of 2009.'' That bill emphasizes 
starting major weapons systems off right by having them obtain reliable 
and independent cost estimates and subjecting them to rigorous 
developmental testing and systems engineering early in their 
acquisition cycle. In so doing, the bill (which will likely be signed 
into law by the President within the next few days) intends to ensure 
that programs not proceed from one stage of the acquisition cycle to 
the next until they have achieved the maturity to clearly lower the 
risk of cost growth and schedule slippage. I look forward to hearing 
from our witnesses how they believe the bill will help manage 
technology and integration risk in DOD military space programs.
    I am encouraged by Secretary Gates' recommendation to cancel the 
Transformational Satellite (TSAT) program, an example of an overly 
ambitious project, lacking a meaningful technology, schedule, and 
funding path. I am also pleased to hear that the Department will not 
let the $3.3 billion already invested in TSAT go to waste. With the 
recommendation to eliminate TSAT and purchase two additional advanced 
extremely high frequency satellites, it is clear that the Department 
recognizes that smaller, more incremental steps forward, are far less 
risky ventures, and are a significantly more responsible path forward 
with respect to the taxpayers' money. I am encouraged that the 
Department does not plan to let our hefty investment in TSAT go to 
waste and does plan to harvest some of TSAT's more successful research 
and development efforts. I look forward to hearing from our witnesses 
more about the plan to address our satellite communications needs, how 
we will utilize TSAT technologies on the procurement of already proven 
and technologically mature systems, and how TSAT can be a lesson moving 
forward for our future space acquisition endeavors.
    A recent Institute for Defense Analyses report charted by DOD to 
address congressional concerns with the leadership, management, and 
organization for National Security Space found that ``significant 
improvements are imperative . . . in order to maintain U.S. space 
preeminence and advert the loss of the U.S. competitive national 
security advantage.'' The report asserts that ``no one's in charge,'' 
leadership is fragmented with respect to strategy, budgets, 
requirements, and acquisition, and recommends that the President 
establish and lead the execution of a national space strategy. The 
report recommends a top-to-bottom overhaul and I look forward to 
hearing from the witnesses what steps are being taken to address the 
report's recommendations.
    I recognize that space acquisitions are inherently risky and are 
like no other venture the DOD undertakes. The challenges are many and 
the unknown and need for pushing the technology envelope is great. 
However, we must do a better job at managing the risk and spending the 
taxpayers' money wisely. Nonetheless, I look forward to hearing from 
the witnesses what is being done to address the space acquisition 
shortcomings, if you believe the condition is getting better, and what 
more needs to happen within the Department.
    Mr. Chairman, thank you.

    Senator Bill Nelson. As is the procedure, each of your 
statements will be entered in the record at this time.

STATEMENT OF GARY E. PAYTON, DEPUTY UNDER SECRETARY OF THE AIR 
                    FORCE FOR SPACE PROGRAMS

    [The prepared statement of Mr. Payton follows:]

                  Prepared Statement by Gary E. Payton

                              INTRODUCTION

    Chairman Nelson, Senator Vitter, and distinguished members of the 
subcommittee, it is an honor to appear before this subcommittee as the 
Deputy Under Secretary of the Air Force for Space Programs, and to 
discuss with you our military activities. I support the Secretary of 
the Air Force with his responsibilities as the Service Acquisition 
Executive for Space Programs.
    1I believe the overall soundness of our Air Force space program is 
best illustrated by our consecutive string of 61 successful national 
security space launches over the past 10 years and the sustainment of 4 
distinct satellite constellations over the past 3 decades (navigation, 
weather, missile warning, and military communication). This record is 
the result of a world-class team of space professionals across our 
government and industry, all dedicated to the single purpose of 
providing essential capabilities to our joint warfighters and allies 
around the world. As a Nation, we have cultivated, modernized, and 
integrated space capabilities for over a half century into our national 
instruments of power--diplomatic, information, military, and economic. 
The nation's reward for this commitment is a space capability which 
tilts the geopolitical and military advantage to our leaders with the 
most current and accurate information around the world. With superior 
space systems we provide our leadership with intelligence that 
otherwise would be impossible to collect. Space enables us to employ 
military force in both irregular warfare and conventional situations--
we see the battlefield more clearly and destroy targets with greater 
precision. While acknowledging the ever increasing advantages that 
these space capabilities provide, we acknowledge that many of the 
satellites and associated infrastructure have outlived their intended 
design lives.
    To ensure the availability of these systems, the military space 
portion of the President's fiscal year 2010 budget submission is 
focused on the continuity of key mission areas including global missile 
warning, worldwide communication, global positioning and timing, 
weather, and launch. Simultaneously, we are taking added measures to 
enhance the protection of our space capabilities through improved Space 
Situational Awareness (SSA), defensive counterspace, and reconstitution 
efforts.
    Global Missile Warning through Overhead Persistent Infrared (OPIR) 
is our unblinking eye ensuring that we know whenever a rocket launches 
from anywhere on Earth. Our missile warning system is fast, persistent, 
and accurate in determining missile vectors. At the strategic level, it 
quickly aids leadership as they determine courses of action to defend 
America and our allies, and at the tactical level our real-time warning 
provides theater commanders with superior battlespace awareness.
    Worldwide communication is enabled through a ubiquitous space-based 
system with government and commercial platforms. Our users stretch from 
the Oval Office to the mountains of Afghanistan. Using protected, 
wideband, or narrowband communications, the President can command the 
Nation's nuclear forces, our UAV pilots can fly Predators over Iraq and 
Afghanistan from the United States, and Special Forces teams can call 
for exfiltration or tactical air support.
    Global positioning and timing is a free worldwide service. It 
provides position accuracy down to the centimeter and time accuracy to 
the nanosecond over the entire planet, 24-hours a day, 7-days a week, 
and in any weather. The Department of Defense (DOD) and the 
Intelligence Community depend on our Global Positioning System (GPS) to 
support a myriad of missions and capabilities including weapon system 
guidance, precise navigation, satellite positioning, and communication 
network timing. The civil and commercial communities are equally 
reliant on GPS as the underpinning for a vast infrastructure of 
services and products including search and rescue, banking, map 
surveying, farming, and even sports and leisure activities.
    Weather observation and forecasting has greatly improved over the 
last four decades primarily due to space-based environmental sensing. 
Global, high resolution measurements of atmospheric temperature, 
density, and humidity populate mathematic models for weather 
prediction. Our warfighters need accurate, time-sensitive weather data 
as a key enabler for maneuver planning, weapons employment, and 
intelligence collection.
    With events like the Chinese ASAT demonstration and the Iridium/
Russian satellite collision as examples of the increasing political and 
physical complexity of the space environment, our on-orbit assets face 
greater threats that could deny, damage, or destroy our access to space 
capabilities. We must anticipate potential disruptions, either 
accidental or intentional, to our space operations or risk losing 
continuity of service. As such, we are expanding our ability to detect, 
identify, characterize, and attribute threats, as well as clearly 
discriminate between a hostile act and one that is naturally occurring. 
In parallel, we are developing the organizational, operational, and 
technical enablers including command and control architectures that 
will allow us to react swiftly and decisively when threats materialize.
    Though challenges remain, Congress' support has been a vital 
component in improving our acquisition of space systems, maintaining 
continuity of service, and charting a course for the next generation of 
space capabilities that will enhance American security, freedom, and 
prosperity.

                            UPDATE ON SPACE

    I would like to briefly discuss some of the achievements we have 
had over the last year and the progress we are making with regard to 
the mission areas I described earlier.

Missile Warning
    For over 35 years, our legacy Defense Support Program (DSP) 
satellites, in conjunction with ground based radars, have unfailingly 
met the Nation's missile warning needs. This legacy constellation, 
however, continues to age, while threats such as the proliferation of 
theater ballistic missiles and advanced technologies continue to grow. 
These threats are driving the need for increased coverage and 
resolution provided by the Space Based Infrared System (SBIRS).
    SBIRS supports four mission areas: missile warning, missile 
defense, technical intelligence, and battlespace awareness, and is 
comprised of both geosynchronous earth orbit (GEO) satellites and 
highly elliptical orbit (HEO) payloads. In 2008, the first HEO payload 
was fully certified by United States Strategic Command to perform the 
strategic missile warning mission. The second HEO payload is on-orbit 
and proceeding through operational checkout. Launch of the first SBIRS 
GEO satellite is scheduled for late 2010.
    Our funding request continues development of the GEO satellite, HEO 
payloads, plus the necessary ground elements. Additionally, this budget 
requests advanced procurement for a fourth GEO satellite, and 
procurement of our fourth HEO payload. We continue to work with our 
industry partners to resolve challenges on the SBIRS GEO-1 spacecraft, 
specifically with respect to the Flight Software Subsystem. Our budget 
request also funds Wide Field-of-View (WFOV) technology development 
within the Third Generation Infrared System funding line. By partnering 
with the commercial space industry, we will have the opportunity to 
conduct early on-orbit scientific experiment of WFOV infrared data 
phenomenology using a Commercially Hosted IR Payload (CHIRP) in 2010. 
WFOV offers considerable potential for reducing cost, schedule, and 
performance risks for the next generation of missile warning 
satellites.

Communications
    The United States military is a highly mobile and dispersed force 
that relies heavily on wideband, protected, and narrowband satellite 
communications (SATCOM) for command, control, and coordination of 
forces. SATCOM enables forces to receive real-time images and video of 
the battlefield, thereby accelerating decision-making from the 
strategic to the tactical levels. These images and video often come 
from Unmanned Aerial Vehicles (UAVs) controlled via SATCOM links, 
allowing the UAVs to fly far beyond the line of sight and to collect 
information without endangering U.S. forces.
    On April 3, 2009 we successfully launched the second Wideband 
Global SATCOM (WGS) satellite as part of the Department's constellation 
of wideband satellites providing increased capability for effective 
command and control of U.S. forces around the globe. In August 2009 we 
are planning to launch the third WGS satellite. As we populate the WGS 
constellation, each individual satellite provides greater wideband 
capacity than the entire legacy Defense Satellite Communications System 
(DSCS) III constellation. Our fiscal year 2010 funding request 
continues on-orbit support for WGS-2 and WGS-3, as well as, non-
recurring engineering development and advanced procurement for WGS-7.
    In the protected SATCOM portfolio, we are completing testing of the 
first Advanced Extremely High Frequency (AEHF) system with a projected 
launch in late 2010. This initial AEHF launch will complete the 
worldwide Medium Data Rate (MDR) ring, increasing the data-rate for low 
probability of intercept/detection and anti-jam communications from 
tens-of-kilobytes per second to approximately a megabyte per second. 
Last September, the Secretary of the Air Force declared a critical 
breach of the average procurement unit cost (APUC) against the AEHF 
Acquisition Program Baseline. The cost growth was dominated by the 4-
year production break between the SV-3 being placed on contract in 
January 2006 and SV-4 contract award projected for early 2010. 
Subsequently, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics USD (AT&L) led a team of DOD organizations 
that reviewed the AEHF program to determine if: (1) the program was 
essential to national security, (2) there were any alternatives that 
could provide equal capability at less cost, (3) the new estimates of 
the unit cost were reasonable, and (4) the management structure was 
adequate to control costs. On 29 December 2008, USD (AT&L) certified 
the AEHF program as a four satellite constellation with the launch 
dates of: SV-1 in September 2010, SV-2 in September 2011, SV-3 in 
September 2012, and SV-4 in September 2016. Also as part of the 
recertification, AEHF costs were rebaselined per DOD Cost Analysis 
Improvement Group estimates. Our funding request supports the assembly, 
integration, and test of AEHF SV-1 through SV-3 as well as the launch 
and start of on-orbit check out of SV-1, continued development, 
integration, and test of the AEHF Mission Control Segment, and the 
production contract award for SV-4.
    On 6 April 2009, the Secretary of Defense announced key decisions 
and recommendations for the fiscal year 2010 President's budget 
submission. Among them was the cancellation of the Transformational 
Satellite Communications program in favor of two more AEHF satellites 
(SV-5 and SV-6). This recommendation was the result of careful 
consideration to balance valid warfighter requirements against fiscal 
constraints. The Air Force plans to work closely with the other 
Services, the Office of the Secretary of Defense, Joint Staff, and the 
combatant commands to meet the DOD's protected and wideband 
communication needs. To this end, the Air Force will evolve the 
MILSATCOM architecture to provide connectivity across the spectrum of 
missions, to include land, air and naval warfare; special operations; 
strategic nuclear operations; strategic defense; homeland security; 
theater operations; and space operations and intelligence.

Positioning, Navigation, and Timing
    The United States Global Positioning System (GPS) continues to be 
the world standard for positioning, navigation, and timing. As a 
result, GPS has been incorporated into military, commercial, and 
civilian applications, to include navigation, agriculture, banking, 
cartography, telecommunications, and transportation. Last year the GPS 
Program Office seamlessly implemented the Architecture Evolution Plan 
upgrade to the existing GPS Operational Control System. This upgrade 
increased sustainability and provided the ability to control the new 
GPS IIF satellites. Perhaps most notably, these upgrades were 
implemented with no impact to day-to-day operations and did not require 
any modifications to existing user equipment.
    This year we are going to launch the final GPS IIR satellite, a 
program which was initiated over 20 years ago and represents one of our 
most successful, enduring space acquisition programs. This year, we 
will also begin launching the next generation GPS IIF satellites which 
will sustain the constellation over the next 10 years. GPS IIF will 
also populate the GPS constellation with additional M-code capability 
and introduce a new ``L5'' civil signal.
    Moving beyond GPS IIF, GPS III will offer significant improvements 
in navigation capabilities by improving interoperability and jam 
resistance. The procurement of the GPS III system will occur in 
multiple blocks, with the initial GPS IIIA contract award in May 2008. 
GPS IIIA includes all of the GPS IIF capability plus up to a ten-fold 
increase in signal power, a new civil signal compatible with the 
European Union's Galileo system, and a new spacecraft bus that will 
support a graceful growth path to future blocks.

Weather
    The Defense Meteorological Satellite Program (DMSP) continues to be 
the Nation's workhorse for terrestrial forecasting and space 
environmental sensing. We have three DMSP satellites remaining with 
DMSP Flight 18 scheduled for launch this October. Flight 19 and 20 are 
currently undergoing a Service Life Extension Program to repair, 
replace, and test components that have exceeded their shelf life. 
Flight 19 will launch in October 2012 and Flight 20 will launch in May 
2014 or October 2016, depending on operational requirements.
    In the future the Nation will transition to the next workhorse for 
terrestrial weather--National Polar-Orbiting Operational Environmental 
Satellite System (NPOESS)--a tri-agency effort with National 
Aeronautics and Space Administration (NASA) and Department of Commerce. 
Similar to the previous generation of satellites, NPOESS will provide 
visible and infrared cloud imagery and other atmospheric, 
oceanographic, and terrestrial information. It will become the Nation's 
primary source of global weather and environmental data for operational 
military and civil use.
    Seemingly a straightforward idea to integrate DMSP and POES (Polar 
Operational Environmental Satellite) in the early 1990s, the NPOESS 
program has encountered unforeseen engineering challenges. Integration 
of requirements across the spectrum of space and terrestrial weather 
into several `first-of' sensors partially caused the 2006 Nunn-McCurdy 
breach whereby two sensor suites were de-manifested from the program. 
Currently, the Visible Infrared Imaging Radiometer Suite (VIIRS) sensor 
has bedeviled the program, but it is planned to deliver later this 
year. As a result, NASA's NPP (NPOESS Preparatory Project) satellite 
will become a defacto operational spacecraft when it is launched in 
2011. Like the DSP/SBIRS missile warning architecture, NPOESS C-1 and 
C-2, scheduled to launch in 2013 and 2016, respectively, will initiate 
the phase out of four decades of DMSP service to the country.

Operational Responsive Space
    As a complement to the Nation's assured access to space, the 
Operational Responsive Space (ORS) program builds on the ``back-to-
basics'' approach we have cultivated over the past several years by 
providing enhanced mission capability through incremental blocks of 
small satellites and integration of other responsive space 
capabilities. Key tenants of the ORS program are to keep costs low, 
react rapidly to urgent warfighter needs, and reconstitute capability 
in contested environments. A clear example of these tenants is 
exemplified in the first ORS (ORS-1). It is being built for United 
States Central Command (USCENTCOM) to monitor denied areas and will be 
taskable like other USCENTCOM organic airborne ISR assets.
    Leveraging on the ORS-1 experiences, the Air Force will apply this 
model to other mission areas like communications and space situation 
awareness. In the fiscal year 2010 budget request we will begin the 
steps of on-demand space support with Rapid Response Space Capability, 
whereby plug-and-play satellite busses will be assembled, integrated, 
and tested with Modular Open System Architecture payloads.

Launch and Ranges
    National Space Policy requires assured access to space. Currently 
this requirement is satisfied by the Evolved Expendable Launch Vehicle 
(EELV) program from the United Launch Alliance (ULA) consisting of the 
Delta IV (developed by Boeing) and Atlas V (developed by Lockheed 
Martin) launch vehicles. The first 23 EELV launches have all been 
successful, and are part of our consecutive string of 61 successful 
national security space launches. ULA achieves efficiencies through 
combined engineering, production, and launch operations while 
maintaining the separate Delta IV and Atlas V families of launch 
vehicles. The fiscal year 2010 budget request funds EELV launch 
capability, or infrastructure activities for two EELV launch systems 
and on going support for over twelve launch services ordered by the Air 
Force that are working toward launch. In addition, DOD requests funding 
for five EELV launch services which will take place in 2012.

Space Protection
    The need for increased space protection of our space assets is 
paramount and requires enhanced SSA capabilities--improved accuracy, 
responsiveness, timeliness, and data integration to support the 
warfighter. To do this we must combine various inputs into a single 
picture for decision makers. Currently, operators and warfighters must 
assemble an understanding of the global space picture from many 
disparate sources, including e-mails, telephone calls, classified chat 
rooms, intelligence web sites, and imagery feeds. We have acknowledged 
this shortcoming, and in our fiscal year 2010 budget request we are 
consolidating the Integrated Space Situational Awareness, Rapid Attack 
Identification Detection Reporting System Block 20, and Space Command 
and Control (C2) programs into a new program element--the Joint Space 
Operation Center (JSpOC) Mission System (JMS). The JMS program will 
continue risk reduction engineering and focus on incremental deliveries 
to deploy a services-oriented architecture (SOA) environment and tools 
to progressively advance operational capabilities toward an integrated 
JMS. JMS produces and delivers services in four major categories: 
Infrastructure provides a SOA net-centric collaborative information 
environment at the Top Secret/Sensitive Compartmented Information, 
Secret, and Unclassified levels; Mission Applications enhance and 
modernize accuracy, sustainability, and responsiveness of space 
surveillance capabilities from the legacy functionality; Command & 
Control (C2) provides design, development, and integration functions 
that create, visualize, and share decision-relevant views of space 
operational environment at all echelons; and, Data Integration migrates 
non-traditional sensors and data sources into a net-centric based 
enterprise enabling distribution of data obtained across traditional 
sensors within the space surveillance network critical to the JSpOC 
mission.
    Two programs critical to providing SSA data to the JMS are the 
Space Fence and Space-Based Space Surveillance (SBSS). The Space Fence 
is a three station, worldwide, radar system to detect and track smaller 
sized space objects, while the SBSS satellite is an optical system to 
search, detect, and track objects in earth orbit, particularly those in 
geosynchronous orbit. The Space Fence replaces the Air Force Space 
Surveillance System and SBSS builds upon our success with the Space 
Based Visible technology demonstration. In the fiscal year 2010 budget, 
the Space Fence program will complete a System Design Review and the 
SBSS program will support on-orbit operations of SBSS Block 10 which is 
expected to launch this summer.

Space Industrial Base
    A stable industrial base is vital to successful space systems. 
Numerous studies and reports have documented that the U.S. market share 
of the global space business is steadily decreasing (CSIS Study, 
January 2008). Maintaining a stable space industrial base is not solely 
an Air Force or even DOD concern, and must be addressed with our civil 
and commercial partners as one team.
    We are working with our agency and service partners to strengthen 
interagency awareness and support processes to better synchronize 
efforts across the civil, commercial and national security space 
domains. The Space Industrial Base Council and its subsequent working 
groups consistently address industrial base and critical technologies 
risks and opportunities. Their efforts lead to better management 
practices, identification of cross-cutting technology risk areas and 
subsequent mitigations, and improve communication with industry. 
Specifically, the DOD is working to support U.S. industrial capacity in 
several areas key to space including batteries, radiation hardened read 
out integrated circuits, energy efficient solar cells, and traveling 
wave tube amplifiers.
    Continued and enduring attention to the space industrial base, 
particularly the sub-tier industry, is vital to maintaining a robust 
and viable capability to respond to national security space interests.

Space Cadre
    DOD has over 15,000 military and civilian space professionals. They 
are essential to our full spectrum of operations from keeping the peace 
to fighting the overseas contingency operations, or engaging a peer 
competitor. Consequently, we are committed to providing the best 
possible education, training, and career development to these 
professionals who operate, acquire, and enable our systems. 
Institutions like the Naval Postgraduate School, the Air Force 
Institute of Technology, Defense Acquisition University, and the 
National Security Space Institute are at the forefront of our efforts 
to educate and train these warriors. These organizations provide 
education and training throughout a space professionals' career.
    We recognize that we must be able to measure how we are doing with 
respect to Space Professional Development. We have a set of metrics 
that help us gauge the numbers of cadre needed, our current supply, and 
the health of our cohort in terms of accessions and separations. All of 
these measures will help make us more efficient and better at 
developing our cadre, and ensuring we have the right professionals to 
fill billets across DOD.

                               CONCLUSION

    Our space systems are the envy of the world. Our infrared 
surveillance satellites are able to detect missile launches anywhere in 
the world; no other nation can do that. Our strategic communications 
systems allow the President precise and assured control over nuclear 
forces in any stage of conflict, and our wideband SATCOM systems 
rapidly transmit critical information between the continental U.S. to 
our front line forces; no one else has global, secure, anti-jam 
communications. Our weather satellites allow us to accurately predict 
future conditions half a world away as well as in space. Our GPS 
constellation enables position knowledge down to centimeters and timing 
down to nanoseconds; no one else has deployed such a capability. These 
sophisticated systems make each deployed soldier, sailor, marine, and 
airman safer, and more capable.
    In the fiscal year 2010 budget, continuity of service across our 
space portfolio and improved space protection is paramount. Our `back 
to basics' strategy over the recent years is demonstrating results, as 
we continue toward securing the world's best space capabilities today 
and ensuring the same for our Nation's future.
    The space constellations and the space professionals that deliver 
these capabilities are our critical asymmetric advantage. We must 
ensure the recapitalization and health of these constellations and 
continue the professional development of our future space leaders. 
Delivering space capabilities is complex, challenging, costly, yet 
rewarding. Although we have faced significant challenges, we are also 
making significant progress. I am honored to represent a dedicated 
cadre of space professionals who are delivering space capabilities that 
support our deployed warfighters, our allies, and our Nation.
    I look forward to continuing to work with this committee and thank 
you for your continued support of military space programs.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
                            COMMAND

    [The prepared statement of General Kehler follows:]

           Prepared Statement by Gen. C. Robert Kehler, USAF

                              INTRODUCTION

    Mr. Chairman, Senator Vitter and distinguished members of the 
subcommittee, it is an honor to appear before you today as an Airman 
and as the Commander of Air Force Space Command (AFSPC).
    I am proud to lead and represent the nearly 40,000 Active Duty, 
Guard, and Reserve airmen; government civilians; and contractors who 
assure strategic deterrence and deliver space-based capabilities to 
United States Strategic Command (USSTRATCOM), Joint Force Commanders, 
the Services, the Intelligence Community, civil agencies, commercial 
entities and allies. The men and women of AFSPC serve around the globe 
from AFSPC Headquarters, 14th Air Force (14 AF), 20th Air Force (20 
AF), the Space and Missile Systems Center (SMC), the Space Innovation 
and Development Center (SIDC), and a host of deployed and forward 
locations.
    This has been an exciting and eventful year for AFSPC. Within the 
Air Force, we witnessed two historic decisions in 2008: the assignment 
of cyberspace responsibilities to AFSPC and the establishment of Air 
Force Global Strike Command (AFGSC). While in the midst of implementing 
these decisions for the nuclear and cyberspace missions, reinvigorating 
the Air Force's Nuclear Enterprise remains the highest priority for the 
Air Force and Air Force Space Command.
    Our mission is to provide an integrated constellation of space and 
cyberspace capabilities at the speed of need, and our vision is to be 
the leading source of emerging and integrated space and cyberspace 
capabilities. At AFSPC, we look forward to assuming the lead role for 
cyberspace within the USAF. Air Force operations in the air, space, and 
cyberspace domains are mutually-supporting and reciprocally-enabling; 
the cyberspace domain is inextricably linked to the other domains in 
which the U.S. military operates. Not only must we protect these 
domains, we must also properly integrate them with the other 
operational domains to create joint warfighting effects significantly 
greater than the sum of the parts. Our capabilities are woven through 
Joint operations, weapons networks, and civil and economic activities 
ranging from missile warning to the position, navigation, and timing 
signals we provide both for military use and as a free, international 
utility.
    Space and cyberspace capabilities shape the American approach to 
warfare, are embedded in an ever-more effective arsenal of modern 
weaponry and are threaded throughout the fabric of our warfighting 
networks. Our space-based capabilities are absolutely vital to the 
joint fight. Yesterday's irregular warfare is today's regular warfare; 
asymmetric warfare is the new norm. Space capabilities contribute 
across the spectrum of regular and irregular combat and non-combat 
operations and provide Joint commanders a decisive advantage. Space is 
no longer just the high ground; it is a critical joint enabler and 
force multiplier.
    The airmen of AFSPC provide land-based strategic deterrence through 
our Intercontinental Ballistic Missile (ICBM) fleet led by 20 AF, 
conduct space operations and acquisition via 14 AF and SMC, and will 
soon execute cyberspace operations as part of the future 24 AF. These 
missions are being accomplished by our space professionals every day at 
15 wings and 44 locations spanning the globe. It is my distinct 
pleasure to outline the strategic way forward for AFSPC and to describe 
for you our plan to develop, acquire, employ and execute Air Force 
space, missile, and cyberspace capabilities in an increasingly complex, 
dynamic and challenging global environment. The space, nuclear, and 
cyberspace capabilities acquired with your help and support, and 
delivered by AFSPC airmen, will help maintain America's freedom, 
security, and prosperity.

                            THE WAY FORWARD

    AFSPC activities in 2008 included comprehensive, concerted efforts 
to deliver space and missile capabilities, develop and care for our 
airmen and their families, and encourage collaboration across the space 
enterprise. In addition, we made significant progress in modernizing 
our force and made great strides toward improving our acquisition 
processes with new strategies and actions. AFSPC is proud of its 2008 
achievements; achievements that will serve as building blocks towards 
progress in 2009. AFSPC's strategic way forward will focus on 
delivering the space, nuclear, and cyberspace capabilities our Joint 
Force Commanders require today and into the future. To do this, we have 
outlined five goals that serve to guide our efforts.

 AFSPC Goal: Guarantee a Safe, Credible, Ready Nuclear Deterrent Force 
                    with Perfection as the Standard

    To support the Air Force's priority of ``Reinvigorating the Air 
Force Nuclear Enterprise,'' AFSPC will guarantee a safe, credible, 
ready, nuclear deterrent force with perfection as the standard. Nuclear 
deterrence remains the ultimate backstop of U.S. security, dissuading 
opponents and assuring allies of America's military commitment to 
defend our Nation, its allies and friends. Our Nation's security relies 
heavily on the remarkable attributes of the ICBM force and the 
dedication and professionalism of those who proudly secure, maintain, 
and operate the Minuteman III weapon system. Over the course of 2009-
2010, we will meet daily USSTRATCOM operational requirements; invest in 
sustainment, infrastructure, and our industrial base; continue to 
restore our nuclear culture; and transition the ICBM force to Air Force 
Global Strike Command.
    In response to feedback and direction from the Secretary of 
Defense, Air Force Blue Ribbon Panel, Defense Science Board, Admiral 
Donald Investigation and others, we undertook a comprehensive set of 
actions to address deficiencies and re-establish excellence across the 
Air Force nuclear enterprise. Our roadmap, ``Reinvigorating the USAF 
Nuclear Enterprise,'' is the strategic plan to restore a culture of 
discipline, establish clear organizational structures, and increase 
investment in critical operational and sustainment areas. Perfection, 
precision, and reliability are our performance standards. In recent 
months, all of our missile wings have undergone rigorous Nuclear Surety 
Inspections (NSI) to ensure the utmost standards--and all three wings 
satisfactorily passed their follow-on inspections.
    As for the Minuteman III fleet, we are within 2 years of completing 
an extensive 10-year sustainment effort. As part of this comprehensive 
initiative, all three solid propellant motor stages have been removed 
and re-poured. In addition, the guidance systems and post-boost 
vehicles have been replaced with current technologies. These upgrades 
will ensure the Minuteman III is fully operational until at least 2020.
    The American people depend on the U.S. Air Force to deliver safe, 
credible and reliable nuclear deterrence capabilities, and we will do 
so. Our airmen perform the nuclear deterrence mission with pride, 
professionalism, and a solemn commitment to the highest standards.

      AFSPC Goal: Deliver Assured Combat Power to the Joint Fight

    AFSPC will continue to deliver assured combat power to the joint 
fight. In addition to the airmen deployed ``in-place'' manning ICBM 
launch control centers and space operations centers around the clock, 
in 2008 we forward-deployed nearly 4,000 AFSPC airmen to Operations 
Enduring and Iraqi Freedom and Joint Task Force-Horn of Africa in 
support of ongoing counterinsurgency operations. As a result, 49 AFSPC 
airmen were awarded Bronze Stars while engaged in military operations 
in the United States Central Command (USCENTCOM) area of 
responsibility. Today, we have over 1,200 AFSPC airmen continuously 
forward-deployed.
    In an environment that's more uncertain, complex, and changing than 
ever before, most historic military leaders would not recognize today's 
irregular warfare landscape. Although our Nation and its interests must 
still be protected from hostile forces and strategic threats, today's 
security challenges are more diverse and dispersed. Emerging threats 
are fleeting, scattered globally, may strike anywhere, anytime, and 
increasingly take advantage of the space and cyberspace domains. There 
is a growing reliance from Joint Force Commanders on space-based 
capabilities to provide vital services across the global commons. Our 
airmen are enabling GPS signals to ensure we're putting Joint Direct 
Attack Munitions on targets from aerial platforms and assuring the 
reliability of Blue Force Tracking for soldiers on the ground. 
Warfighters depend on military satellite communications (MILSATCOM) in 
austere environments for data, imagery, and streaming video feeds from 
Unmanned Aircraft Systems (UAS). Today, our forces are interconnected, 
have world-wide cognizance, and strike with greater speed and precision 
than any military in history providing overwhelming and decisive 
results with minimal collateral damage. Our continuous need for global 
communications, GPS, missile warning, weather forecasting and world-
wide intelligence, surveillance, and reconnaissance continues to be met 
by space systems in the face of evolving warfare.
    In 2009-2010, we will continue to improve Space Situational 
Awareness (SSA), execute the Space Protection Strategy, increase GPS 
navigational accuracy and signal security, modernize MILSATCOM, assure 
and exploit new Overhead Persistent Infrared (OPIR) capabilities, and 
transform the launch enterprise.

Space Protection Program
    Another history-making ``first'' occurred in March 2008 when AFSPC 
and the NRO established the Space Protection Program (SPP). The purpose 
of this program is to develop an integrated approach to protect 
critical defense, intelligence, civil, and commercial space systems 
that support national security.
    In response to Congressional direction, AFSPC and the NRO delivered 
the first Space Protection Strategy to Congress in August 2008. The SPP 
strategy was approved by the Deputy Secretary of Defense and identified 
mission critical investments, capability improvements, and critical 
interdependencies. Complementing the SPP Strategy, AFSPC also finalized 
a new roadmap for the SSA mission area along with an interim 
architecture.

Space Situational Awareness
    In concert with the SPP initiative, AFSPC continued efforts to 
develop a cost effective strategy to protect space capabilities, while 
striking the right balance among awareness, hardening, countermeasures, 
reconstitution, and alternate means. The Integrated Space Situational 
Awareness (ISSA) program provides USSTRATCOM, Joint Functional 
Component Command for Space and the joint community an integrated 
source of historical, current and predictive space events, threats, and 
space activities.
    In a dramatic display of teamwork and excellence, AFSPC developed 
the first-ever training procedures and exercises for a real-world 
intercept mission, Operation Burnt Frost. We ensured personnel at the 
Joint Space Operations Center (JSpOC) at Vandenberg Air Force Base, CA, 
were properly trained and our senior leaders possessed accurate and 
timely location of the target satellite, potential impact locations, 
and possible environmental effects. During the mission, we provided a 
glimpse of the future by transforming the legacy ``hub and spoke'' 
space surveillance network into a collaborative, net-centric operation 
providing real-time SSA and sensor-to-sensor hand-offs. Through 
subsequent orbital tracking and cataloguing efforts, we've determined 
every bit of debris created from the intercept has since de-orbited.
    The importance of SSA continues to grow as the space domain becomes 
an increasingly contested and crowded environment. Issues common to 
other domains remain unresolved for space. As a Nation, we have gaps in 
the operational space domain not found in other domains across the 
global commons. The Iridium collision with a Russian communication 
satellite is a recent example highlighting the critical need for 
advanced Space Situational Awareness.
    Commercial and Foreign Entities (CFE) support is one of our top 
initiatives. The CFE Support Program was created in 2004 to focus on 
safety of flight in orbit for government, commercial, and foreign 
satellite operators in the US and around the world. Under our current 
pilot program, we are equipped, manned, and resourced to provide 
Conjunction Assessment (CA) analysis for capabilities critical to 
national security and homeland defense. An ever-changing space 
environment continues to become further crowded with increasing amounts 
of debris and new entrants. This has challenged our capability in the 
midst of declining resources and greater demand for basic CA and 
advanced services.
    In an effort to improve our capabilities, we are augmenting our CFE 
resources and communicating the expanded services to the CFE community. 
AFSPC will expand and automate our processing and analytical 
capabilities thereby enabling expanded CA services and in the fall of 
2009, we will transition our CFE pilot program to USSTRATCOM to 
continue long-term operations and support from the JSpOC. Our goal 
remains to provide SSA services to legitimate and trusted CFE users 
ensuring space flight safety and freedom of action in space.

Schriever War Game Series
    The recurring AFSPC Schriever Title 10 War Game series has proven 
insightful in identifying key operational and policy issues. Having 
just wrapped up our Schriever V War Game in March 2009, we are now 
reviewing key issues involving space deterrence, capability employment, 
and national space policy considerations with senior Air Force and 
other national decisionmakers. Schriever V clearly identified areas 
requiring additional emphasis, policy development, resources and 
analysis. It also demonstrated the far-reaching importance of space to 
combat operations, policy execution, and diplomacy. We are now underway 
with plans for Schriever VI, and we look forward to increased 
international and industry participation.

Position, Navigation and Timing
    The Global Positioning System (GPS) continues to provide highly 
accurate position, navigation and timing signals enabling Joint combat 
operations around the world. GPS is a free global utility that serves 
as an enabler for economic transactions influencing the global economy 
by more than $110 billion annually. Throughout 2008, AFSPC operated the 
most precise, largest-ever GPS constellation and took its first big 
step towards deploying GPS III when we awarded a contract in May 2008 
to build eight of the Block IIIA satellites. Complementing the space 
segment, we replaced the unsustainable legacy GPS Master Control 
Station ground segment with the Architecture Evolution Plan (AEP) and 
Launch Anomaly and Disposal Operations (LADO) Systems. AEP improves GPS 
accuracy, provides the capabilitiy to operate the GPS IIF satellites, 
and affords increased protection of the military's GPS M-code. LADO 
provides critical launch operations support and on-orbit operations for 
the GPS constellation. The transition to both the AEP and LADO system 
was seamless and transparent to users across the globe. In 2008, our 
acquisition team began developing the Next-Generation Operational 
Control Segment (OCX). This segment is not only required to launch and 
sustain GPS IIIA space vehicles on orbit, but is essential to moving 
the GPS towards robust, effects-based operations.
    At the same time, plans are well underway to launch, deploy and 
begin operating the first GPS IIF space vehicle by December 2009. These 
new vehicles will broadcast the first operational L5 signals, thereby 
providing civilian users an additional, higher powered signal. This 
signal is protected by internationally recognized safety of life 
spectrum rules ensuring robust quality of service with minimal 
interference.

Military Satellite Communications
    As our MILSATCOM capability continues to grow, so does the age of 
our fleet. Aged in many cases beyond their design lives, the Military 
Strategic and Tactical Relay Satellite (MILSTAR) and the Defense 
Satellite Communications System-III (DSCS-III) will have to continue to 
provide critical communications services for the Nation's protected and 
non-protected military and diplomatic activities while we deploy the 
next generation of advanced MILSATCOM capabilities.
    With the commencement of mission operations over the first Wideband 
Global SATCOM (WGS) satellite in April 2008, we demonstrated a ten-fold 
increase in our wideband SATCOM capabilities providing the warfighter 
increased data, voice, video, and imagery. Additionally, we validated 
and accepted the geographically separated Backup Satellite Operations 
Center at Vandenberg Air Force Base. This $2.7 million effort supports 
MILSTAR, DSCS, and WGS operations.
    Looking towards the future of MILSATCOM, we began preparations to 
accept the first Advanced Extremely High Frequency (AEHF) 
communications satellite in 2010. We look forward to the AEHF system as 
it will increase the protected communications data rate more than five-
fold and afford more coverage opportunities than what MILSTAR provides 
today. Not only will AEHF provide enhanced national command and control 
satellite networks for the President, Secretary of Defense, and our 
combatant commanders, it will also ensure warfighters receive critical 
information such as the air and space tasking orders, operational 
plans, and time-phased force and deployment data. We transitioned to an 
innovative $1.25 million operations center and began training Subject 
Matter Experts (SME) in preparation for our next generation satellite 
system. Deployment of WGS and AEHF allows us to close the gaps in the 
areas of volume, data rates, protected communications, and net-
centricity for the warfighter and our Nation's leadership.
Intelligence, Surveillance, and Reconnaissance
    The Space Based Infrared System (SBIRS) will provide the Nation 
with critical comprehensive missile warning, missile defense, technical 
intelligence, and battlespace awareness information well into the 21st 
century.
    In November 2008, the SBIRS Mission Control System Backup--Highly 
Elliptical Orbit (HEO) facility and HEO-1 payload were accepted for 
operational use, followed by USSTRATCOM certification in December 2008. 
The second HEO payload is now on-orbit and undergoing checkout. The 
exceptionally high quality of HEO infrared data has led to additional 
exploitation initiatives providing major long-term benefits to our 
Joint Force Commanders.
    As the SBIRS HEO-1 system was certified for operations and is 
providing critical data to warfighters, the SBIRS Geosynchronous Earth 
Orbit (GEO-1) and GEO-2 space vehicles made significant assembly, 
integration and test progress. We will continue satellite testing and 
integration and look forward to launch readiness testing in fiscal year 
2010.
    The future of OPIR is the Third Generation Infrared Satellite 
currently undergoing research and development. In 2009-2010, we will 
continue down the path of wide field of view technology maturation 
activities. We have received wide field of view sensor prototypes and 
are on contract for a scientific experiment on a commercial rideshare 
mission in 2010.

Space Control
    As the Air Force enters its 18th year of continuous combat 
operations in the Persian Gulf, AFSPC continues to provide sustained 
counterspace capability to USCENTCOM and is in its fifth year of 
continuous presence in theater with the defensive counterspace system--
Silent Sentry. The resounding success of the Silent Sentry has led to 
the Rapid Attack Identification Detection and Reporting System (RAIDRS) 
Block 10 program, which detects and geolocates satellite communications 
interference via fixed and transportable ground systems.
Operationally Responsive Space
    The Operationally Responsive Space (ORS) program is also focused on 
the joint fight. AFSPC partnered across the space enterprise and 
responded to three urgent warfighter needs in communications, SSA, and 
ISR. We addressed the warfighters' requirements through a variety of 
innovative approaches to include: accelerated delivery of demonstration 
efforts, explored alternative uses of on-orbit capability, expanded use 
of commercial assets, and military utility experimentation with a 
tactical communications satellite. In addition, we began development of 
ORS Sat-1 to meet a critical USCENTCOM ISR requirement.

Launch Enterprise Transformation
    Assured access to space is paramount to providing space 
capabilities to the warfighter. AFSPC continues to deliver 100 percent 
space launch mission success--one mission at a time. Within our launch 
community, we witnessed the continuation of our winning streak with an 
unprecedented string of 61 successful national security space launches 
including the 23rd consecutive successful launch of the Atlas V and 
Delta IV Evolved Expendable Launch Vehicles (EELVs). Following a 22-
month, $300 million launch site modification effort, the first west 
coast Atlas V successfully delivered a critical NRO satellite into 
orbit. We recently launched the GPS IIRM-20 onboard a Delta II in 
March, as well as the second WGS satellite in April onboard an Atlas V. 
Additionally, AFSPC supported two world-wide tests of the Ground-based 
Mid-course Defense long-range missile interceptor system.
    In a broader context, AFSPC continues to advance our Space Launch 
Enterprise Transformation (LET) effort to posture our command for the 
future of assured access to space. The LET focuses on three 
initiatives: transformation of launch services acquisition, upgrading 
the launch range architecture, and fully leveraging Total Force 
Integration (TFI). While the military launch business has long been 
recognized as a key contributor to space, we understand the 
significance of fostering the growth of commercial launch capabilities.

  AFSPC Goal: Forge a Battle-Ready Team by Attracting, Developing and 
                        Retaining America's Best

    To support the Air Force's priority of ``Developing and Caring for 
Airmen and Their Families,'' AFSPC is forging a battle-ready team by 
attracting, developing and retaining America's best. During 2009-2010, 
we will improve training and professional development programs, 
establish viable career pathways, and guarantee quality of life 
programs for our members and their dependents. We are taking the 
necessary steps to care for our airmen and their families. While we 
undertake comprehensive organizational realignment, AFSPC is working 
hard to ensure a seamless transition of the land-based nuclear 
deterrent to Air Force Global Strike Command and to establish processes 
for deliberate development of nuclear expertise among our ICBM 
professionals. At the same time, we're preparing for the integration of 
the cyberspace mission by carefully crafting a professional development 
program that guarantees appropriate education, training and skill sets 
for this unique and challenging mission area and its synergies with our 
space professionals.

Developing Airmen
    AFSPC further defined space and missile training as well as 
professional qualification and development relationships with Air 
Education and Training Command allowing us to focus on our Organize, 
Train and Equip (OT&E) activities. Contributing to our educational 
efforts, the National Security Space Institute (NSSI) continued to 
enhance its reputation as the center for top-quality space education 
and training for students of all ranks across the Department of Defense 
and related government agencies. In 2008, the NSSI taught 77 courses to 
over 1,500 students. We also established an ICBM Advanced Course at the 
NSSI providing 2 weeks of mission-focused education for the operations, 
maintenance, security and helicopter personnel who operate, sustain and 
secure our ICBM force. Furthermore, we institutionalized attendance at 
the Air Force Nuclear Weapons Center's Nuclear Management Fundamentals 
Course for all inbound commanders who will serve at our nuclear units, 
and we are developing a focused ICBM Weapons Instructor Course (WIC) at 
the USAF Weapons School (USAFWS) at Nellis Air Force Base, NV.

Families and Quality of Life
    AFSPC recognizes the critical roles our families play as integral 
members of the Air Force team. In AFSPC, we extended the Air Force's 
wingman culture to our families to help nurture success on the home 
front. AFSPC aggressively improved the quality of life where airmen 
work and live by awarding $143 million in 2008 for a host of 
revitalization initiatives to include family housing, a dormitory, and 
child development center. In addition, American Recovery and 
Reinvestment Act stimulus funds of $145.5 million are being invested 
across the command for modernization of base infrastructure and 
military construction (MILCON). For 2009, we have $31.5 million in 
MILCON projects for dorm renovation, facilities construction, and other 
key projects across the Command.

AFSPC Goal: Modernize and Sustain AFSPC's Enduring Missions and Mature 
                           Emerging Missions

    To support the Air Force's priority of ``Modernizing Our Air and 
Space Inventories, Organizations and Training,'' AFSPC will modernize 
and sustain AFSPC's enduring missions and mature emerging missions. 
Throughout 2009-2010, we will transition cyberspace capabilities to 
AFSPC and standup a new operational Numbered Air Force (NAF). We will 
also finalize a basing location and establish cyberspace training and 
acquisition processes through which we will present cyber forces to the 
Joint Force Commanders.
    In 2008, AFSPC increased the depth and breadth of Air Reserve 
Component (ARC) support to AFSPC missions. AFSPC's first-ever TFI 
Strategy was developed to fully leverage the unique strengths of the 
ARC in both existing and emerging missions. New TFI partnerships are 
underway across the launch, SSA, space control, and cyberspace 
operational mission sets. In April 2008, we activated the 310th Space 
Wing at Schriever Air Force Base, CO, as the Air Force's first-ever 
Reserve space wing. In addition, we activated the 380th Space Control 
Squadron at Peterson Air Force Base, CO, as the Reserve Associate Unit 
for the RAIDRS mission.

 AFSPC Goal: Reengineer Acquisition to Deliver Capability at the Speed 
                                of Need

    To support the Air Force's priority of ``Acquisition Excellence,'' 
AFSPC will reengineer acquisition to deliver capability at the ``speed 
of need.'' During 2009-2010, we will continue working a ``back to 
basics'' philosophy and block-build approach, fund to the most probable 
cost, increase our acquisition work force, improve relations with 
industry, and control requirements. Our Space and Missile Systems 
Center will deliver five major new systems and mission capabilities in 
the next 6 to 24 months for SBIRS, AEHF, WGS, GPS IIF, and the Space-
Based Space Surveillance (SBSS) system. The GPS III and OCX programs 
are on the right vectors for success, and we are improving our space 
development expertise, processes and culture.
    In today's world of rapid technological advancement and 
proliferation, we cannot afford to do business as usual when it comes 
to delivering space capabilities. The nature of warfare, as influenced 
by the information age, has changed dramatically in terms of symmetry, 
ambiguity, time, distance, and boundaries. This environment requires a 
paradigm shift necessary to deploy space capabilities at the ``speed of 
need'' while still executing efficient acquisition practices.

                               CONCLUSION

    Defending the United States of America and its allies and friends 
is a continuous mission that requires the utmost planning and 
execution. As technology advances, so do the means that can be employed 
by those who threaten our way of life. AFSPC seeks to perfect the most 
formidable, capable and remarkable military space, missile and 
cyberspace force the world has ever known. This will allow warfighting 
commands to meet the challenge of protecting the American people, their 
livelihoods and interests with precision at the moment of need. With 
the continued support of Congress, AFSPC is postured to maintain a 
crucial leadership role as we realize our vision to be the leading 
source of emerging and integrated space and cyberspace capabilities.

STATEMENT OF LT. GEN. LARRY D. JAMES, USAF, COMMANDER, 14TH AIR 
FORCE, AIR FORCE SPACE COMMAND AND COMMANDER, JOINT FUNCTIONAL 
  COMPONENT COMMAND FOR SPACE, UNITED STATES STRATEGIC COMMAND

    [The prepared statement of Lieutenant General James 
follows:]

          Prepared Statement by Lt. Gen. Larry D. James, USAF

    Mr. Chairman, Ranking Member Vitter, and distinguished members of 
the subcommittee, I am honored to be here today for my first 
opportunity to appear before you as United States Strategic Command's 
(USSTRATCOM) Commander of the Joint Functional Component Command for 
Space (CDR JFCC SPACE).
    It's a distinct privilege to address you on our space posture, and 
to represent the men and women of JFCC SPACE who employ space 
capabilities around the globe every day. These soldiers, sailors, 
airmen, and marines are a dedicated and innovative joint force, working 
hard to ensure efficient and effective space operations. Their 
professionalism ensures our joint forces can exploit space-based 
capabilities to the maximum extent.
    Today I will focus my discussion on employment of space 
capabilities, the events shaping our future planning, and identify some 
of the challenges we face as we work to operate effectively and safely 
in an increasingly complex and congested space environment.

                    EMPLOYMENT OF SPACE CAPABILITIES

    USSTRATCOM provides space effects to Department of Defense (DOD) 
global users that are critical to military operations. CDR JFCC SPACE 
is designated by CDRUSSTRATCOM as the single point of contact for 
military space operations. As such, I am tasked to provide tailored, 
responsive, local, and global space effects to the various combatant 
commanders. My USSTRATCOM-delegated authorities include Global Space 
Coordinating Authority, which makes me the primary interface with 
supported joint commanders for operational-level planning and execution 
to provide space effects in support of those combatant commanders' 
objectives. CDR JFCC SPACE also is assigned Operational Control and 
Tactical Control authorities for designated worldwide space forces. 
These authorities provide USSTRATCOM a single, globally focused 
component commander to enhance functional integration of space 
capabilities for the joint warfighter and for the Nation.
    Every significant military operation uses space capabilities in 
some way--space capabilities are truly integral to military operations 
in the 21st century. The criticality of space effects to the warfighter 
is readily apparent in ongoing operations in Afghanistan where Global 
Positioning System (GPS) services provide foundational data, enabling 
us to track the location of U.S. and coalition forces. But it is not 
just Blue Force Tracking; for the military users, there are multiple 
examples of space-based successes.
    For example, precision accuracy of the GPS-guided Excalibur 
artillery rounds have enabled the U.S. Army to strike top al Qaeda 
operatives in close proximity to our infantrymen, without exposing 
soldiers to undue risk. On 27 March 2009, following an enemy ambush 
against a coalition unit, a B-1B Lancer used GPS-guided 500 lb. bombs 
to destroy a series of enemy fighting positions and a fortified heavy 
machine gun position near Tarin Kowt, Afghanistan. On 26 April 2009, 
four F/A-18 Super Hornets flown from the deck of the Eisenhower Carrier 
Strike Group delivered four 500 lb. GPS-guided JDAMs onto enemy 
fortified compounds and machine gun fighting positions, ending a fire 
fight with coalition forces. Clearly, the GPS constellation enables our 
forces worldwide to maneuver into a militarily advantageous position 
and then, through various GPS-aided munitions, exploit that tactical 
advantage to create effects ranging from tactical to strategic.
    Our military satellite communications capabilities provide ample, 
readily accessible bandwidth, delivering joint warfighters secure 
military communication, and enabling the free-flow of battlespace 
characterization data and critical intelligence. The recent 
introduction of Wideband Global Satellite Communication operations 
boosted area of responsibility communications tenfold for 140,000 
warfighters. Wideband satellites allowed theater commanders to rely on 
real time, high-capacity broadcast video feeds from Predators to 
enhance their execution of tactical battlespace management, and to 
providecombat support information for deployed forces.
    Our space-based missile warning systems were absolutely essential 
to providing tracking and assessment of the latest Taepo-Dong 2 (TD-2) 
missile launch from North Korea. Multiple space-based missile warning 
systems provided initial launch detection, enabling rapid threat/non-
threat characterization, and confirming the event as a space launch. 
Clearly, space-based assets provide critical data to produce effects 
for successful military operations across a multitude of engagements. 
Strong communication links, operational relationships, and reach back 
to the Joint Space Operations Center (JSpOC) ensure USSTRATCOM is able 
to provide users the effects they need.
    Space capabilities are no longer just the province of large 
nations. Access to space and space products becomes cheaper and more 
widely available every year. The commercialization of space has allowed 
many developing nations and non-state actors to acquire space-based 
capabilities, such as imagery and satellite communications, that were 
previously the exclusive purview of superpowers. With more space 
players, space is more crowded than ever. In 1980 only 10 countries 
were operating satellites in space. Today, 9 countries operate 
spaceports, more than 50 countries own or have partial ownership in 
satellites and citizens of 39 nations have traveled in space. In 1980 
we were tracking approximately 4,700 objects in space; 280 of those 
objects were active payloads/spacecraft, while another 2,600 were 
debris. As of 1 May 2009 we are tracking approximately 19,900 objects; 
1,300 active payloads and 8,700 pieces of debris. In 29 years, space 
traffic has quadrupled. We have already seen one catastrophic collision 
in space with the Iridium/COSMOS conjunction, and as the number of 
objects in space increase, so do the chances of another collision. 
Clearly, managing this environment and our assets is a key focus of our 
efforts.

                        KEY EVENTS OF 2008/2009

    Although we have made progress in improving our space situational 
awareness (SSA), February's unfortunate collision between an active 
Iridium communications satellite and an inactive Russian satellite, and 
last month's test of another North Korean TD-2 missile, continue to 
tangibly demonstrate the complexity of the environment, the challenge 
of emerging space faring nations, and the demands on our space systems. 
To date we have cataloged over 940 pieces of debris that resulted from 
the Iridium/COSMOS collision and there are likely thousands of smaller 
pieces our sensors can't track. Only 18 items of debris have reentered 
so far, with the remainder expected to be in orbit for decades. This 
debris will slowly decay due to natural forces, but it will remain a 
hazard to manned and unmanned spaceflight in low Earth orbit, and to 
satellites transiting that region, for several years.
    We've derived many lessons from the TD-2 missile event, chief among 
them the requirement to integrate and fuse many sources of space, 
ground and intelligence data, in many disparate systems and security 
channels. This is a lesson we identified during the 2007 Chinese anti-
satellite (ASAT) test, and experienced again during the 2008 NRO 
satellite intercept, and although we have implemented tactics, 
techniques, and procedures to mitigate potential delays in information 
flow, the challenge of collecting, integrating and fusing this data 
still exists. It again took the significant efforts of many to manually 
assemble information and then pass it to senior decision makers. While 
we were very successful once again due to outstanding cooperation 
between the intelligence and operations communities, we clearly need 
improved processing and analytic systems that can continually compile 
and automatically fuse SSA, intelligence and other all-source 
information in real-time to keep us abreast of space events. Our 
lessons learned from the TD-2 test will continue to guide future 
improvements and our developmental efforts for the JSpOC to ensure 
USSTRATCOM is able to provide users the effects they need.
    However, collisions and space traffic growth are not the only 
challenges or threats to our space assets. The January 2007 Chinese 
test of an ASAT demonstrated the kinetic kill capability of space 
assets and this capability will continue to be a threat in the future. 
Even more ubiquitous is the capacity to jam satellite communications 
links; this is within the capability of many nations, as well as non-
state actors. Space-related ground sites can be damaged by direct 
attack. Several nations are working on high-energy lasers that could 
damage or destroy our satellites. With the exception of the high-energy 
laser, all of these threats to our space systems exist today. Our 
Nation's growing dependence on space-based capabilities, coupled with 
the increasing threats and operational risks we face, creates 
corresponding potential military and economic vulnerabilities. We must 
protect our space assets against intentional and unintentional acts in 
order to preserve our essential space capabilities, and accordingly, we 
must change our mindset from passive to active protection measures to 
ensure USSTRATCOM's ability to execute and integrate operations across 
all lines of operations.

                      SPACE SITUATIONAL AWARENESS

    Space situational awareness is more than understanding the space 
environment, tracking objects, and conducting conjunction assessments. 
We need to be able to discriminate between natural and manmade threats. 
We need to understand the location, status and purpose of these 
objects, their capabilities, and their owners' intent. This 
comprehensive knowledge enables decision makers to rapidly and 
effectively select courses of action to ensure our sustained freedom of 
action and safety in what is clearly a contested space environment.
    The U.S. space surveillance architecture currently detects and 
tracks thousands of objects, but critical gaps remain in our ability to 
fully track and characterize all on-orbit objects, analyze and predict 
conjunctions, and protect not just military satellites, but also the 
commercial and civil satellites that are critical to national security. 
The Space Surveillance Network provides acceptable coverage in the 
northern hemisphere, but we have a significant coverage gap in the 
southern hemisphere. By filling this gap we increase the JSpOC's 
ability to rapidly detect, track, and characterize new payloads and 
maintain awareness of maneuvering spacecraft.
    Our sensor network is currently able to track objects as small as 
10 centimeters across. We do this well for low Earth orbits; however, 
our ability decreases as we track objects in the more distant 
geosynchronous orbit. We need to improve our capability to track and 
assess smaller objects in all orbits if we are to keep pace with the 
potential threats from emerging small satellite technologies, and to 
gain better awareness of the hazards posed by small space debris.
    We must sustain the momentum gained through investments such as the 
Space Fence and Space-base Space Surveillance system and strive to 
close SSA gaps, bringing us ever closer to combining an operational 
picture of space with command and control systems, and moving us from 
``watching and reacting'' to ``knowing and predicting'' in the space 
domain.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Obtaining intelligence of other nations' intentions in space is a 
particularly challenging issue. Our Intelligence Community is working 
towards building the necessary foresight to improve our ability to 
anticipate what others may do in space, whether to use the space 
environment to benefit their military operations, terrorist attempts, 
or to deny the U.S. space-provided services which we have grown 
dependent on.
    Improved analytic systems and connectivity will help us fuse 
operations and intelligence data. Backing that up must be a cadre of 
space intelligence experts, both within the Intelligence Community (IC) 
and within the JSpOC, who can readily focus and apply information to 
support our command and control activities, and ultimately provide 
necessary support to the warfighter. The DOD, IC, and National Air and 
Space Intelligence Center are working together to improve systems and 
develop our intelligence experts. These efforts are a tremendous start, 
but must remain a priority in order to provide near real time, 
actionable intelligence to the warfighter.
    Furthermore, we have barely begun to scratch the surface in terms 
of the potential data to be exploited from current and future space 
systems. Air Force Space Command (AFSPC) has recognized this need and 
formed a Battlespace Awareness and Technical Intelligence Capability 
Team to develop the exploitation and dissemination systems, processes 
and architecture that will allow us to more fully integrate AFSPC 
sensor capabilities with those of the rest of the Air Force, our sister 
Services, and the IC, to provide multi-source intelligence from DOD 
space-based sources to support joint warfighters and national 
decisionmakers. We fully endorse these efforts and are partnering 
closely with AFSPC to prepare ourselves for the key role JFCC SPACE 
will play in commanding and tasking these assets.

                    SPACE AND CYBERSPACE INTEGRATION

    Emerging threats may originate anywhere, at anytime, and 
increasingly take advantage of space and cyberspace domains. Global 
effects, speed of attack, availability of information, and the ability 
to strike from remote locations are common attributes across both 
domains. As such, our adversaries have unprecedented, immediate access 
to information utilizing minimal resources. Space and cyberspace are 
truly contested domains, and our Nation's critical information is more 
vulnerable than ever and must be protected.
    Space and cyberspace capabilities continue to shape the world's 
approach to warfare. They are embedded in an increasingly, diverse 
arsenal of modern weaponry, and are threaded throughout warfighting 
networks. When integrated, space and cyberspace operations will become 
an even more powerful force multiplier. We must take actions to 
integrate space and cyberspace operations to protect the United States' 
freedom of action and information.
    We will continue to face many challenges in space and cyberspace. 
To ensure their integration, we must take the same operational 
mentality we have of the space environment and apply this mindset to 
cyberspace.

                          COMMAND AND CONTROL

    JFCC SPACE commands and controls worldwide space forces to ensure 
space-based effects meet warfighter needs. To ensure we can continue to 
effectively support the warfighter and senior decisionmakers, we 
require more automated, net-centric capabilities to command and control 
space forces, and networked sensors and information systems that 
seamlessly share information to more effectively leverage our current 
resources. This will give us the ability to rapidly react via real-time 
dataflow to the JSpOC for processing and analysis, and then real-time 
flow of the refined product back to the user.
    We are aggressively pursuing command and control capabilities to 
consolidate intelligence information, predict adversary threats to U.S. 
space systems, improve our ability to monitor assigned and attached 
force status, and predict impacts to operational users due to system 
outages. Together, these capabilities provide a predictive knowledge of 
the space operating environment and impacts to operations, as well as 
enable a broader set of options to proactively posture U.S. space 
forces to mitigate threats.
    The U.S. must continue to lead the community of space-faring 
nations and encourage responsible behavior in all facets of space 
operations. The JSpOC is the focal point for ensuring safe, effective 
operation of our space forces and those of our partners. We need to 
gather real-time, quality data, have the ability to exploit that data 
rapidly and accurately, and then export decision-quality information 
across a range of customers from the intelligence community to deployed 
forces to produce effects for the warfighter in an integrated, holistic 
way.
    Finally, we must continue to focus on capability requirements of 
the joint warfighter. Matching future users' requirements with 
technological advances will allow USSTRATCOM to provide the most 
advanced and reliable space effects in response to the growing demands 
of the Nation's warfighters.

                               CONCLUSION

    The nature of space operations is rapidly evolving, as is the 
United States' and coalition partners' dependence on space. While we 
continue to exploit current space-based capabilities to the maximum 
extent, we still need increased efforts to close intelligence and SSA 
gaps, and increased efforts to enhance our command and control 
capabilities, ensuring USSTRATCOM's ability to continually provide the 
right effect, to the right user, at the right time anywhere on the 
globe. Working in collaboration with other departments and agencies in 
the U.S. Government, the DOD must continue to build the relationships, 
processes, and capabilities within the global space community that 
allow us to operate effectively together to meet our national security 
objectives. I am truly honored to lead such a talented group of men and 
women. Perfection is our standard and you can be proud of your 
soldiers, sailors, airmen, and marines that expertly tackle the 
challenges we face every day. I thank the subcommittee for your 
continued strong support as we work to preserve our vital space 
capabilities for our Nation.

 STATEMENT OF VADM HARRY B. HARRIS, JR., USN, DEPUTY CHIEF OF 
          NAVAL OPERATIONS FOR COMMUNICATION NETWORKS

    [The prepared statement of Vice Admiral Harris follows:]

            Prepared Statement by VADM Harry B. Harris, USN

    Mr. Chairman, distinguished members of the subcommittee, as the 
Deputy Chief of Naval Operations for Communication Networks, I am 
honored to appear before you today to address your Navy's space 
activities. Let me begin by thanking Congress for its sustained and 
significant support to the men and women in our Armed Forces. I am the 
Navy's resource sponsor for space; in that capacity, I am responsible 
for funding Navy space programs. This sponsorship includes the Mobile 
User Objective System (MUOS), which is the next generation Ultra High 
Frequency (UHF) Satellite Communication system. MUOS will provide more 
capable tactical communications to our joint, mobile warfighter. I am 
also responsible for developing the Navy Space Strategy, writing the 
Navy's Space Needs letter, and supporting the Navy Space Cadre.
    If I had to summarize my testimony to you today in a one sentence 
sound bite, it would be that the Navy is critically dependent on space 
to conduct not only our wartime mission, but also our core capabilities 
of forward presence, deterrence, sea control, power projection, 
maritime security, humanitarian assistance, and disaster response. A 
day without space is a long day, indeed. A wide array of national, 
joint, and commercial satellites currently provides Navy commanders 
with essential worldwide communication capabilities; navigation; 
missile warning; meteorological data; and over-the-horizon 
intelligence, surveillance and reconnaissance. Although the Navy is one 
of the largest `users' of space in DOD, we rely on the Air Force and 
the Intelligence Community to develop and field the majority of our 
space systems.

                          NAVY SPACE STRATEGY

    Let me now address the Navy Space Strategy. One of the Navy's 
primary goals is to shape the outcome of joint deliberations on future 
space capabilities to maximize naval combat effectiveness. Within the 
Navy, space-related functions and responsibilities are distributed 
among different commands, which together constitute a functional ``Navy 
Space Team'' that works collaboratively to advance our many goals in 
space.
    In 2008, the Chief of Naval Operations published the Navy Space 
Strategy, which provides key elements and guidance to implement the DON 
Space Policy. The Navy Space Strategy focuses on two broad themes. 
First, to influence the large DOD and national investments in space 
systems through direct, active participation in the National Security 
Space enterprise. Second, to leverage DOD and national space resources 
through improvement of the integration of space systems capabilities 
into the Navy's combat systems. Our strategy addresses five key goals: 
(1) mitigating the impact of the risk that adversaries pose to critical 
space systems upon which the Navy depends; (2) identifying, 
documenting, and advocating Navy's specific requirements for future 
space systems; (3) posturing the Navy Space Cadre to ensure we place 
the right person in the right job at the right time; (4) prioritizing 
and funding essential science, technology, research and development 
efforts to meet Navy's needs in space; and (5) expanding Navy 
leadership engagement with senior Department of Defense, Joint, and 
National Intelligence Community space leaders to better advocate for, 
and positively influence, Navy issues in space.
    Your Navy is actively engaged with key national and joint space-
related organizations to ensure current and future Navy needs in space 
are identified. Venues for this engagement include the DOD Space 
Posture Review, the Quadrennial Defense Review, and National Security 
Space Program assessments.
    A specific example of this is our active participation with other 
Services and the intelligence community in addressing the current and 
future electro-optical satellite architecture. Secretary Gates' and 
Director Blair's recent decision on electro-optical modernization 
validates the importance these systems play in our national security. 
Through this modernization we will create an enabling collection of 
capabilities to support current and future naval operations. In 
addition, we continue to assess the military utility of commercial 
sensing capabilities to support our current operations worldwide. For 
example, within the Sixth Fleet area of responsibility we are currently 
looking at the value of commercial sensing to support Theater Security 
Cooperation and Maritime Domain Awareness.
    Navy is also working with the newly established Space Protection 
Program sponsored by Air Force Space Command and the National 
Reconnaissance Office.

        ULTRA HIGH FREQUENCY NARROWBAND SATELLITE COMMUNICATIONS

    The Navy's major space segment responsibility to the joint 
community is the UHF narrowband satellite communications constellation. 
Today this constellation consists of eight UHF Follow-On satellites, 
two residual Fleet Satellites (FLTSAT), one Leased Satellite (LEASAT 
5), and leased capacity on SKYNET 5C. The MUOS will begin to replace 
these systems in 2011.
    MUOS, which is designated as a Major Defense Acquisition Program, 
is the next generation UHF satellite constellation; it will consist of 
four operational satellites and an on-orbit spare. MUOS will support 
Unified Commands and Joint Task Force Components, DOD and non-DOD 
agencies, and allied and coalition users. With both a legacy UHF 
payload that provides the same capability as the current UHF Follow-On 
satellite, and a new UHF waveform payload, MUOS will significantly 
increase the number of accesses and throughput available to the 
warfighter by more than an order of magnitude while retaining backward 
compatibility with legacy UHF terminals. It will provide tactical 
narrowband netted, point-to-point, and broadcast services of voice and 
data worldwide in challenging environments including double canopy 
foliage, urban environments, and high sea states, as well as mitigate 
threats to deny use of the satellite.
    MUOS is critical to satisfying the demand for tactical satellite 
communications. During Operations Enduring Freedom and Iraqi Freedom, 
the UHF system (UHF Follow-On, FLTSAT, and LEASAT 5) was only able to 
support 20 percent of the narrowband tactical UHF satellite 
communication capability requested by operators even though 80 percent 
of the capacity was devoted to these operations. LEASAT 5 will reach 
its end of service life in early 2011, and the UHF Follow-On 
constellation is predicted to reach an unacceptable level of 
availability in May 2010. The good news is that the FLTSAT and UHF 
Follow-On satellites are operating well past their design lives--we are 
getting every bit of our investment out of them . . . and then some. In 
order to minimize the operational impact of any gap in UHF satellite 
availability, we are executing a mitigation plan, and developing 
further paths to maximize system capability until MUOS satellites and 
MUOS-capable terminals come online. We have increased the use of leased 
commercial bandwidth on LEASAT 5, and have recently added a lease on 
Skynet. One of our major mitigation efforts involves the maximization 
of available satellite communications channels on the newest UHF 
Follow-On satellite. The program office for UHF Follow-On took 
advantage of the satellite's digital capability and component 
redundancy to allow use of 10 additional channels, beginning 5 months 
ago in December 2008. This was achieved at virtually no cost. Similar 
gains may be possible on the legacy payload that MUOS satellites will 
carry, once on orbit. We are now exploring this option as part of our 
effort to maximize accesses during the transition from legacy to MUOS-
capable terminals. The MUOS advanced waveform will deliver capabilities 
such as increased capacity, higher data rates, and ability to operate 
with smaller terminals. The fielding of MUOS-capable Joint Tactical 
Radio System terminals, and/or the upgrade of existing UHF legacy 
software-programmable terminals, are required for the use of this new 
MUOS capability.
    Today, the UHF Follow-On satellite supports approximately 600 
simultaneous accesses worldwide. Based on evolving warfighting concepts 
in support of the Guidance for Development of Forces, UHF satellite 
communications requirements are expected to grow, and MUOS, as 
designed, will be able to support that requirement.
    The MUOS program office currently projects a schedule delay to 
satellite #1's on-orbit capability, from March 2010 to no earlier than 
February 2011. The prime contractor has experienced challenges with two 
of the key pieces of technology. Several challenging technical hurdles 
still remain, including final satellite assembly and certification. The 
program office has been aggressively addressing and mitigating cost and 
schedule issues.
    The delivery of MUOS is a high priority for Navy. Warfighters need 
MUOS not only for the advanced capabilities that it will provide, but 
also for the warfighter-critical legacy payload, which will replenish 
our rapidly aging UHF Follow-On constellation.

                     OPERATIONALLY RESPONSIVE SPACE

    With regard to Operationally Responsive Space (ORS), satellites 
provide global access and are a key enabler for our Navy's worldwide 
missions. To maintain our asymmetric expeditionary advantage, we must 
be able to surge additional space-based capabilities such as 
intelligence, surveillance, and reconnaissance; position, navigation, 
timing; and satellite communications, on accelerated timelines. We must 
be able to add capabilities in any area of focus, as well as rapidly 
reconstitute lost capability. ORS solutions have the potential to fill 
the gaps for warfighters going in harm's way, and represent a 
capability which the Navy needs to maintain our operational advantage.
    We are excited about the potential of the ORS concept, as it offers 
maritime forces the flexibility to meet critical warfighting 
capabilities and counter increasingly agile adversaries. As part of the 
joint Tactical Satellite (TACSAT) and ORS effort, the Office of Naval 
Research invests $15 million of science and technology funds each year 
in moderate-to-high-risk projects that result in significant prototypes 
through the Space Innovative Naval Prototype program. Investments are 
focused on naval capability gaps that space-based systems can fill, 
such as ship tracking, acoustic data exfiltration from sonobuoys, 
mobile communications, submarine detection, red force cueing, and 
littoral environment characterization. The Naval Research Laboratory is 
managing the ORS Payload Technology initiative for the Office of the 
Secretary of Defense.
    TACSAT-3, which is scheduled to launch this month, includes a 
payload sponsored by the Office of Naval Research, which provides an 
IP-based data exfiltration capability to collect information from a 
wide variety of underwater, surface, and land-based sensors.
    The Office of Naval Research and the Naval Research Laboratory are 
leading development of TACSAT-4 for the joint community, and funding a 
UHF Communications payload which will support mobile communications as 
well as sensor data exfiltration. TACSAT-4 uses a prototype spacecraft 
bus which was designed as part of a government-industry team effort to 
develop and mature standards for increased modularity. The TACSAT-4 
spacecraft is scheduled to be launched this September. It will 
primarily support the U.S. Central Command Area of Responsibility, 
although other combatant commanders may benefit from its coverage as 
well.
    The TACSAT series of experiments reflect the partnerships that must 
be developed and nurtured between the services, combatant commanders, 
the Intelligence community, and industry, to produce innovative 
solutions that leverage the best talent available across the national 
security space community to solve warfighting challenges.
    The ORS attributes of flexibility and agility not only provide 
advantages in the current operational environment but also have the 
potential to positively affect the space industrial base. The shorter 
project cycles should provide a broader base of rapid response 
experience for the space industry and space cadre, and will establish a 
faster acquisition rhythm in the long run.

                                SUMMARY

    In summary, space systems are a critical enabler for maritime 
operations. Your Navy has a long and proud history in space, having 
developed a number of technological breakthroughs. The list of Navy 
`firsts' in space includes: the first space communications used for 
operations; the first controllable space launch vehicle; the first 
satellite tracking system; the first successful electronic intelligence 
reconnaissance satellite; the first space object tracking system; the 
first demonstration of on-orbit atomic clocks; the first military 
broadcast satellite; and the first astronauts to orbit the earth, orbit 
the moon and crew the Space Shuttle. The Navy looks forward to more 
innovative space ``firsts'' to come in the decades ahead.
    The Navy's mission of keeping air and sea lanes open and ensuring 
the security of our citizens at home and abroad requires a global reach 
and persistent presence. We must be constantly ready, whether it is to 
deliver on a mission of mercy on one hand, or more lethal measures in 
combat on the other . . . and everything in between. Our ability to 
respond, as well as work with our Sister Services and coalition 
partners, depends on space capabilities with inherent flexibility and 
speed to support our worldwide responsibilities.
    The Navy must leverage DOD's and the intelligence community's space 
capabilities and must be involved in future space developments to 
ensure our ability to successfully conduct maritime operations. Future 
U.S. satellite programs are now being developed that promise additional 
benefit and capabilities to Navy warfighters. Due to the long lead 
times involved in complex space programs, it is even more critical that 
naval requirements and maritime missions continue to be factored into 
the pre-launch design and planned on-orbit operation of all future 
satellite systems being considered for acquisition. Without active Navy 
involvement today in ongoing deliberations over future satellite 
programs, your Navy risks operating in future scenarios with space 
systems not optimized for the maritime environment and ill-equipped to 
contribute to key important issues affecting our national security.
    Thank you for the opportunity to share our efforts with you today. 
So let me end as I began--the help of Congress in general, and this 
subcommittee in particular, is deeply appreciated.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    [The prepared statement of Ms. Chaplain follows:]

               Prepared Statement by Cristina T. Chaplain

    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Department of Defense's (DOD) space 
acquisitions. The topic of today's hearing is critically important. 
Despite a growing investment in space, the majority of large-scale 
acquisition programs in DOD's space portfolio have experienced problems 
during the past two decades that have driven up cost and schedules and 
increased technical risks. The cost resulting from acquisition problems 
along with the ambitious nature of space programs has resulted in 
cancellations of programs that were expected to require investments of 
tens of billions of dollars, including the recently proposed 
cancellation of the Transformational Satellite Communications System 
(TSAT). Moreover, along with the cost increases, many programs are 
experiencing significant schedule delays--at least 7 years--resulting 
in potential capability gaps in areas such as positioning, navigation, 
and timing; missile warning; and weather monitoring.
    My testimony today will focus on the condition of space 
acquisitions, causal factors, and recommendations for better 
positioning programs for success. Many of these have been echoed by the 
Allard Commission,\1\ which studied space issues in response to a 
requirement in the John Warner National Defense Authorization Act for 
Fiscal Year 2007, and by a study by the House Permanent Select 
Committee on Intelligence (HPSCI),\2\ among other groups. The two 
studies highlighted concerns about diffuse leadership for military and 
intelligence space efforts and declining numbers of space engineering 
and technical professionals. Members of the Allard Commission were 
unanimous in their conviction that without significant improvements in 
the leadership and management of national security space programs, U.S. 
space preeminence will erode ``to the extent that space ceases to 
provide a competitive national security advantage.''
---------------------------------------------------------------------------
    \1\ Institute for Defense Analyses, Leadership, Management, and 
Organization for National Security Space: Report to Congress of the 
Independent Assessment Panel on the Organization and Management of 
National Security Space (Alexandria, VA: July 2008).
    \2\ House Permanent Select Committee on Intelligence, Report on 
Challenges and Recommendations for United States Overhead Architecture 
(Washington, DC: October 2008).
---------------------------------------------------------------------------
                   SPACE ACQUISITION PROBLEMS PERSIST

    Figure 1 compares original cost estimates and current cost 
estimates for the broader portfolio of major space acquisitions for 
fiscal years 2008 through 2013. The wider the gap between original and 
current estimates, the fewer dollars DOD has available to invest in new 
programs. As shown in the figure, estimated costs for the major space 
acquisition programs have increased by about $10.9 billion from initial 
estimates for fiscal years 2008 through 2013. The declining investment 
in the later years is the result of the Evolved Expendable Launch 
Vehicle (EELV) program's no longer being considered a major acquisition 
program and the cancellation and proposed cancellation of two 
development efforts that would have significantly increased DOD's major 
space acquisition investment.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Figures 2 and 3 reflect differences in total life-cycle and unit 
costs for satellites from the time the programs officially began to 
their most recent cost estimate. As figure 2 notes, in several cases, 
DOD has had to cut back on quantity and capability in the face of 
escalating costs. For example, two satellites and four instruments were 
deleted from National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) and four sensors are expected to have fewer 
capabilities. This will reduce some planned capabilities for NPOESS as 
well as planned coverage.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Figure 4 highlights the additional estimated months needed to 
complete programs. These additional months represent time not 
anticipated at the programs' start dates. Generally, the further 
schedules slip, the more DOD is at risk of not sustaining current 
capabilities. For this reason, DOD began a follow-on system effort, now 
known as Third Generation Infrared Surveillance, to run in parallel 
with the Space Based Infrared System (SBIRS) program.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This fiscal year, DOD launched the second Wideband Global SATCOM 
(WGS) satellite. WGS had previously been experiencing technical and 
other problems, including improperly installed fasteners and data 
transmission errors. When DOD finally resolved these issues, it 
significantly advanced capability available to warfighters. 
Additionally, the EELV program had its 23rd consecutive successful 
operational launch in May. However, other major space programs have had 
setbacks. For example:

        <bullet> In September 2008, the Air Force reported a Nunn-
        McCurdy unit cost breach of the critical cost growth threshold 
        \3\ for the Advanced Extremely High Frequency (AEHF) 
        communications satellite because of cost growth brought on by 
        technical issues, schedule delays, and increased costs for the 
        procurement of a fourth AEHF satellite. The launch of the first 
        satellite has slipped further by almost 2 years from November 
        2008 to as late as September 2010. Further, the program office 
        estimates that the fourth AEHF satellite could cost more than 
        twice the third satellite because some components that are no 
        longer manufactured will have to be replaced and production 
        will have to be restarted after a 4-year gap. Because of these 
        delays, initial operational capability has slipped 3 years--
        from 2010 to 2013.
---------------------------------------------------------------------------
    \3\ 10 U.S.C. Sec. 2433 establishes the requirement for unit cost 
reports. If certain unit cost thresholds are exceeded (known as Nunn-
McCurdy breaches), DOD is required to report to Congress and, in 
certain circumstances, if DOD determines that specific criteria are 
met, certify the program to Congress.
---------------------------------------------------------------------------
        <bullet> The Mobile User Objective System (MUOS) communications 
        satellite estimates an 11-month delay--from March 2010 to 
        February 2011--in the delivery of on-orbit capability from the 
        first satellite. Further, contractor costs for the space 
        segment have increased about 48 percent because of the 
        additional labor required to address issues related to 
        satellite design complexity, satellite weight, and satellite 
        component test anomalies and associated rework. Despite the 
        contractor's cost increases, the program has been able to 
        remain within its baseline program cost estimate.
        <bullet> The first Global Positioning System (GPS) IIF 
        satellite is now expected to be delayed almost 3 years from its 
        original launch date to November 2009. Also, the cost of GPS 
        IIF is now expected to be about $1.6 billion--about $870 
        million over the original cost estimate of $729 million. (This 
        approximately 119 percent cost increase is not that noticeable 
        in figures 2 and 3 because the GPS II modernization program 
        includes the development and procurement of 33 satellites, only 
        12 of which are IIF satellites.) The Air Force has had 
        difficulty in the past building GPS satellites within cost and 
        schedule goals because of significant technical problems--which 
        still threaten its delivery schedule--and challenges it faced 
        with a different contractor for the IIF program, which did not 
        possess the same expertise as the previous GPS contractor. 
        Further, while the Air Force is structuring the new GPS IIIA 
        program to prevent mistakes made on the IIF program, the Air 
        Force is aiming to deploy the GPS IIIA satellites 3 years 
        faster than the IIF satellites. We believe the IIIA schedule is 
        optimistic given the program's late start, past trends in space 
        acquisitions, and challenges facing the new contractor.
        <bullet> Total program cost for the SBIRS program is estimated 
        around $12.2 billion, an increase of $7.5 billion over the 
        original program's cost, which included 5 geosynchronous earth 
        orbit (GEO) satellites. The first GEO satellite has been 
        delayed at least 7 years in part because of poor oversight, 
        technical complexities, and rework. Although the program office 
        set December 2009 as the new launch goal for the satellite, it 
        is currently assessing the satellite launch schedule and 
        expects to have a new plan in place by June 2009. Subsequent 
        GEO satellites have also slipped as a result of flight software 
        design issues.
        <bullet> The NPOESS program has experienced problems with 
        replenishing the current constellation of aging weather 
        satellites and was restructured in July 2007 in response to a 
        Nunn-McCurdy unit cost breach of the critical cost-growth 
        threshold. The program was originally estimated to cost about 
        $6.5 billion for six satellites from 1995 through 2018. The 
        restructured program called for reducing the number of 
        satellites from six to four and included an overall increase in 
        program costs, delays in satellite launches, and deletions or 
        replacements of satellite sensors. Although the number of 
        satellites has been reduced, total costs have increased by 
        almost 108 percent since program start. Specifically, the 
        current estimated life-cycle cost of the restructured program 
        is now about $13.5 billion for four satellites through 2026. 
        This amount is higher than what is reflected in figure 2 as it 
        represents the most recent GAO estimate as opposed to the DOD 
        estimates used in the figure. We reported last year that poor 
        workmanship and testing delays caused an 8-month slip in the 
        delivery of a complex imaging sensor. This late delivery caused 
        a delay in the expected launch date of a demonstration 
        satellite, moving it from late September 2009 to early January 
        2011.

    This year it is also becoming more apparent that space acquisition 
problems are leading to potential gaps in the delivery of critical 
capabilities. For example, DOD faces a potential gap in protected 
military communications caused by delays in the AEHF program and the 
proposed cancellation of the TSAT program, which itself posed risks in 
schedule delays because of TSAT's complexity and funding cuts designed 
to ensure technology objectives were achievable. DOD faces a potential 
gap in ultra high frequency communications capability caused by the 
unexpected failures of two satellites already in orbit and the delays 
resulting from the MUOS program. DOD also faces potential gaps or 
decreases in positioning, navigation and timing capabilities because of 
late delivery of the GPS IIF satellites and the late start of the GPS 
IIIA program. There are also concerns about potential gaps in missile 
warning and weather monitoring capabilities because of delays in SBIRS 
and NPOESS.
    Addressing gaps in any one of these areas is not a simple matter. 
While there may be opportunities to build less complex ``gap filler'' 
satellites, for example, these still require time and money that may 
not be readily available because of commitments to the longer-term 
programs. There may also be opportunities to continue production of 
``older'' generation satellites, but such efforts also require time and 
money that may not be readily available and may face other challenges 
such as restarting production lines and addressing issues related to 
obsolete parts and materials. Further, satellites on orbit can be made 
to last longer by turning power off at certain points in time, but this 
may also present unacceptable trade-offs in capability.

            UNDERLYING REASONS FOR COST AND SCHEDULE GROWTH

    Our past work has identified a number of causes behind the cost 
growth and related problems, but several consistently stand out. First, 
on a broad scale, DOD starts more weapon programs than it can afford, 
creating a competition for funding that encourages low cost estimating, 
optimistic scheduling, overpromising, suppressing bad news, and, for 
space programs, forsaking the opportunity to identify and assess 
potentially more executable alternatives. Programs focus on advocacy at 
the expense of realism and sound management. Invariably, with too many 
programs in its portfolio, DOD is forced to continually shift funds to 
and from programs--particularly as programs experience problems that 
require additional time and money to address. Such shifts, in turn, 
have had costly, reverberating effects.
    Second, DOD has tended to start its space programs too early, that 
is, before it has the assurance that the capabilities it is pursuing 
can be achieved within available resources and time constraints. This 
tendency is caused largely by the funding process, since acquisition 
programs attract more dollars than efforts concentrating solely on 
proving technologies. Nevertheless, when DOD chooses to extend 
technology invention into acquisition, programs experience technical 
problems that require large amounts of time and money to fix. Moreover, 
when this approach is followed, cost estimators are not well positioned 
to develop accurate cost estimates because there are too many unknowns. 
Put more simply, there is no way to accurately estimate how long it 
would take to design, develop, and build a satellite system when 
critical technologies planned for that system are still in relatively 
early stages of discovery and invention.
    While our work has consistently found that maturing technologies 
before a program's start is a critical enabler of success, it is 
important to keep in mind that this is not the only solution. Both the 
TSAT and the Space Radar development efforts, for example, were seeking 
to mature critical technologies before program start, but they faced 
other risks related to the systems' complexity, affordability, and 
other development challenges. Ultimately, Space Radar was cancelled, 
and DOD has proposed the cancellation of TSAT. Last year, we cited the 
MUOS program's attempts to mature critical technologies before the 
program's start as a best practice, but the program has since 
encountered technical problems related to design issues and test 
anomalies.
    Third, programs have historically attempted to satisfy all 
requirements in a single step, regardless of the design challenge or 
the maturity of the technologies necessary to achieve the full 
capability. DOD has preferred to make fewer but heavier, larger, and 
more complex satellites that perform a multitude of missions rather 
than larger constellations of smaller, less complex satellites that 
gradually increase in sophistication. This has stretched technology 
challenges beyond current capabilities in some cases and vastly 
increased the complexities related to software. Programs also seek to 
maximize capability because it is expensive to launch satellites. A 
launch using a medium- or intermediate-lift EELV, for example, would 
cost roughly $65 million.
    Fourth, several of today's high-risk space programs began in the 
late 1990s, when DOD structured contracts in a way that reduced 
government oversight and shifted key decisionmaking responsibility onto 
contractors. This approach--known as Total System Performance 
Responsibility (TSPR)--was intended to facilitate acquisition reform 
and enable DOD to streamline its acquisition process and leverage 
innovation and management expertise from the private sector. 
Specifically, TSPR gave a contractor total responsibility for the 
integration of an entire weapon system and for meeting DOD's 
requirements. However, because this reform made the contractor 
responsible for day-to-day program management, DOD did not require 
formal deliverable documents--such as earned value management reports--
to assess the status and performance of the contractor. The resulting 
erosion of DOD's capability to lead and manage the space acquisition 
process magnified problems related to requirements creep and poor 
contractor performance. Further, the reduction in government oversight 
and involvement led to major reductions in various government 
capabilities, including cost-estimating and systems-engineering staff. 
The loss of cost-estimating and systems-engineering staff in turn led 
to a lack of technical data needed to develop sound cost estimates.

    ACTIONS NEEDED TO ADDRESS SPACE AND WEAPON ACQUISITION PROBLEMS

    Over the past decade, we have identified best practices that DOD 
space programs can benefit from. DOD has taken a number of actions to 
address the problems on which we have reported. These include 
initiatives at the department level that will affect its major weapons 
programs, as well as changes in course within specific Air Force 
programs. Although these actions are a step in the right direction, 
additional leadership and support are still needed to ensure that 
reforms that DOD has begun will take hold.
    Our work--which is largely based on best practices in the 
commercial sector--has recommended numerous actions that can be taken 
to address the problems we identified. Generally, we have recommended 
that DOD separate technology discovery from acquisition, follow an 
incremental path toward meeting user needs, match resources and 
requirements at program's start, and use quantifiable data and 
demonstrable knowledge to make decisions to move to next phases. We 
have also identified practices related to cost estimating, program 
manager tenure, quality assurance, technology transition, and an array 
of other aspects of acquisition-program management that could benefit 
space programs. Table 1 highlights these practices.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    DOD is attempting to implement some of these practices for its 
major weapon programs. For example, as part of its strategy for 
enhancing the roles of program managers in major weapon system 
acquisitions, the department has established a policy that requires 
formal agreements among program managers, their acquisition executives, 
and the user community that set forth common program goals. These 
agreements are intended to be binding and to detail the progress a 
program is expected to make during the year and the resources the 
program will be provided to reach these goals. DOD is also requiring 
program managers to sign tenure agreements so that their tenure will 
correspond to the next major milestone review closest to 4 years. Over 
the past few years, DOD has also been testing portfolio management 
approaches in selected capability areas--command and control, net-
centric operations, battlespace awareness, and logistics--to facilitate 
more strategic choices for resource allocation across programs.
    Within the space community, cost estimators from industry and 
agencies involved in space have been working together to improve the 
accuracy and quality of their estimates. In addition, on specific 
programs, actions have been taken to prevent mistakes made in the past. 
For example, on the GPS IIIA program, the Air Force is using an 
incremental development approach, where it will gradually meet the 
needs of its users, use military standards for satellite quality, 
conduct multiple design reviews, exercise more government oversight and 
interaction with the contractor and spend more time at the contractor's 
site, and use an improved risk management process. On the SBIRS 
program, the Air Force acted to strengthen relationships between the 
government and the SBIRS contractor team, and to implement more 
effective software development practices as it sought to address 
problems related to its flight software system. Correspondingly, DOD's 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics is asking space programs to take specific measures to 
better hold contractors accountable through linking award and incentive 
fees to program milestones. DOD interim space guidance also asks space 
programs to make independent technology readiness assessments at 
particular points in the acquisition process and to hold requirements 
stable.
    Furthermore, the Air Force, U.S. Strategic Command, and other key 
organizations have made progress in implementing the Operationally 
Responsive Space (ORS) initiative. This initiative encompasses several 
separate endeavors with a goal to provide short-term tactical 
capabilities as well as identifying and implementing long-term 
technology and design solutions to reduce the cost and time of 
developing and delivering simpler satellites in greater numbers. ORS 
provides DOD with an opportunity to work outside the typical 
acquisition channels to more quickly and less expensively deliver these 
capabilities. In 2008, we found that DOD has made progress in putting a 
program management structure in place for ORS as well as executing ORS-
related research and development efforts, which include development of 
low cost small satellites, common design techniques, and common 
interfaces.
    Legislation introduced in recent years has also focused on 
improving space and weapon acquisitions. In March, the Senate Committee 
on Armed Services introduced an acquisition reform bill which contains 
provisions that could significantly improve DOD's management of space 
programs. For instance, the bill focuses on various measures, including 
increasing emphasis on systems engineering and developmental testing, 
instituting earlier preliminary design reviews and strengthening 
independent cost estimates and technology readiness assessments. Taken 
together, these measures could instill more discipline in the front end 
of the acquisition process when it is critical for programs to gain 
knowledge. The bill also requires greater involvement by the combatant 
commands in determining requirements and requiring greater consultation 
among the requirements, budget, and acquisition processes. In addition, 
several of the bill's sections, as currently drafted, would require in 
law what DOD policy already encourages, but it is not being implemented 
consistently in weapon programs. In April, the House Committee on Armed 
Services introduced a bill to similarly reform DOD's system for 
acquiring weapons by providing for, among other things, oversight early 
in product development and for appointment of independent officials to 
review acquisition programs. Both bills are moving forward in the 
Senate and House.
    The actions that the Air Force and Office of the Secretary of 
Defense have been taking to address acquisition problems are good 
steps. However, there are still more significant changes to processes, 
policies, and support needed to ensure reforms can take hold. With 
requirements, resource allocation, and acquisition processes led by 
different organizations, it is difficult to hold any one person or 
organization accountable for saying no to a proposed program or for 
ensuring that the department's portfolio of programs is balanced. This 
makes it difficult for DOD to achieve a balanced mix of weapon systems 
that are affordable and feasible. For example, diffused leadership has 
been problematic with the GPS program in terms of DOD's ability to 
synchronize delivery of space, ground, and user assets. GPS has a 
separate budget, management, oversight, and leadership structures for 
the space, ground, and user equipment segments. Several recent studies 
have also concluded that there is a need to strengthen leadership for 
military and intelligence space efforts. The Allard Commission reported 
that responsibilities for military space and intelligence programs are 
scattered across the staffs of the DOD and the Intelligence Community 
and that it appears that ``no one is in charge'' of national-security 
space. The HPSCI expressed similar concerns in its report, focusing 
specifically on difficulties in bringing together decisions that would 
involve both the Director of National Intelligence and the Secretary of 
Defense. Prior studies, including those conducted by the Defense 
Science Board and the Commission to Assess United States National 
Security Space Management and Organization (Space Commission) \4\ have 
identified similar problems, both for space as a whole and for specific 
programs. While these studies have made recommendations for 
strengthening leadership for space acquisitions, no major changes to 
the leadership structure have been made in recent years. In fact, an 
``executive agent'' position within the Air Force that was designated 
in 2001 in response to a Space Commission recommendation to provide 
leadership has not been filled since the last executive resigned in 
2007.
---------------------------------------------------------------------------
    \4\ Department of Defense. Report of the Commission to Assess 
United States National Security Space Management and Organization 
(Washington, DC: Jan. 11, 2001).
---------------------------------------------------------------------------
    In addition, more actions may be needed to address shortages of 
personnel in program offices for major space programs. We recently 
reported that personnel shortages at the EELV program office have 
occurred, particularly in highly specialized areas, such as avionics 
and launch vehicle groups. Program officials stated that 7 of 12 
positions in the engineering branch for the Atlas group were vacant. 
These engineers work on issues such as reviewing components responsible 
for navigation and control of the rocket. Moreover, only half of the 
government jobs in some key areas were projected to be filled. These 
and other shortages in the EELV program office heightened concerns 
about DOD's ability to use a cost-reimbursement contract acquisition 
strategy for EELV since that strategy requires greater government 
attention to the contractor's technical, cost, and schedule performance 
information. In previous reviews, we cited personnel shortages at 
program offices for TSAT as well as for cost estimators across space. 
While increased reliance on contractor employees has helped to address 
workforce shortages, it could ultimately create gaps in areas of 
expertise that could limit the government's ability to conduct 
oversight.
    Further, while actions are being undertaken to make more realistic 
cost estimates, programs are still producing schedule estimates that 
are optimistic while promising that they will not miss their schedule 
goals. The GPS IIIA program, for example, is asking the contractor to 
develop a larger satellite bus to accommodate the future GPS increments 
and to increase the power of a new military signal by a factor of 10, 
but the schedule is 3 years shorter than the one achieved so far on GPS 
IIF. We recognize that the GPS IIIA program has built a more solid 
foundation for success than the IIF program. This foundation offers the 
best course to deliver on time, but meeting an ambitious schedule goal 
should not be the Air Force's only measure for mitigating potential 
capability gaps. Last year, we also reported that the SBIRS program's 
revised schedule estimates for addressing software problems appeared 
too optimistic. For example, software experts, independent reviewers, 
as well as the government officials we interviewed agreed that the 
schedule was aggressive, and the Defense Contract Management Agency has 
repeatedly highlighted the schedule as high risk.

                           CONCLUDING REMARKS

    In conclusion, senior leaders managing DOD's space portfolio are 
working in a challenging environment. There are pressures to deliver 
new, transformational capabilities, but problematic older satellite 
programs continue to cost more than expected, constrain investment 
dollars, pose risks of capability caps, and thus require more time and 
attention from senior leaders than well-performing efforts. Moreover, 
military space is at a critical juncture. There are critical 
capabilities that are at risk of falling behind their current level of 
service. To best mitigate these circumstances and put future programs 
on a better path, DOD needs to focus foremost on sustaining current 
capabilities and preparing for potential gaps. In addition, there is 
still a looming question of how military and intelligence space 
activities should be organized and led. From an acquisition 
perspective, what is important is that the right decisions are made on 
individual programs, the right capability is in place to manage them, 
and there is someone to hold accountable when programs go off track.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or members of the subcommittee may 
have at this time.

                     CONTACTS AND ACKNOWLEDGEMENTS

    For further information about this statement, please contact 
Cristina Chaplain at (202) 512-4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74171c150418151d1a173413151b5a131b025a">[email&#160;protected]</a> Contact 
points for our Offices of Congressional Relations and Pubic Affairs may 
be found on the last page of this statement. Individuals who made key 
contributions to this statement include Art Gallegos, Assistant 
Director; Maria Durant; Arturo Holguin; Laura Holliday; Rich Horiuchi; 
Karen Sloan; Alyssa Weir; and Peter Zwanzig.

    Senator Bill Nelson. Once Senator Vitter and I get through 
with our questions, we are going to adjourn to the Office of 
Senate Security for a discussion on classified matters. So I 
will start out with just a couple of questions, and then flip 
it to you, and we will just keep going back and forth.
    Ms. Chaplain, GAO recently issued a report about a 
potential gap in the Global Positioning System (GPS) 
satellites. Can you explain that gap and what happens in the 
gap period and the assumptions that you made in determining 
there is potential for a gap?
    Ms. Chaplain. Thank you. We recently reported on the GPS, 
and the bottom line, in terms of the gap analysis we did, we 
did an analysis that replicates what the aerospace corporation 
does, and we even matched up our results with the aerospace 
corporation. So we have a lot of confidence in the results of 
our gap analysis.
    With regard to the potential gap in satellite capability, 
our analysis showed that if both the GPS IIF and the GPS IIIA 
programs are executed on schedule, there is still just an 80 to 
90 percent probability that the constellation will stay above 
24 satellites, which is the commitment the United States has to 
provide. If there were a 2-year delay--our analysis in the 2-
year delay in the GPS IIIA program, that is--our analysis 
showed that the probability would drop to as low as 10 percent.
    I have a couple parameters on this. I think our analysis 
has been exaggerated in some of the recent media reports. They 
are painting a bit more dire picture than we had in our report. 
There are also measures that can be taken to extend the life of 
satellites, such as turning off secondary payloads, but they 
need to be discussed among all the players involved with that 
action.
    Our concerns are with the issue of aging satellites in the 
constellation, the delays in the IIF program, and whether that 
schedule can even be achieved as it is now because they still 
have some technical problems they are working on.
    Then on the IIIA program, we were very pleased to see the 
Air Force has taken a lot of actions to prevent mistakes that 
were made on the IIF programs, and those actions mirror the 
things that we all want done for all the space programs, 
including trying to keep requirements manageable, hold more 
design reviews, follow military design standards, and things of 
that nature.
    But even with that, the schedule, in our view, will be 
challenging, given the nature of satellite development, the 
fact that they want a bigger satellite bus on the IIIA program, 
they are increasing the signal by a power of 10. It is a lot of 
challenge for the contractor to meet and there may be not 
enough room in the schedule to accommodate problems that could 
come up. So that is where we had a concern on the IIIA program.
    Senator Bill Nelson. Mr. Secretary and General, what is 
your assessment of a probability of a gap, and how can you 
mitigate it?
    Mr. Payton. Yes, sir. The GAO concerns are the same 
concerns that we had initially going back 3 years ago as we 
were architecting the IIIA program, the GPS III program. That 
was the first program where the Air Force applied what we call 
``back-to-basics'' in our space acquisition. Back-to-basics 
includes intense conversations with the warfighters to 
understand their needs. It includes evolutionary block 
deliveries of new capabilities and GPS III, for example, has 
three separate blocks, and each one delivers more capabilities 
for the warfighter as opposed to trying to leap dramatically to 
a brand new, almost Battle Star Gallatica kind of a delivery.
    So additionally, we have gone through independent cost 
estimates. We went through 4 years of systems engineering and 
technology risk reduction in a competitive industrial 
environment to buy down the risks on the program and to better 
understand how different designs can satisfy the warfighters' 
needs. So we have much more confidence in the acquisition of 
GPS III due to these back-to-basics fundamentals that we are 
implementing compared to the systemic problems that prior space 
programs had suffered. So GPS III, IIIA, IIIB, and IIIC is the 
first and currently still successful implementation of the 
back-to-basics philosophy in our space acquisition.
    To date, it has IIIA. The GPS III design work has been 
progressing faster than schedule. In fact, today is the first 
major design review on the IIIA spacecraft, and the program is 
progressing much faster and with much higher confidence simply 
because of those 4 years we spent before we settled on a 
particular industry team and before we settled on a particular 
spacecraft design.
    Senator Bill Nelson. General, do you have anything to add?
    General Kehler. Sir, just a couple of things. First of all, 
thank you for inviting us today--you and Senator Vitter both. 
We appreciate the committee's attention and concern on all the 
space issues. I would just add a couple things to what 
Secretary Payton has said.
    First, the world depends on GPS. We know it. We are 
responsible for it. We take that responsibility seriously and 
we are committed to keeping the level of service and actually 
improving the level of service that the world has come to 
expect out of us.
    The second thing I would point out to you is that today we 
have the largest, most capable GPS constellation on orbit that 
we have ever had. There are over 30 satellites on orbit today, 
and they are performing well. They are not all in the same 
state of health. Some are older than others. Some have some 
problems that others that are newer do not have, but it is a 
large and very robust constellation on orbit today.
    That gives us a little bit of breathing space, if you will. 
We understand where the problems are here. We know and believe 
that we have worked through the problems on the IIF satellites. 
We are not disagreeing with GAO over the nature of the problems 
that have arisen, but we are ready by the end of the summer/
early fall to put the first GPS IIF satellite on orbit. We 
believe, as Mr. Payton said, that GPS III is progressing very 
well. There are other steps that we can take and will take to 
work through the gap if this gap arises.
    By the way, it is not a gap in terms of coverage. It is a 
reduction in the global coverage. It is hard to explain, but 
characterizing it as a gap, I think, is a little bit of a 
mischaracterization.
    But having said that, we are not pushing back on where the 
issues have been. We do think that we have measures in place to 
work our way through this time period. We are looking forward 
to GPS III because we have brought forth the very acquisition 
improvements that have been suggested to us into that program 
and believe that will be very helpful for us.
    I think as we look at this today and we look at IIF now 
getting ready to launch, III going through its acquisition 
cycle, and us having committed the right people, the right 
funding, the right cost estimates, et cetera, sir, as you had 
mentioned earlier on, the fact that we have new signals 
entering into the constellation, the fact that we have some 
ways to manage power and other things, we think that we can 
manage our way through this.
    Senator Bill Nelson. Senator Vitter?
    Senator Vitter. Thank you.
    Just to follow up directly on that, Mr. Secretary, in 
general, what would be your bottom line on this in terms of, 
what do you think the probability is of any sort of gap, 
however broadly defined developing? Is there, in fact, a backup 
plan besides just the roll-out of what you have scheduled? If 
that slows, if that fails to continue to meet targets, what is 
the backup plan to mitigate or avoid any so-called gap?
    Mr. Payton. Senator, I would suggest we push that question 
to General James because he is the operator of the 
constellation, the warfighter that delivers that GPS 
capability, and he has those sorts of operational mitigations 
that you referred to.
    General James. Yes, sir. Just to address that, there are 
several things that we look at. First of all, we manage the 
constellation in totality, as General Kehler said, 30 
satellites. If we start to lose satellites before we can launch 
replacements, we can adjust those orbits to ensure that we 
provide the best possible coverage for GPS. The fundamental 
requirement is 24 satellites. So we will continue to manage 
that constellation to make sure that we adjust orbits to 
improve and provide the best possible GPS capability we can.
    In addition, we actually have----
    Senator Vitter. I do not mean to interrupt. But the best 
capable. What is the possibility of falling short of what is 
our expectation and defining a gap as anything short of that?
    General James. Sir, again, the fundamental requirement is 
24 satellites. We are at 30 now. Plus, we have three on-orbit 
spares that we can actually bring back into the mix. So again, 
just an opinion that the probability is relatively low that you 
would see major problems with a GPS signal worldwide. There 
could be areas where, for example, over the poles or northern 
latitudes that you have less accurate coverage, but still 
within requirements, et cetera. So again, it is a very dynamic 
position, as the satellites move around in the sky, in terms of 
the coverage you get and what you would see. But you would 
really have to drop from 33 today, 30 plus 3 on-orbit spares 
that we have, down to that 24, which is the very basic 
requirement that we are required to meet and provide from the 
United States.
    Senator Vitter. Gentlemen, any of you can respond. What are 
your general thoughts regarding this IDA report and the 
specific conclusion that we suffer from no one really being in 
charge in a global sense with regard to space? Do you think 
there is some fairness in that? What should be done about it? 
How can we bring more focus in terms of developing an overall 
space road map and investment plan?
    Mr. Payton. I would say, Senator, when we say no one is in 
charge, that is a misnomer. I would say the warfighter is in 
charge. Those of us on the acquisition side turn to the 
warfighter to determine what capabilities we deliver, at what 
pace we deliver those capabilities, and at what price. Again, 
part of our back-to-basics is a very tight integration of 
warfighter conversations with the acquisition community so that 
we do satisfy those needs that they advertise.
    Senator Vitter. Let me ask it a little differently. 
Warfighter is a lot of different people, and we salute them and 
we certainly want to service them. Who is in charge of 
integrating all of that input and those needs into a clear, 
unified road map?
    Mr. Payton. Since space is global inherently, we turn to 
Strategic Command for that.
    Senator Vitter. Do you think they are effective in truly 
integrating that into an overall road map and investment plan?
    Mr. Payton. Yes, sir.
    Senator Vitter. Where is that sort of overall road map laid 
out and defined?
    Mr. Payton. Through the normal Pentagon planning processes. 
Strategic Command quantifies their priorities, representing the 
theater combatant commanders. They quantify their priorities 
and the pace that they need those priorities filled, and 
whether it is Air Force or Navy or even the National 
Reconnaissance Office, we marry our deliveries to those 
warfighter needs.
    General Kehler. Sir, if I could add a little bit to that as 
well. Again, on the DOD side of this equation, Strategic 
Command, as a combatant command, sits in a very critical place 
in terms of space operational capabilities. That is where the 
requirements originate, and when the warfighting requirements 
for space-related things originate, there is a process that 
ultimately hands those requirements, once they're validated, in 
large part--not exclusively, but in large part--to the Air 
Force. When they come to the Air Force, then the Air Force 
Space Command, my command, is responsible for taking those 
requirements and turning them into actual capabilities.
    On the operational side, a very similar thing happens. 
Strategic Command is responsible for the day-in and day-out 
operations of our space assets as well, our DOD space assets. 
General James is the commander day-in and day-out that 
exercises that operational responsibility, the operational 
control, if you will, over those assets.
    So there are two chains here. In terms of the warfighters 
and warfighting requirements, we think this works pretty well. 
This is something we have arrived at after a great deal of 
effort to get us into this particular position where 
warfighting requirements follow the standard chain that other 
warfighting requirements follow, and space operations follow a 
standard set of activities that actually puts the capability in 
the hands of the people who are forward who need it.
    So we are pretty comfortable that, as we sit here today, we 
understand how requirements turn into programs that turn into 
capabilities and who is responsible for that. We are also 
pretty comfortable today that the operational use of these 
platforms and how we make that available to the warfighters is 
also pretty well understood.
    General James. Sir, if I could just expand quickly. Again, 
under the Joint Forces Component Commander, then we have 
responsibility for Army, Navy, and Air Force space forces. We 
also reach out to the combatant commanders around the globe. We 
receive inputs from them on a daily basis in terms of what are 
the requirements for current operations today, and we build all 
that into a tasking order and provide those capabilities on a 
regular basis. So we are, indeed, integrating those space 
capabilities across all the Services, provide that combatant 
commander with what he needs on a regular basis.
    General Kehler. I would add one final point, sir, if I may. 
The IDA reports and other reports have really not just looked 
inside the DOD, but they have looked across the interagency 
where they have raised some of their concerns. You have a 
defense activity. You have an intelligence activity. You have 
other activities. The question that they have raised is how do 
those interact, and those are questions that, among other 
things, will be looked at in the space posture review.
    Senator Vitter. The final question for now. I would love 
thoughts from any of you, including the GAO, about the 
suggestion by some that we do not have enough focus--it is not 
all or nothing--but enough focus on small satellites, things 
that are more focused, simpler, much cheaper, and we focus too 
much on mega, extremely complex systems, and that we could get 
some benefit in certain areas from focusing on smaller, simpler 
things, including spurring more entrants in the field and more 
competition because not everyone is going to get in the 
business of building the mega, most complicated satellites. Do 
you have reactions to that very broad suggestion?
    Mr. Payton. It is a very timely topic, Senator. Last night 
we launched out of Wallops Island a spacecraft called Tactical 
Satellite (TACSAT)-3, a small satellite launched off of a 
Minotaur to low-earth orbit. It was a project run by Air Force 
Research Lab but with participation from Navy Research Lab, and 
it was part of our operational responsive space program. Again, 
a technology demonstration, but demonstrating that we can field 
and deploy a spacecraft for a particular theater combatant 
commander's needs.
    So that demonstration, again launched last night, will have 
about a year of on-orbit operation to demonstrate some new 
technologies, but mostly how to operate more efficiently with 
an on-orbit asset. So, again, that is one example of small 
satellites through the operational responsive space program, 
how small satellites can benefit military combatant commanders.
    General Kehler. Sir, we would agree. We see that there is 
great potential in smaller platforms that do single-purpose 
kinds of things that can be put up faster and at lower cost. 
The warfighters have said that there are requirements for 
platforms like that. The Commander of Strategic Command has 
told us that he is interested in being able to augment or 
reconstitute pieces of the constellations that the warfighters 
depend on.
    As Mr. Payton said, this is a next step that we just took 
last evening on this road. We are very encouraged by what we 
are seeing so far. We would like it to go faster, and we are 
trying to work on that in terms of investment, but we see the 
great potential in being able to put another strategic arrow in 
our quiver with smaller satellites. In some cases, we may be 
able to do a substantial amount of some of these missions. In 
some cases, we are going to have to have larger platforms.
    General James. Sir, just from an operational perspective, 
we are preparing, once they are done with the experimental 
phase of these, to actually take them over operationally and 
build the concepts, tactics, techniques, and procedures to 
actually provide that data right into the theater and develop 
those procedures where we accept requests from the theater and 
use these operationally as well as experimentally. So we are 
all on board with moving forward in that arena.
    Admiral Harris. Sir, from the Navy's perspective, we are a 
strong believer in the Operationally Responsive Space (ORS) 
concept. Our Navy Research Lab, in conjunction with the Office 
of Naval Research and the Air Force Research Laboratory and 
various applied physics labs across the country--we partner 
with them to participate in the ORS program. We think it is 
great for the country. It is great for industry, and it gives 
the warfighter the potential for on-call services down range. 
So we are committed to it, and we happily participate in it.
    Ms. Chaplain. We have been generally supportive of the ORS 
program, not just because of the focus on small satellites, but 
because it also provides the potential to standardize design 
techniques and to also lower the costs of launch, which is very 
important to reducing acquisition costs overall, and also of 
the potential of the program to bring in new players into the 
space business.
    Also, just by virtue of working on smaller programs that go 
faster, you are providing a lot of learning opportunities for 
people that do not have those opportunities on these longer 
kinds of efforts. It encourages just more learning and risk-
taking in general.
    You have to be cautious in applying this concept across all 
of space because some of the requirements are very demanding 
and the solutions inherently have to be different at this point 
in time.
    Senator Vitter. Thank you.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Senator Sessions.
    Senator Sessions. Thank you. Thank you, Mr. Chairman. It is 
good to be back with you, and I am glad that my colleague, 
Senator Vitter, is your ranking member. I am sure you can get a 
lot more productive work out of him than you were able to get 
out of me. He is committed to our country's defense and has the 
brain power to understand the complexities that we deal with. 
[Laughter.]
    General Kehler, you point out in your testimony that Air 
Force Command provides land-based strategic deterrence through 
the intercontinental ballistic missile (ICBM) fleet. Could you 
outline for us, briefly, how you maintain the reliability of 
this force over time and what are the challenges in what you 
do?
    General Kehler. Sir, first of all, we are about to complete 
a very substantial investment in the Minuteman ICBM force that 
will take it to 2020. We are looking at what it might take in 
additional investment to take it to 2030.
    Now, how do we do that? We do that through a variety of 
programs that sustain this force and analyze the force and 
where it may need investment and then take those investment 
steps. One of the key activities that we have is an aging and 
surveillance program. That aging and surveillance program looks 
very hard at the boosters themselves and the supporting 
equipment that goes with those to try to predict where failures 
might occur in the future.
    For example, three times a year--and we are looking at 
going to a fourth, but for right now three times a year--we 
operationally test fly a full-up Minuteman round, if you will, 
from one of the operational bases where it is disassembled, 
taken to Vandenberg Air Force Base, reassembled, shot down the 
western range. We also fire static test assets at various 
locations around the country. We also dissect some of these 
missiles. We do analysis on the chemical content of the fuels, 
and we constantly look at the electronics. The system, as it 
sits there deployed operationally in the field every day, is 
constantly going through a set of self-checks and self-analysis 
to tell us what its health is.
    Senator Sessions. I think you are to be commended for that. 
I think that has been an important part of the confidence we 
have in that system.
    So you are doing as many as three flights a year?
    General Kehler. Yes, sir.
    Senator Sessions. I remember we cut the ICBM force from 500 
to 450. Part of the agreement to do that was that we needed 
those launches for testing. I believe that is right.
    General Kehler. Yes, sir.
    Senator Sessions. So, Mr. Chairman, I do not know if we 
have lined up enough in our Ground-based Midcourse Defense 
program for testing. You have always felt we probably should 
have more rigorous testing, and then if we are going to keep 
this system in place for a while, we will need to make sure we 
have enough when we look at that number on testing.
    Senator Bill Nelson. We are going to bring General O'Reilly 
in here.
    Senator Sessions. Okay, very good.
    ORS is something I know that the chairman has been 
interested in and supportive of. You announced, Secretary 
Payton, a launch yesterday?
    Mr. Payton. Yes, sir. Last night.
    Senator Sessions. So far, so good?
    Mr. Payton. Yes, sir. It was a successful routine launch 
out of Wallops Island. The satellite separated from the last 
stage of the Minotaur launch vehicle. Solar rays unfurled, and 
they are going through on-orbit checkout right now.
    Senator Sessions. Just briefly, how do you feel about how 
the progress is going on this? I think you said that earlier, 
but would you summarize that for me what your best judgment is? 
Are we on schedule?
    Mr. Payton. Yes, sir. In addition to the TACSAT operational 
experiments, we have another program that is responding to an 
urgent need from Central Command, a project we call ORS 
satellite number 1, not very descriptive. It is intended to 
respond to an urgent need from Central Command. So we have 
selected an industry team to go out and build the spacecraft 
with very mature technology, piece part technology designs. 
Part of that is to even use the existing link from space to the 
ground, use the existing link that the U2 uses today, so that 
when this satellite flies over Central Command, they will be 
able to receive it as if it is a very high altitude U2. It fits 
right into their analytical work stations for Central Command. 
So it is a very fast-paced program that the ORS program is 
managing.
    Senator Sessions. Space News reported May 18 that the 2010 
funding request is insufficient to launch the ORS 1 satellite 
mission planned for 2010. Is that a disappointment? How did we 
let that slip?
    Mr. Payton. No, sir. We have a decision point in the 
program, again, part of our back-to-basics. If the program is 
still making good progress on its design evolution and its 
subcontracting and delivery of the piece parts for the 
spacecraft and the sensors, if that is going well in early 
July, we will make a conscious decision about how fast to 
continue that program. So the budget requests necessary to keep 
that program on a fast pace are in the process to come to 
Congress for approval.
    Senator Sessions. So you have an urgent request. The 
original plan, as I understood it, was to do it by 2010, but 
our warfighter now is not going to have it.
    Mr. Payton. No, sir. Again, we do not want to spend money 
to keep a program on a pace that technically it will not 
deliver. So the decision point this summer is what pace to 
deliver that spacecraft on.
    Senator Sessions. It is not a question of money but a 
technological capability?
    Mr. Payton. It is a question of can the industry prove that 
they can deliver on that 2010 pace.
    Senator Sessions. If they can, you will have the money to 
fund it?
    Mr. Payton. Yes, sir. If not, our plan is to continue the 
program, but not on the rapid pace.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Bill Nelson. General Kehler, you were mentioning 
other agencies. Of course, DOD has an imminent interest in 
knowing what the weather is. We have not had too good of an 
experience with a National Polar-Orbiting Operational 
Environmental Sensing Satellite (NPOESS). General James, how 
important is it that these sensors get fielded?
    General James. Sir, from the warfighting perspective, 
weather it is absolutely essential and maintaining our 
awareness of the weather in theater and out is extremely 
critical to planning and conducting operations. So it is 
certainly critical.
    Looking to the ground weather perspective, there are many 
weather satellites that we rely on, of course, the current 
Defense Meteorological Satellite Program (DMSP) constellation, 
which we will have three satellites to be launched. So that 
will carry us forward for some period of time. Then other 
National Aeronautics and Space Administration (NASA) and civil 
weather satellites that we can utilize for weather forecasting. 
But it is absolutely critical to military operations and also 
space operations because there is space weather that our space 
satellites conduct and determine and monitor solar wind, solar 
flux, those sorts of things that are important for satellite 
operations that we also need to maintain the capabilities for 
from the warfighter and operational perspective.
    Senator Bill Nelson. The structure on NPOESS between the 
Air Force and National Oceanic and Atmospheric Administration 
(NOAA) and NASA has not worked. There is a committee or a task 
force report that is coming out in a week or so headed by a 
very respected person in these matters, Tom Young. That report 
is going to say that basically, since it is underfunded, it 
needs to be funded, but that between the DOD and NOAA and NASA, 
they have to get their act together. The recommendation is 
going to be that basically NASA design and operate the 
satellite for NOAA with the cooperation of DOD. Do you have any 
problem with that?
    General James. Sir, I will just speak from the warfighter 
perspective. The warfighter has weather requirements. As long 
as the acquisition process meets those requirements, then no. 
But I would turn to the acquisition side to talk about the 
management of the program itself, but the requirements will 
still be the requirements and they need to be addressed in 
whatever form or program management structure exists.
    Senator Bill Nelson. Okay. Mr. Secretary and General 
Kehler?
    Mr. Payton. I would suggest that today NOAA operates not 
only the polar-orbiting satellite that they have sponsored, but 
also the DMSP military spacecraft. So from a shared operational 
perspective of constellation management and flying the 
spacecraft and tasking the spacecraft, NOAA does that for both 
the Air Force and the rest of the world right now. We rely on 
European sensors also from their program they have called 
MEDOP. So the operational relationship is already established.
    The difficulty with NPOESS has been a very complex and 
sophisticated suite of sensors that have been troublesome in 
their development, in their engineering, most notably a sensor 
called visible and infrared sensor. That is the shared 
difficulty that NASA and NOAA and the Air Force have right now, 
and the delivery and development of that sensor has been the 
cause of our frustrations with the NPOESS program.
    Senator Bill Nelson. I would suggest to you that another 
problem is its management by committee, and you have to have a 
lead. The Tom Young report is going to suggest that NASA be the 
lead.
    Mr. Payton. If we do march down that path, we will have to 
have very strong confidence and guarantees from NASA that they 
could satisfy the warfighters' requirements. We would have to 
work out mechanisms to ensure that.
    Senator Bill Nelson. Where does Ash Carter play into this?
    Mr. Payton. Senator, I honestly do not know. He would be a 
critical decision-maker if we moved down that path.
    Senator Bill Nelson. What I would like you to do is maybe 
we will get him and you back up here after you have looked at 
this Tom Young report. But this thing is going to take another 
billion, billion and a half dollars, to complete. I think the 
management structure has in large part been the problem, as 
well as the technical challenges. So we will visit that one on 
another day.
    Mr. Payton. Yes, sir.
    Senator Bill Nelson. In the meantime, I think it would be 
well if you would get with Ash Carter and you all get Dr. 
Young's report and see what conclusions and reach out to NOAA 
and to NASA.
    Mr. Payton. Yes, sir. His organization is already working 
with us to scrutinize to date his suggestions and to look at 
alternative implementations.
    Senator Bill Nelson. Let us talk about protected 
communications. It appears there may be a gap in 2018. What is 
the likely potential for this gap? General Kehler and Mr. 
Secretary?
    General Kehler. Sir, protected communications remains a 
critical warfighting requirement. That has not changed here 
recently, although some of the budget decisions with the fiscal 
year 2010 budget have adjusted the demand date for increased 
protected communications. Some of it was tied to the Army's 
future combat system and some other Service programs that have 
now been altered with other budget decisions.
    Nevertheless, the requirement for protected communications 
for the forward forces remains an especially growing 
requirement for communications on the move that are protected. 
We have two programs underway right now. One is not protected. 
That is the Wideband Global Satellite (WGS) system. We have put 
two of those satellites on orbit. The first one was turned over 
to Pacific Command almost a year ago and is functioning very 
well. The second one is on orbit and going through its checkout 
phase, and all indications are that that one will be very 
successful. We have four more of those to launch in the coming 
several years to put much more unprotected capability on orbit, 
which is important for the warfighters as well.
    Protected communications today is the Military Strategic 
and Tactical Relay satellite. That is the name of the satellite 
that does that. We are going to replace that with the Advanced 
Extremely High Frequency (AEHF) satellite. We expect to launch 
the first of the AEHF satellites within the next year or so, 
perhaps a little bit longer, the fall probably of 2010, and 
that will be the first of four AEHF satellites. Now with the 
budget decisions on TSAT, which was to be the follow-on, we are 
looking very hard at an architecture that will continue to put 
upgraded, if you will, AEHFs into the system beyond number 4.
    So sitting here today, I am not concerned about a gap, as 
we would think of no satellites on orbit. The question is how 
quickly can we bring additional capability into AEHF as the 
warfighters' need goes up. I think we have a way forward to do 
that. I think it was Mr. Payton who used a great word a week or 
so ago in another appearance where he talked about 
``harvesting'' the technology out of the TSAT program. We will 
need to go do that, find out how quickly we can infuse some of 
that technology, both in WGS and in AEHF, and continue to rely 
on commercial as well and approach this in the sense of an 
architecture.
    So I am not overly concerned, sitting here today, about a 
gap, if you will, in 2018 or 2019. I think the challenge for us 
is to decide how do we go forward here with advanced EHF and 
what does that mean in terms of being able to pull new things 
into advanced EHF. Those decisions have to be made and brought 
back probably in the next budget, not this one.
    Senator Bill Nelson. Ms. Chaplain, do you think there is a 
gap?
    Ms. Chaplain. We have not done a formal gap analysis on 
this issue and would like to, but we are concerned about the 
potential gap in protected communications, as well as the ultra 
high frequency (UHF) communications, as well as missile warning 
capabilities, and of course, the GPS and the weather 
satellites.
    AEHF is still not out of the woods yet either in terms of 
technical problems, it is important to remember that. While you 
can add evolutionary over-time capabilities to AEHF, you have 
to also be aware that at some point you might be adding so much 
you need, again, a larger satellite bus and more redesign that 
might take more time than you think to answer.
    Senator Bill Nelson. I want to talk about TSAT. It was 
canceled, but after we spent $2 billion on it. Mr. Secretary, 
what plans are in place to preserve the work that was done for 
TSAT?
    Mr. Payton. Yes, sir. The TSAT program had matured what I 
call piece part technologies to a very high technical readiness 
level. These are irradiation hardened processors, laser com, a 
multitude of technologies that the GAO identified several years 
ago and the Air Force agreed with, and we spent over $2 billion 
maturing those technologies before we would set the 
configuration of the spacecraft itself and before we would 
select a single particular industry to go build the spacecraft.
    Those are the technologies that I used the term ``harvest'' 
from the TSAT program so that we collect the intellectual 
property that the government has rights to, we collect the 
equipment that the government justly, rightfully owns, and we 
start laying in the plans and the designs on how to apply those 
harvested technologies to both AEHF and WGS.
    So that is in front of us over the next months, and again, 
we will turn to the warfighter to prioritize which new 
capabilities we add when out of that harvested collection of 
intellectual property and piece part technologies from the TSAT 
program.
    Senator Bill Nelson. Is AEHF next?
    Mr. Payton. Yes, sir. The first launch is a little bit more 
than a year from now. The fiscal year 2010 budget request 
includes money for the fourth AEHF, and again, our intention is 
to look at continuing that constellation with the properly 
phased upgrades to satisfy the warfighter needs.
    Senator Bill Nelson. General Kehler, what are the lessons 
learned from the cancellation of TSAT?
    General Kehler. Sir, that is a really good question. We had 
begun the TSAT program, I think, doing a lot of things right. 
We were insisting on technology readiness that was high. We 
were dedicated to locking down requirements, et cetera. We 
thought that if TSAT had continued, that we had started the 
program correctly and that we had addressed many of the 
concerns that GAO and others have raised about programs like 
this.
    I think the lesson learned is this is, in part, an issue, I 
believe, about synchronizing capability with need over the 
longer term. We were producing TSAT on a schedule that was 
going to have it ready to provide increased support for 
warfighting systems that are now perhaps taking a little bit 
different direction. So I think it is about synchronizing need.
    At some point, I think Ms. Chaplain is also correct here in 
that you can only add to advanced EHF to a certain point, and 
from there on, we will have to look at a follow-on system to 
advanced EHF. So we will see where this will have to go in the 
future, but certainly for the near term, continuing with 
advanced EHF through number 4 or perhaps beyond that, as we 
look at the next budgets, will be the right thing to do.
    Senator Bill Nelson. Admiral, do you have heartburn as a 
result of TSAT being canceled?
    Admiral Harris. No, sir, we do not have heartburn that TSAT 
was canceled as long as AEHF proceeds on the course that 
Secretary Payton and General Kehler have outlined. Protected 
communication, obviously, is important to the Navy, as it is to 
all the Services; and we are confident, sir, that the Air Force 
will manage AEHF through to fruition.
    Senator Bill Nelson. Do you have heartburn that the Mobile 
User Objective System (MUOS) is 11 months late?
    Admiral Harris. Yes, sir, we do have heartburn with MUOS. 
The Air Force does not have a monopoly on delayed satellite 
systems. MUOS is suffering an 11-month delay right now. I 
believe that we will get through it. There are some technical 
challenges that the builder is experiencing with the critical 
path through the antenna di-plexer. After it goes through that, 
the next phase of MUOS testing will involve the thermal vac 
where a lot of problems could come up; but right now, the 
problem is in the antenna piece. It is mating the legacy UHF 
payload to the new antenna bus, and that is a very significant 
problem.
    The Air Force has offered to help us in that, and we are 
grateful for that offer of assistance. The Assistant Secretary 
of the Navy for Research, Development, and Acquisition has 
determined that he needs to put together a team of national 
experts to help industry to go through this problem that we are 
having with MUOS. We recognize the importance of the satellite 
to the warfighter for the UHF communications, and we are 
grateful for the assistance that the Air Force has offered in 
that regard.
    Senator Bill Nelson. Is the Air Force going to pay for it 
for you?
    Admiral Harris. No, sir. That is our program.
    Senator Bill Nelson. How much extra is it going to cost?
    Admiral Harris. Sir, I do not have that information now; 
but as soon as I get it, I will get that back to you as soon as 
we know what it is.
    [The information referred to follows:]

    There is no additional Mobile User Objective System (MUOS) funding 
required in fiscal year 2010. The MUOS Program Manager is currently 
projecting Satellite #1 On-Orbit Capability in 2011. Satellite 
subsystem testing has uncovered technical problems that are being 
addressed by the prime contractor; not surprisingly, this is causing 
delivery date slippage. The Assistant Secretary of the Navy for 
Research, Development, and Acquisition (ASN RD&A) has chartered a 
national team of space experts to assess the program and provide 
recommendations to reduce schedule and technical risks. Following the 
team's report, ASN RD&A will work with OPNAV N6 on a budget to meet 
MUOS requirements in support of PRESBUD 11. Since this assessment is 
ongoing the budget figures are not yet ready. Therefore, this is an 
interim response. Once the new cost is fully understood, I will forward 
the difference for fiscal year 2011 to you.

    Senator Bill Nelson. Okay. We need to know that.
    Admiral Harris. Yes, sir.
    Senator Bill Nelson. The legacy UHF satellite is not 
lasting as long as it was supposed to. So now there appears to 
be the possibility of a UHF gap. Tell us about that.
    Admiral Harris. Yes, sir. Sir, if MUOS suffers this 11-
month delay, the first on-orbit capability will be in February 
2011. The projected 70 percent line from which we would call a 
gap will happen in mid-2010.
    There is a bit of good news here and that is that we are 
using the legacy satellites and our fleet satellites. Every day 
that those satellites do not fall out of the sky or fail, that 
extends that gap point further to the right. I think it is a 
tribute to good satellite design and acquisition practices that 
those satellites, as old as they are, continue to remain in 
orbit and are continuing to produce for us.
    The Navy has also put in place several mitigation 
procedures, including using the digital part of UFO F11 in 
order to increase channel accesses. So that is good news.
    We are optimistic that we will be able to manage through 
this, and if there is a gap, below 70 percent, that will be 
minimized, sir.
    Senator Bill Nelson. Have you thought about putting a UHF 
transponder on a commercial satellite?
    Admiral Harris. Yes, sir, we have. What we have determined 
is that the cost of doing that and the availability of a 
satellite to do that in terms of time--the earliest we could 
put one up would be in the 2012 timeframe, which is after the 
first MUOS should be on orbit.
    Senator Bill Nelson. Are there other contractors involved 
besides Boeing?
    Admiral Harris. For MUOS, the prime is Lockheed Martin. 
What we are trying to do with MUOS, sir, is put the legacy UFO, 
UHF payload onto the MUOS satellite, on the antenna bus. So the 
industry is trying to mate a Boeing legacy payload to a 
Lockheed Martin antenna bus, and that is where the first 
challenge, the critical path challenge, that we are facing is.
    Senator Bill Nelson. We are going to go in just a minute 
over to the Office of Senate Security.
    General James, we had an Iridium satellite collide with a 
Russian satellite. Joint Space Operations Center has the job to 
track and to warn of collisions. DOD submitted to us a 
legislative proposal that would enlarge and expand the program 
to assist commercial entities with additional support. Will 
this expanded program result in additional information being 
provided to the Joint Space Operations Center?
    General James. Sir, the commercial and foreign entity 
program is that to which you refer, and that is a program for 
us to provide data to various users who sign agreements, and 
that data would be the location of your satellite, the possible 
conjunction of your satellite with another object, and then 
anomaly supports if you have a problem with your spacecraft.
    The potential for data coming into the Joint Space 
Operations Center would be that, as a part of those agreements, 
we would look to possibly share data from the commercial 
providers of the world such as INTELSAT, INMARSAT, and SES 
Americom, where they have very accurate knowledge of their 
satellite location and they could then provide that into the 
Joint Space Operations Center freeing up our sensors to go look 
at other satellites from which we do not have very accurate 
information. So from an information-sharing perspective, we are 
looking at some agreements that we would like to foster with 
the commercial entities to gather some of that location 
information on their satellites.
    Senator Bill Nelson. Would the Air Force get reimbursed for 
the services you provide to nongovernmental entities in that 
Joint Space Operations Center?
    General James. Sir, the law allows that. At this point, the 
Department has not elected to charge for those services. I 
believe that will be a policy decision that needs to be made at 
the Office of the Secretary of Defense and above on how we 
implement that.
    Senator Bill Nelson. In that operation center, do you not 
need upgrades?
    General James. Yes, sir. As we look at expanding our 
conjunction assessment capability, we are looking at additional 
processing capability requirements, as well as additional 
analyst capability requirements in order to meet some of those 
needs.
    Senator Bill Nelson. In order to avoid these collisions, do 
you think anything else needs to be done?
    General James. Sir, where we are today is that we are 
bringing on that additional processing capacity here in the 
near term. We are adding, through funding provided by Air Force 
Space Command, additional analyst capability, and we are 
planning to be able to do this conjunction assessment for 
roughly 800 satellites, those that can maneuver, by this fall. 
So that is our current plan that we are marching down.
    But in the broader sense, we certainly need to increase our 
capability for space situational awareness, increased sensor 
capability, increased radar capability, increased on-orbit 
sensor capability, because we do have shortfalls today in terms 
of how often we can track objects, how small of an object we 
can track, and how accurately we can track those objects. So 
broadly speaking, we need increased space situational awareness 
capacity.
    General Kehler. Mr. Chairman, may I add just a quick remark 
to this? Space is more crowded than ever. We catalog over 
19,000 objects that are on orbit today. There are most likely 
thousands more that we do not catalog because of their size, 
nuts, bolts, washers, that sort of debris, if you will, that is 
up there, fragments from things that have gone wrong, for 
example. We know that all of them are traveling at extreme 
speed, 17,000 miles an hour roughly, and this problem is 
growing for us.
    We have now an investment road map for how we improve our 
space situational awareness. You will see some of that 
investment request in this budget that comes to you this year. 
That includes not only some improvements in sensors, but there 
is a piece of this investment that will go to General James so 
he can fuse the data that is out there better. To get better, 
faster, it is not about putting more sensors out, although we 
will do some of that. It is about using the sensors we have 
more effectively. We have plans in place to do that that will 
be included in this investment plan that you see from us this 
year.
    Senator Bill Nelson. Thank you all for your public service. 
We are grateful. This is highly technical stuff that we are 
getting into. We are going to get several layers deeper now. So 
the subcommittee will stand in recess and we will reconvene 
over in the Office of Senate Security area. Thank you. We are 
adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Udall

                        AIR FORCE SPACE COMMAND

    1. Senator Udall. General Kehler, is there a need for a strategy to 
rapidly develop and deliver cyber capabilities for the Air Force 
missions?
    General Kehler. Yes, there is such a need. The cyber domain is 
characterized by a rate of change that is orders of magnitude faster 
than the other domains of military operations. The cyberspace threats 
are constantly changing and require rapid response in order to blunt 
attacks and secure our ability to fight in air, space, and cyberspace. 
Every day, Air Force systems are threatened from a variety of sources. 
It is essential that we have effective capabilities to protect 
ourselves and respond. Our abilities in this area are limited at this 
time and enhancements are underway. We are developing a strategy, in 
conjunction with the acquisition community, to strengthen and improve 
our capabilities in the burgeoning cyber arena.

    2. Senator Udall. General Kehler, what is Air Force Space Command's 
plan for rapidly developing and delivering cyber capabilities?
    General Kehler. Our plan is to quickly improve upon the 
capabilities and processes we currently have and define new ones where 
needed. We will do this by developing improved processes for rapid 
decisionmaking, making our capability delivery processes more 
responsive, better resourcing the real-time response capabilities we 
already have, and bringing in more cyber smart people and developing 
them as cyber warriors. We want to fully leverage the finest expertise 
of U.S. industry, academia, and national laboratories, as well as our 
sister Services and coalition partners.
    Air Force Space Command is taking on the cyber mission for the Air 
Force, and the ensuing standup of 24AF, will enable development of 
improved processes for rapid decisionmaking. The dispersed Air Force 
cyber community will be unified under a single major command, providing 
efficient command and control of cyber. We must be able to operate 
faster than our adversaries' decision processes.
    We need to strengthen our teaming relationships with key 
organizations by closely integrating intelligence, operations, 
requirements, acquisition, and testing. We need to streamline processes 
to eliminate existing seams in the rapid prototyping development and 
test environment.
    Improved processes are not the total solution. The United States 
has some of the finest cyberspace minds in the world, and the Air Force 
has tremendously bright military personnel, civilians, and contractors 
executing the Air Force missions in cyberspace today. We intend to 
continue to recruit America's best and brightest, and develop them into 
technically skilled cyber warriors. We will develop within them the 
operational arts necessary to ensure mission dominance in the cyber 
domain. Finally, we will provide them the world-class tools and 
networks necessary to successfully execute their missions.

    [Whereupon, at 3:07 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                       STRATEGIC FORCES PROGRAMS

    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Sessions, 
and Vitter.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Breon N. 
Wells.
    Committee members' assistants present: Ryan Ferris, 
assistant to Senator Bill Nelson; Rob Soofer, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Matthew R. Rimkunas, assistant to Senator Graham; and Michael 
T. Wong, assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon. We're going to welcome 
Tom D'Agostino, the Administrator of the National Nuclear 
Security Administration (NNSA), and General Donald Alston, Air 
Force Chief of Staff for Strategic Deterrence and Nuclear 
Integration, General Floyd Carpenter, Commander of the 8th Air 
Force, and Rear Admiral Stephen Johnson, Director of the Navy 
Strategic Systems Programs. It's a pleasure to have you.
    My opening statement will be put in the record, and when 
Senator Vitter arrives, his will, as well, and we'll ask him if 
he would like to make any comments.
    [The prepared statement of Senator Bill Nelson follows:]

               Prepared Statement by Senator Bill Nelson

    We welcome our witnesses this afternoon. Today we have with us Tom 
D'Agostino, the Administrator of the National Nuclear Security 
Administration; Major General Donald Alston Assistant Air Force Chief 
of Staff, Strategic Deterrence and Nuclear Integration; Major General 
Floyd Carpenter, Commander, 8th Air Force; and Rear Admiral Stephen 
Johnson, Director of Navy Strategic Systems Programs. It is a pleasure 
to have you all here.
    I note that this is the last subcommittee hearing prior the markup 
of the National Defense Authorization Bill for Fiscal Year 2010, which 
will occur the week of June 22.
    We have a number of topics to cover including the actions taken by 
the Air Force to improve its management of nuclear weapons and the 
nuclear weapons enterprise; long-range bomber and ballistic missile 
programs and the programs at the National Nuclear Security 
Administration. An overarching question and one that in many ways was a 
root cause of the problems that the Air Force had in the fall of 2007 
is the need to maintain rigor in the management of all things nuclear 
while reducing the role of nuclear weapons in national security 
strategy. We are no longer in the Cold War but the care with which 
nuclear weapons are managed and maintained can never be diminished. In 
many ways a smaller stockpile will be more difficult to maintain and 
ensure that it remains safe, secure, and reliable.

    [The prepared statement of Senator David Vitter follows:]

               Prepared Statement by Senator David Vitter

    Thank you very much, Mr. Chairman, I join you in welcoming our 
witnesses. This is my first hearing as ranking member of the Strategic 
Forces Subcommittee and I look forward to working with you on the many 
important issues under this subcommittee's jurisdiction.
    The administration's fiscal year 2010 budget provided a significant 
funding increase for Defense-wide, ``white space'' programs. This 
year's request at about $11.1 billion--$9.2 billion of which is for Air 
Force space programs represents a $412 million increase over fiscal 
year 2009 appropriated levels. I look forward to hearing from our 
witnesses today how this money will be spent wisely and what will be 
done to guarantee that the programs we fund in fiscal year 2010 break 
away from past practices of cost overruns and long delays.
    The Government Accountability Office (GAO), which I am pleased is 
here today to testify, has for some time highlighted a number of 
systemic problems associated with our major space acquisition programs. 
GAO has found that because the Department of Defense (DOD) starts more 
weapon programs that it can afford--competition for dollars lead to low 
cost estimation and unrealistic scheduling. GAO notes that DOD tends to 
start many of its space programs before it has a sound understanding 
and the appropriate assurance that the technologies it seeks are 
achievable within available funding. As a result of this broken 
acquisition process, the Department all too frequently puts itself in a 
bind with respect to supporting the warfighters needs. Not only are we 
constantly underestimating cost, but according to GAO, delays in 
schedule are increasing the overall risk for capability gaps in areas 
such as positioning, navigation, and timing; missile warning; and 
weather monitoring.
    Under the leadership of Chairman Levin and Ranking Member McCain, 
this committee broadly recognized those problems in developing the 
``Weapon Systems Acquisition Reform Act of 2009.'' That bill emphasizes 
starting major weapons systems off right by having them obtain reliable 
and independent cost estimates and subjecting them to rigorous 
developmental testing and systems engineering early in their 
acquisition cycle. In so doing, the bill (which will likely be signed 
into law by the President within the next few days) intends to ensure 
that programs not proceed from one stage of the acquisition cycle to 
the next until they have achieved the maturity to clearly lower the 
risk of cost growth and schedule slippage. I look forward to hearing 
from our witnesses how they believe the bill will help manage 
technology and integration risk in DOD military space programs.
    I am encouraged by Secretary Gates' recommendation to cancel the 
Transformational Satellite Communications (TSAT) program, an example of 
an overly ambitious project, lacking a meaningful technology, schedule, 
and funding path. I am also pleased to hear that the Department will 
not let the $3.3 billion already invested in TSAT go to waste. With the 
recommendation to eliminate TSAT and purchase two additional Advanced 
Extremely High Frequency (AEHF) satellites, it is clear that the 
Department recognizes that smaller, more incremental steps forward, are 
far less risky ventures and are a significantly more responsible path 
forward with respect to the taxpayer's money. I am encouraged that the 
Department does not plan to let our hefty investment in TSAT go to 
waste and does plan to harvest some of TSAT's more successful research 
and development efforts. I look forward to hearing from our witnesses 
more about the plan to address our satellite communications needs, how 
we will utilize TSAT technologies on the procurement of already proven 
and technologically mature systems, and how TSAT can be a lesson moving 
forward for our future space acquisition endeavors.
    A recent Institute for Defense Analyses (IDA) report charted by DOD 
to address congressional concerns with the leadership, management, and 
organization for National Security Space found that ``significant 
improvements are imperative . . . in order to maintain U.S. space 
preeminence and advert the loss of the U.S. competitive national 
security advantage.'' The report asserts that ``no one's in charge,'' 
leadership is fragmented with respect to strategy, budgets, 
requirements, and acquisition and recommends that the President 
establish and lead the execution of a national space strategy. The 
report recommends a top-to-bottom overhaul and I look forward to 
hearing from the witnesses what steps are being taken to address the 
report's recommendations.
    I recognize that space acquisitions are inherently risky and are 
like no other venture DOD undertakes. The challenges are many and the 
unknown and need for pushing the technology envelope is great. However, 
we must do a better job at managing the risk and spending the 
taxpayers' money wisely. Nonetheless, I look forward to hearing from 
the witnesses what is being done to address the space acquisition 
shortcomings, if you believe the condition is getting better, and what 
more needs to happen within the Department.
    Mr. Chairman, thank you.

    Senator Bill Nelson. Gentlemen, we will put all of your 
opening statements in the record, so the record will be 
complete, and we'll get right into it.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
     NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    [The prepared statement of Mr. D'Agostino follows:]

               Prepared Statement by Thomas P. D'Agostino

    Thank you for the opportunity to discuss our vision for the 
National Nuclear Security Administration (NNSA). My remarks today focus 
on the fiscal year 2010 President's budget request. The budget 
requested today will allow the NNSA to continue to achieve the mission 
expected of it by the President, Congress, and the American people.
    In a recent trip to Prague, President Obama outlined his vision of 
a world without nuclear weapons. To this end, the United States will 
take concrete steps towards achieving such a world by reducing the role 
of nuclear weapons in our national security strategy and urging others 
to do the same. Until that ultimate goal is achieved, however, the 
United States will maintain nuclear forces sufficient to deter any 
adversary, and guarantee that defense to our allies. To support this 
vision, the NNSA will continue to:

        <bullet> Ensure a safe, secure, reliable, and effective nuclear 
        weapons stockpile, even if that stockpile is reduced under a 
        Strategic Arms Reduction Treaty (START) Follow-On Treaty.
        <bullet> Reduce the threat to the United States posed by the 
        proliferation of nuclear weapons, and related nuclear materials 
        and expertise.
        <bullet> Provide safe, reliable, militarily-effective 
        propulsion systems to the U.S. Navy.

    By pursuing its mission to achieve these ends, and by providing our 
unique knowledge and support to our partners in national security, the 
NNSA will continue to meet its current statutory responsibilities while 
supporting the long-term goal of a world free from the threat of 
nuclear weapons.
    While the President's long-term objectives are clear, the role of 
the nuclear weapons stockpile and America's deterrence policy are being 
reviewed as part of the ongoing Nuclear Posture Review (NPR). Efforts 
are underway in the NPR to establish the size and composition of the 
future stockpile and the means for managing geopolitical or technical 
risk--NNSA is fully engaged in these activities. Its role is to provide 
the technical and scientific input to inform policy decisions, and then 
to enable the implementation of the decisions.
    NNSA is advancing our knowledge of the physical; chemical, and 
materials processes that govern nuclear weapons operation and is 
applying that knowledge in extending the life of existing weapons 
systems. We have recently completed construction of the National 
Ignition Facility at the Lawrence Livermore National Laboratory to 
explore weapons-critical regimes of high temperature and pressure and 
will begin our first ignition campaign to improve our scientific 
understanding of phenomena that could previously only be explored 
theoretically or in full-scale nuclear testing. The NNSA is also 
conducting warhead Life Extension Programs to ensure that our country 
remains secure without the production of new fissile materials, and 
without conducting underground nuclear tests. On the basis of the most 
recent assessment by the directors of our national nuclear weapon 
laboratories, today's nuclear stockpile remains safe, reliable, and 
secure. At the same time, we are concerned about increasing challenges 
in maintaining, for the long term, the safety and reliability of the 
aging, finely-tuned warheads that were produced in the 1970s and 1980s 
and are well past their original planned service life.
    I am committed to continuing to transform our national laboratories 
and production plants into a smaller and more cost-effective Nuclear 
Security Enterprise. However, I am mindful that our design laboratories 
and production facilities are national assets that support a large 
number of defense, security, and intelligence activities. As the role 
of nuclear weapons in our Nation's defense evolves and the threats to 
national security continue to grow, the focus of this enterprise must 
also change and place its tremendous intellectual capacity and unique 
facilities in the service of addressing other challenges related to 
national defense. We are taking steps to move in this direction, 
including functioning as a national science, technology, and systems 
engineering resource to other agencies with national security 
responsibilities.
    The NNSA fiscal year 2010 congressional budget request will allow 
continued progress in obtaining the essential goals I have outlined. It 
will allow us to:

        <bullet> Continue transforming into a Nuclear Security 
        Enterprise by:

                <bullet> Involving the next generation of our Nation's 
                scientific, engineering, and technical professionals in 
                the broad sweep of technical challenges;
                <bullet> Operating the National Ignition Facility, 
                allowing the use of innovative technology to provide 
                answers to important scientific questions;
                <bullet> Shrinking the Cold War complex by preparing 
                buildings for decommissioning and decontamination, and 
                replacing these antiquated facilities with modern and 
                efficient facilities; as well as disposing of excess 
                real property through demolition, transfer and the 
                preparation of process-contaminated facilities for 
                transfer to the Department of Energy (DOE) Office of 
                Environmental Management (EM) for final disposition ;
                <bullet> Initiating a Site Stewardship program to 
                ensure that NNSA increases the use of renewable and 
                efficient energy, and reduces the number of locations 
                with security Category I/II Special Nuclear Materials, 
                including the removal of these materials from the 
                Lawrence Livermore National Laboratory by the end of 
                2012, and
                <bullet> Reducing security, safety, and environmental 
                risks by consolidating and disposing of excess nuclear 
                materials wherever possible.

        <bullet> Support the development and implementation of arms 
        control, nonproliferation, and civil nuclear energy agreements 
        by:

                <bullet> Providing technical and policy support to U.S. 
                delegations negotiating arms control, nonproliferation, 
                and peaceful nuclear energy cooperation agreements;
                <bullet> Developing the technologies and approaches 
                needed to verify compliance with negotiated treaties 
                and agreements, and
                <bullet> Providing training and technical support to 
                the International Atomic Energy Agency.

        <bullet> Support U.S. commitments through construction of the 
        Mixed Oxide Fuel Fabrication Facility and Waste Solidification 
        Building to provide a disposition pathway for excess U.S. 
        fissile materials, and to help Russia implement its reciprocal 
        commitments.
        <bullet> Continue our successful programs to secure and/or 
        eliminate vulnerable nuclear and radioactive material in other 
        countries, enhance nuclear/radiological material detection 
        capabilities at borders, airports, and seaports, and strengthen 
        nonproliferation practices and standards worldwide.
        <bullet> Embark on the design and development of an advanced 
        reactor core and propulsion plant supporting the timely 
        replacement of the Ohio class submarine.
        <bullet> Overhaul of the land-based prototype reactor plant 
        used to test advanced materials and techniques in a realistic 
        operating environment prior to their inclusion in propulsion 
        plants.
        <bullet> Honor the commitments made to those who won the Cold 
        War by ensuring their pensions are secure in times of financial 
        uncertainty.

    Today, I'd like to testify on our efforts in Weapons Activities, 
Defense Nuclear Nonproliferation, and Naval Reactors.

                      WEAPONS ACTIVITIES OVERVIEW

    The NNSA will ensure that our nuclear stockpile remains safe, 
secure and effective to deter any adversary, and provide a defense 
umbrella to our allies. At the same time, NNSA will continue to pursue 
a modern more flexible Nuclear Security Enterprise that is 
significantly smaller than the Cold War complex, but is able to address 
a variety of stockpile scenarios.
    As I have committed to you previously, NNSA continues to retire and 
dismantle nuclear weapons. By 2012 our stockpile will be one-quarter of 
the size it was at the end of the Cold War. As the United States 
prepares for the 2010 Review Conference of the Nuclear Nonproliferation 
Treaty, this fact alone should emphasize the commitment we make to both 
our Nation and to the world.
    As a full partner in the NPR, the NNSA is working with the 
Departments of Defense and State to establish the plans, policies, and 
programs that will govern the future posture of our nuclear forces and 
supporting infrastructure. The recently issued report of the Bipartisan 
Congressional Commission on the Strategic Posture of the United States 
will help guide these efforts. These reviews will assist the U.S. 
Congress and the administration in clearly defining our future 
direction.
    As the NPR proceeds, NNSA continues to carry out a number of 
activities in support of the stockpile including warhead surveillance, 
assessment, replacement of limited life components in existing weapon 
systems, and dismantlements. We are also continuing the W76 Life 
Extension Program and a feasibility study with the Air Force for a Life 
Extension Program for some models of the B61 gravity bomb. There are 
also activities planned in the six campaigns and the studies needed for 
Annual Assessment of the stockpile.
    The NNSA will also continue transforming the Nuclear Security 
Enterprise into a modern, smaller, and more flexible complex. The NNSA 
inherited a system of laboratories and production plants designed to 
produce large volumes of weapons and designs needed to counter Soviet 
aggression. We have initiated a major effort to right-size the 
enterprise to meet the new, anticipated requirements. The NNSA is 
consolidating Category I and II Special Nuclear Materials; removing 
these items from selected sites and providing safe, secure storage for 
this material.
    In fiscal year 2010, we will be reducing our infrastructure 
footprint through the deactivation and decommissioning of buildings 
such as buildings 9206 and 9201 at Y-12. We will also plan for the 
future infrastructure through continuing design of the Uranium 
Processing Facility at Y-12, the Pit Disassembly and Conversion 
Facility at the Savannah River Site, and the Chemistry and Metallurgy 
Research Replacement Facility at the Los Alamos National Laboratory, 
and begin the process of planning for an orderly migration of missions 
to a smaller and more flexible facility at the Kansas City Plant.
    The NNSA has received assistance in our ability to alter our 
infrastructure in the form of an increase in the General Plant Projects 
limit. We are pleased with the decision to increase the ceiling on 
General Plant Projects from $5 million to $10 million. We believe that 
this aids in the maintenance and repair of the enduring enterprise. 
Following on this increase, the NNSA is submitting a legislative 
proposal to similarly increase the design cost limit for these 
construction projects from $600,000 to $1,500,000. We seek your support 
for the proposal.
    But while NNSA is reducing its footprint, and while the total 
number of warheads in the stockpile continues to decline, there are 
capabilities that must be preserved. Not only are these capabilities 
needed to support the maintenance of any stockpile, but they are also 
needed to support the Nuclear Security Enterprise's initiatives in 
nonproliferation, nuclear counterterrorism, nuclear forensics, and 
nuclear incident response. It's important to note that the enterprise 
does not scale linearly with the size of the stockpile; and the need 
for baseline functional capabilities is not eliminated with cessation 
of research into new designs and the cessation of any production of new 
weapons systems. These capabilities are needed whether we have a few 
warheads, or a few thousand.
    Although NNSA did not receive any funds directly from the American 
Recovery and Reinvestment Act, we are assisting other parts of the 
Department in implementing their plans for stimulus work at the NNSA 
sites and stand ready to do more.
    As NNSA prepares for the future, we must focus on the retention of 
our scientific, technical, and engineering personnel throughout the 
complex. Without experienced scientific, technical, and engineering 
personnel, NNSA cannot succeed at its mission. Throughout the cold war 
we were able to attract the Nation's brightest scientists, engineers, 
and technical professionals by providing challenges, facilities, and 
opportunities that were unique, were on the forefront of science, and 
that allowed them to put their talents to work to serve their country. 
Today we are transitioning our emphasis to a broader nuclear security 
mission, but our need to attract the best scientists, engineers and 
technical professionals remains. By developing new scientific tools 
such as the National Ignition Facility, new challenges such as the 
detection of smuggled uranium and plutonium, and the modernization of 
facilities such as the Chemistry and Metallurgy Research Replacement 
Facility, we can continue to attract bright technical minds who wish to 
serve their country. We believe that our response to the spectrum of 
threats to national security is not only the right steps for us to take 
to make the Nation more secure, but also will provide a significant set 
of technical areas that will motivate young scientists to join us in 
our mission.
    The challenges are huge and meeting them calls upon both basic 
science and applied technology. Approximately 70 years ago, Hans Bethe 
advanced the state of science with his critical work explaining the 
physical processes governing the life cycles of stars. Today the 
National Ignition Facility (NIF) stands on the threshold of producing 
stellar conditions in the laboratory. By moving the enterprise forward 
in advancing the boundaries of science, we will continue to attract our 
Nation's brightest minds to our scientific endeavors. In fiscal year 
2009, two significant technological milestones were achieved; crossing 
the one mega joule threshold with NIF and the one petaflop threshold in 
the Advanced Simulation and Computing Campaign.

               DEFENSE NUCLEAR NONPROLIFERATION OVERVIEW

    As part of the President's comprehensive strategy to address the 
international nuclear threat, the President also called for 
strengthening the Nuclear Nonproliferation Treaty, accelerating our 
efforts to secure vulnerable nuclear materials around the world, and 
increasing our work to detect, deter, and eliminate illicit trafficking 
of nuclear materials. The NNSA Nuclear Security Enterprise is actively 
engaged in these and other nonproliferation missions and will provide 
the technical expertise to ensure they are successful.
    The movement of funding for the Mixed Oxide Fuel Fabrication 
Facility and the Waste Solidification Building into the Fissile 
Materials Disposition budget is the largest change in the fiscal year 
2010 Congressional Budget for Defense Nuclear Nonproliferation program. 
These critical facilities provide the nonproliferation programs a 
disposition pathway for at least 34 metric tons of surplus U.S. weapons 
grade plutonium. I'm pleased to report that the U.S. and Russia have 
agreed on a revised Russian program to dispose of Russia's 34 metric 
tons of their surplus weapons plutonium. These changes will be codified 
in a Protocol that will amend the 2000 U.S.-Russian Plutonium 
Management and Disposition Agreement, and we expect to sign the 
Protocol this summer. In light of President Obama's recent statements 
in Prague and London, I am particularly pleased that the U.S. and 
Russian plutonium disposition programs are coming together at this 
time. As a result of these efforts, the U.S. and Russia will ultimately 
dispose of enough weapons plutonium for at least 17,000 nuclear 
weapons.
    I should note also that with this budget request, we are submitting 
our last request for funding to eliminate the production of weapons-
grade plutonium production in Russia by December 2010, through the 
shutdown of Russia's last weapons-grade plutonium production reactor in 
Zheleznogorsk.
    The NNSA directly supports President Obama's goal to accelerate 
efforts to secure all vulnerable nuclear material from around the world 
within 4 years, including the expansion and acceleration of our 
existing efforts. The NNSA is the key agency supporting the 
administration's goal of minimizing the use of highly-enriched uranium 
(HEU) in the civil nuclear sector through our program to shutdown 
entirely or convert HEU fueled research reactors to the use of low-
enriched uranium fuel. In fiscal year 2010, we will direct significant 
funding to the Global Threat Reduction Initiative mission to eliminate 
and protect vulnerable nuclear and radiological materials located at 
civilian sites worldwide.
    In fiscal year 2010, we will also improve the physical security of 
nuclear material, as well as facilitate the development and 
implementation of material control and accountability procedures, and 
train personnel, to protect a total of 73 nuclear sites throughout 
Russia and the former Soviet republics. The NNSA will fulfill the 
administration's goal of securing nuclear weapons-usable material by 
ensuring that the material possessed by the Russian Navy, the Russian 
Ministry of Defense, Rosatom and Russian civilian sites is secured.
    But improving the security of weapons-usable material at its source 
is only the start. We must also develop a Second Line of Defense in 
order to anticipate the possibility that nuclear weapons-usable 
material could be smuggled out and transported across international 
borders. In fact, we know that illicit trafficking in nuclear and other 
radioactive materials continues, especially in Eastern Europe, the 
Caucasus, and Central Asia. In response to the President's charge to do 
more to combat nuclear trafficking, we will install additional 
radiation detection equipment at 42 foreign sites across Europe, Asia, 
and North America, and provide detection equipment in 15 additional 
ports where cargo is loaded for shipment to the U.S.
    This work started several years ago. Technology advances and 
foreign personnel turnover have occurred since NNSA first began 
securing sites and borders in foreign countries. Funds will be used not 
only to perform new installations and train personnel at new sites, but 
will also be used to upgrade older equipment at existing sites, and to 
provide refresher training to foreign security professionals.
    Additionally, in fiscal year 2010, NNSA will expand and accelerate 
its Next Generation Safeguards Initiative (NGSI), adding $15 million to 
revitalize the U.S. technical and human capital base necessary to 
strengthen the international safeguards system and the International 
Atomic Energy Agency, in line with President Obama's charge in Prague. 
The NGSI complements related NNSA priorities to reduce proliferation 
risks associated with growing international interest in the use of 
nuclear power; to expand export control training and outreach; to 
develop and implement reliable fuel services as an alternative to the 
further spread of enrichment and reprocessing capabilities; and--
consistent with the President's call for progress towards a world 
without nuclear weapons--to provide technical support for negotiations 
of the START follow-on agreement, Comprehensive Nuclear Test-Ban 
Treaty, and a verifiable Fissile Material Cutoff Treaty.

                        NAVAL REACTORS OVERVIEW

    The NNSA also contributes to national security through the Naval 
Reactors Program. This program ensures that the nuclear propulsion 
plants aboard our Navy's warships remain safe and reliable for their 
complete service lives. Over 40 percent of the Navy's major combatants 
are nuclear-powered. All of the Nation's aircraft carriers, attack 
submarines, guided missile submarines, and ballistic missile submarines 
enjoy the significant operational advantage afforded by nuclear power, 
including speed, endurance, and enhanced combat payload. Through NNSAs 
efforts, nuclear-powered warships are on station where American 
interests are threatened, and ready to conduct sustained combat 
operations.
    For over 60 years, the Naval Reactors program has had complete 
responsibility for all aspects of Naval Nuclear Propulsion. The Naval 
Nuclear Propulsion Program currently supports 82 active nuclear-powered 
warships and 103 operating reactors. This represents eight propulsion 
plant designs, in seven classes of ships, as well as a training 
platform.
    Naval Reactors funding supports safe and reliable operation of the 
Nation's Nuclear Fleet. This includes providing rigorous oversight, 
analysis of plant performance and conditions, as well as addressing 
emergent operational issues and technology obsolescence for 71 
submarines, 11 aircraft carriers, and 4 research and development and 
training platforms. This funding also supports new plant design 
projects (i.e., reactor plant for the Gerald R. Ford-class aircraft 
carrier and alternative lower-cost core for Virginia-class submarines), 
as well as ensuring proper storage of naval spent nuclear fuel, prudent 
recapitalization of aging facilities, and remediation of environmental 
liabilities.
    The Ohio-class SSBNs, which are the most survivable leg of the U.S. 
Strategic Forces, are approaching the end of their service lives. The 
Navy recently completed studies for a follow-on replacement to the 
Ohio-class and is funding the commencement of design work in fiscal 
year 2010. NNSA funding in fiscal year 2010 supports reactor core and 
propulsion plant design and development efforts to support this 
replacement.
    Since 1978, the land-based prototype reactor plant (S8G) has 
provided an essential capability to test required changes or 
improvements to components and systems prior to installation in 
operational ships. The prototype has also provided required, high-
quality training for new sailors preparing to operate the Nation's 
nuclear-powered vessels. This land-based prototype will run out of fuel 
and require a refueling overhaul starting in 2018. This overhaul and 
the resultant opportunity to test advanced materials and manufacturing 
techniques in a caustic operating environment will significantly 
mitigate risk in the Ohio Replacement reactor plant design. To support 
the refueling overhaul schedule, concept studies and systems design and 
development efforts will begin in 2010.
    The Expended Core Facility, located at the Naval Reactors Facility 
on the Idaho National Laboratory, is the central location for Naval 
spent nuclear fuel receipt, inspection, dissection, packaging for dry 
storage, and temporary storage, as well as detailed examination of 
spent cores and irradiation specimens. Continuous, efficient operation 
of this facility is vital to ensure the United States can support fuel 
handling operations in our shipyards conducting construction, repair, 
and restoration of nuclear ships. The existing facility and related 
infrastructure is over 50 years old and requires recapitalization. The 
mission need for recapitalizing this capability has been approved and 
conceptual design efforts begin in 2010.
    The Program continues to explore and develop potentially advanced 
technologies that could deliver a compellingly better energy source for 
nuclear ships. For example, using a supercritical carbon dioxide energy 
conversion as a replacement for the traditional steam cycle is 
envisioned to be significantly smaller for the same power output, 
simpler, more automated, and more affordable. Leveraging existing 
university, industry, and Nuclear Security Enterprise scientific and 
engineering work in this technology, conceptual development and small-
scale testing is underway to support eventual megawatt-scale testing 
and prototyping.
    Acquisition of a new surface combatant (i.e., cruiser) in support 
of new ballistic missile defense and anti-air warfare mission 
requirements are currently under evaluation by the Navy. Based on these 
mission requirements, this new ship will potentially require higher 
energy capacity and output than is currently available from traditional 
fossil fueled power plants. Further, the National Defense Authorization 
Act (NDAA) for 2008 authorizes the Navy to construct all future major 
combatant vessels with integrated nuclear power systems unless this 
requirement is waived by the Secretary of Defense. The Navy is 
currently analyzing alternative shipboard systems that will determine 
final power plant requirements. Should the Navy decide to pursue a 
nuclear-powered cruiser in its current long-range shipbuilding plan, 
DOE-cognizant reactor core and propulsion plant design and development 
will be required.
    The value of nuclear power for naval propulsion is well recognized 
and the demand for its inherent capabilities remains strong. By taking 
every opportunity for economies in our work and business practices, we 
have made a concerted effort to meet the Navy's demand for new 
propulsion plant designs while assuring the safe and reliable operation 
and maintenance of the existing fleet. However, the need to deal with a 
formidable collection of new challenges coupled with the Program's 
aging infrastructure and environmental legacies requires a fortified 
level of resource commitment.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

STATEMENT OF MAJ. GEN. C. DONALD ALSTON, USAF, ASSISTANT CHIEF 
     OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION

    [The prepared statement of Major General Alston follows:]

         Prepared Statement by Maj. Gen. C. Donald Alston, USAF

                              INTRODUCTION

    Chairman Nelson, Ranking Member Vitter, distinguished members of 
the committee, thank you for the opportunity to discuss Air Force 
strategic programs.
    In the Executive Summary of the Final Report of the Congressional 
Commission of the Strategic Posture of the United States, the 
commission stated: ``In addressing the challenges of nuclear security 
for the decades ahead, the United States must pursue a comprehensive 
strategy. So long as nuclear dangers remain, it must have a strong 
deterrent that is effective in meeting its security needs and those of 
its allies.''
    The Air Force contributes to effective deterrence by operating, 
maintaining, securing, and sustaining intercontinental ballistic 
missiles (ICBMs), dual-role bombers and dual-capable fighter aircraft. 
Although the numbers of systems are dramatically smaller than at the 
height of the Cold War, the Air Force provides national leadership with 
the most responsive, flexible and visible nuclear deterrence 
capability.
    Strategic deterrence is in an airman's DNA; we were born with this 
mission in 1947. For the past 61 years, we have successfully provided 
our Nation and our allies diverse and effective nuclear deterrence 
capabilities. Today, the international security environment is more 
complex than during the Cold War, with more nations in possession of 
nuclear weapons and non-state actors in pursuit of weapons of mass 
destruction.
    Our continued ability to provide a safe, secure, reliable, and 
credible nuclear deterrence capability underpins our national defense, 
a sober responsibility that the Air Force, with responsibility for two 
legs of the traditional TRIAD, executes with skill and commitment on a 
consistent basis.
    The Air Force depends on a nuclear enterprise that involves 
thousands of professionals to include dedicated airmen operating, 
securing, maintaining and sustaining our operational forces; our 
partners in the industrial base; the exceptional capability at the 
national laboratories; and our North Atlantic Treaty Organization 
partners.
    The airmen and civilians involved in the nuclear mission area are 
uniquely qualified to execute the significant responsibilities 
associated with nuclear weapons and are known for their discipline, 
rigor, precision and reliability. Thousands are certified under the 
Personnel Reliability Program (PRP) and many others have critical 
duties supporting PRP. All our nuclear units across five different 
major commands undergo rigorous and unforgiving Nuclear Surety 
Inspections with necessarily high standards that demand consistent 
precision and reliability. It's a tough business, but the stakes are 
too high for it to be any other way
    Over this past year, the Air Force made a series of key decisions 
to address systemic weaknesses in its nuclear mission area. The US Air 
Force Posture Statement 2009 states: ``Through a back-to-basics 
approach, the Air Force is re-emphasizing accountability, compliance, 
and precision in the nuclear enterprise. We are reorganizing our 
nuclear forces in a manner that reduces fragmentation of authority and 
establishes clear chains of supervision for nuclear sustainment, 
surety, and operations. These changes include: (1) consolidating all 
nuclear sustainment matters under the Air Force Nuclear Weapons Center; 
(2) establishing a new Air Staff nuclear directorate responsible for 
policy oversight and integration of our nuclear enterprise activities; 
and (3) standing up Air Force Global Strike Command, which is already 
operating in a provisional status at an interim location. Global Strike 
Command will consolidate Air Force ICBMs and nuclear-capable bombers 
under a single command, and is on track to activate later this year.''
    The basis for these three key organizational decisions, as well as 
additional institutional direction can be found in the nuclear roadmap 
published last fall, ``Reinvigorating the Air Force Nuclear 
Enterprise.'' The roadmap represents a comprehensive approach to 
address root causes of documented deficiencies to ensure we are 
aggressively working to reclaim our legacy of excellence in the nuclear 
mission area. The roadmap-related efforts well underway in the Air 
Force to reinvigorate the nuclear enterprise can be categorized into 
six broad strategic objectives: (1) Develop adequate nuclear-related 
expertise and properly man the enterprise: right experience, right job; 
(2) Implement a process for ensuring sustained advocacy, focus, and 
commitment; (3) Establish clear lines of authority; (4) Implement a 
disciplined, comprehensive enterprise system-of-systems methodology to 
ensure day-to-day sustainment excellence; (5) Implement processes to 
uncover, analyze, address, and review systemic weaknesses; and (6) 
Sufficiently invest in the nuclear deterrence mission area. By 
accomplishing these objectives, we will continue to build on the 
confidence that our Nation and allies have in our commitment to this 
critical mission.
    Our first strategic objective, to improve the professional 
development of our nuclear experts, is a multi-year effort involving 
education, training, and the assignment process.
    All professional military education courses, both officer and 
enlisted, have been reviewed and modifications are underway to ensure 
the appropriate level of content regarding the nuclear mission area. 
Additionally, Air Force nuclear doctrine has been updated to include a 
greater focus on deterrence.
    It is vital to assign the best qualified people to key positions. 
We are aligning our training, education, and career force development 
with significant work completed by our personnel directorate on the Air 
Staff in conjunction with the Air Force Personnel Center in San 
Antonio, TX; truly an ongoing effort that must be continually re-
evaluated with the ultimate goal is to ensure the right expertise is 
matched to the right job. Also, the Air Force has identified billets 
both inside the AF and across joint and interagency positions that 
require key nuclear expertise, and these authorizations will be given 
priority for filling. Additionally, nuclear experience identifiers are 
being added to personnel records to ensure we are able to track 
individual experience levels, which aides our efforts to properly 
develop our people to take on positions of greater responsibility in 
the future.
    We are achieving our second strategic objective--to implement a 
process for ensuring sustained advocacy, focus, and commitment for the 
nuclear enterprise--with a series of process changes. The internal AF 
resourcing process has been changed to now include a new Nuclear 
Operations Panel, whose role is to ensure a thorough assessment of 
nuclear funding requirements. The Air Force Strategic Plan, a key 
planning document to link future capabilities to the programming 
process, established reinvigorating the nuclear enterprise is the 
number 1 priority of the Air Force. Additionally, the Secretary of the 
Air Force and the Chief of staff, at their initiative, established and 
co-chair the Nuclear Oversight Board, composed principally of the 
nuclear Major Command Commanders, to ensure proper focus and advocacy 
is maintained Air Force-wide.
    To effectively manage the nuclear enterprise, it is necessary to 
ensure our third objective is achieved, establishing clear lines of 
authority. Discussed earlier, these changes include: (1) consolidating 
all nuclear sustainment matters under the Air Force Nuclear Weapons 
Center; (2) establishing a new Air Staff nuclear directorate 
responsible for policy oversight and integration of our nuclear 
enterprise activities; and (3) standing up Air Force Global Strike 
Command.
    A significant force-wide challenge is encompassed in the fourth 
objective, implementing a disciplined, comprehensive system-of-systems 
methodology to ensure day-to-day sustainment excellence. A large 
component of this effort is being achieved by consolidating our nuclear 
sustainment activities under the Air Force Nuclear Weapons Center. The 
Center is working in conjunction with our Air Staff maintenance and 
logistics experts on a comprehensive positive inventory control 
methodology and a fusion center for maintaining continuous oversight of 
nuclear weapons related material.
    Critical to our day-to-day excellence in the nuclear mission area 
is our fifth objective, implementing processes to uncover, analyze, 
address and review systemic weaknesses throughout the nuclear 
enterprise. Regardless of the size or structure of our nuclear force, 
every action by every airman must be executed with precision and 
reliability. The Air Force is rebuilding a nuclear culture with a 
robust self-assessment and inspection process in order to effectively 
uncover, analyze, and address systemic weaknesses within its nuclear 
enterprise. The Air Force has developed standardized training, 
qualification, and certification requirements for nuclear inspection 
team members. Where appropriate, common checklists will be used across 
all nuclear commands. When significant deficiencies are noted, common 
root cause analysis techniques are implemented to fix the problem and 
improve related processes. Today, every AF Nuclear Surety Inspection 
(NSI) is performed under the oversight of the Air Force Inspection 
Agency. Also, a core team of inspectors will be attached to each MAJCOM 
NSI team to ensure consistency across all MAJCOMs. In addition to the 
increased depth of inspections, ``no-advanced-notice'' inspections are 
now occurring across nuclear major commands.
    The Air Force has taken aggressive actions to achieve our sixth 
objective, sufficiently investing in the nuclear deterrence mission 
area, an area that numerous studies have identified as being 
significantly under-resourced. Ensuring continued reliability and 
credibility of our nuclear systems requires a sustained commitment to 
funding weapons and platforms while simultaneously investing in a 
credible deterrent capability for the future. We have already 
programmed resources to address many of the recommendations provided by 
the various assessments of the nuclear enterprise and continue to focus 
and prioritize future investments.
    Expanding upon our sixth objective, the fiscal year 2010 PB 
represents significant progress toward addressing many issues and 
recommendations made by numerous internal and external reviews and 
investigations. This includes funding and investment to bring all 76 B-
52s in our inventory to a common configuration with updated 
communications and flight systems making all aircraft capable of 
nuclear and conventional missions. We are revitalizing our 
intercontinental ballistic missile force, the Minuteman III, with 
additional resources for sustainment, aging and surveillance. We have 
funded improvements to the rural missile complex gravel roads to bring 
them up to standards which ensure safe transport of our critical 
systems to and from base, as well as our most precious asset, our 
airmen, who travel thousands of miles on these roads every day. Other 
initiatives include the Air Force study of the B61 Life Extension 
Program that will look at options to extend the service life of the 
oldest weapon in our inventory. Finally, we are introducing a program 
to replace our Vietnam-era helicopters for missile field complex 
security operations with an airframe that will provide required lift 
capacity, speed and range.
    Additionally, with your support, we requested and received 
permission to reprogram over $100 million to address immediate and 
achievable needs to the nuclear enterprise in fiscal year 2009. With 
these funds, we were able to accelerate procurement of armored security 
vehicles for the missile complexes and weapons storage areas, complete 
overdue electromagnetic pulse protection work on critical 
infrastructures, upgrade weapons security systems in Europe, and 
develop software that will enable our Nuclear Weapons Center to track 
all Nuclear Weapons Related Material from cradle to grave.

                                CLOSING

    According to the Report of the Secretary of Defense Task Force on 
DOD Nuclear Weapons Management, ``the strategic role of nuclear 
capability is to deter and dissuade current and emergent enemies from 
attacking the United States and its vital interests. To be successful 
in this critical national objective, the Nation's nuclear forces must 
be demonstrative and credible, and be survivable against a preemptive 
attack. This combination of capability, credibility, and survivability 
presents high uncertainty to a potential adversary in attempting to 
anticipate the success of executing one or more courses of action.''
    Collectively, all of the actions described above are ultimately 
focused on deterrence. Strategic deterrence is vital to America's 
security, and the Air Force is an essential provider of strategic 
deterrence. Our actions will ensure the Air Force continues to deliver 
the unique, effective strategic capabilities of stable, flexible and 
visible nuclear deterrence, thereby instilling confidence in the 
American people and national leadership; assuring allies; and 
dissuading and deterring potential adversaries. The Air Force is fully 
committed to the nuclear deterrence mission.
    Thank you for the committee's continued support of the U.S. Air 
Force.

STATEMENT OF MAJ. GEN. FLOYD L. CARPENTER, USAF, COMMANDER, 8TH 
                 AIR FORCE, AIR COMBAT COMMAND

    [The prepared statement of Major General Carpenter 
follows:]

        Prepared Statement by Maj. Gen. Floyd L. Carpenter, USAF

    Chairman Nelson, Ranking Member Vitter, and distinguished members 
of the subcommittee, thank you for this opportunity to represent the 
men and women of the Eighth Air Force and to answer your questions 
regarding the use of bomber aircraft in the United States Air Force. A 
key component in our Nation's ability to conduct long-range strike 
missions is found within our Air Force bombers. This unique capability 
is not possessed by any other branch of our armed services or by any 
other nation. Globally, the distance of our potential adversaries and 
lack of basing options hampers our ability to perform in a variety of 
theaters and scenarios. Long-range strike aviation is one of the few 
hedges our Nation maintains to mitigate these fundamental challenges. 
Air Force strategic bombers are a critical element of our National 
Security Strategy and National Military Strategy, providing unique 
capabilities to fulfill combatant commanders' mission objectives from 
shaping and deterring to large scale conventional operations and even 
nuclear scenarios.
    Despite the age of our Nation's three bombers, the Air Force long-
range bomber force is unmatched in its ability to provide conventional 
power for initial response to regional crises within hours. 
Additionally, our bombers can provide sustained operations in any 
region of the world employing either conventional or nuclear options. 
As we move away from forward overseas basing, the speed, range, and 
payload of today's manned bombers allow for a U.S. presence anywhere on 
the globe within 24 hours.
    The end of the Cold War brought about a false feeling of global 
security, especially surrounding the long feared use of nuclear weapons 
between the Cold War superpowers. Shortly after the end of the Cold War 
we saw the world in its new form--violent and unstable. Different from 
the last century, non-state actors, specifically radical 
fundamentalists, moved to the forefront of the international stage. Our 
national security debates centered on not only how to counter this 
threat, but whether insurgent radical fundamentalism is the likely 
dominant form of warfare for the 21st century. These are critically 
important questions when deciding the best national military force 
structure size and composition. But in an effort to ``tailor'' our 
force structure we would be remiss if we were to assume this type of 
warfare will totally dominate the global security horizon for the 
foreseeable future. For at least the first 25 years of the 21st 
century, instability, violence, proliferation of weapons of mass 
destruction, and cultural/religious clashes will be center stage on the 
global arena. However, we must guard against absolute predictions of 
what forms of warfare may occur in the future.
    As we moved into the 21st century, the 2002 Nuclear Posture Review 
revealed that the Cold War's Triad was limited in scope and in need of 
an update. Our deterrence foundation still relies on our strike 
capability composed of a formidable balance of Intercontinental 
Ballistic Missiles, Submarine Launched Ballistic Missiles, and manned 
recallable and retargetable bombers. In today's threat environment 
where non-state actors and counterinsurgency operations are center 
stage, the importance of our bomber force to deterrence is often 
overlooked and little understood. The strategic bomber is unique in its 
ability to assure allies, shape the environment, dissuade potential 
adversaries, complicate adversary strategy, provide the President and 
Secretary of Defense escalation control options, and ultimately offer 
alternatives to the insertion of precious ground forces on foreign 
soil.
    Unquestionably, there are a myriad of applications for the use of 
bombers. These include but are not limited to: (1) the demonstration of 
national resolve through force generation and arming with either 
conventional or nuclear weapons; (2) upon order, covert, or overt 
dispersal within the U.S. or deployment to forward locations; (3) 
strike operations from single-aircraft to multi-aircraft conventional 
and/or nuclear packages, which, most importantly, can be executed, 
retargeted, or recalled; and (4) employment of a vast array of weapons 
to include conventional unguided general purpose bombs, cluster 
munitions, precision-guided munitions, hard target penetrators, nuclear 
gravity weapons, and conventional or nuclear cruise missiles. Further, 
bombers have a unique ability to communicate de-escalation through 
visible downloading and removal from alert status and/or redeployment 
to home stations. Overall, and possibly most notable, bombers are 
differentiable from other strategic nuclear weapon systems--thereby not 
forcing an enemy into assuming a worst case nuclear scenario.
    In the new Strategic Triad, it is the bomber that provides the most 
flexibility to U.S. command authorities, with this flexibility being 
multifaceted and unique among the triad components. Air Force bombers 
are recallable, scalable, directional, and visible and provide our 
President and Secretary of Defense with both assurance and deterrence 
at the same time. This deterrence flows not only from the bombers' 
nuclear strike capability but also from the robust demonstrated 
conventional capability that can hold any target on the planet at risk. 
Another unique feature of our bomber force is the ability to deter even 
while strike operations are being executed. Simply put, deterrence from 
bombers can continue despite shots being fired. Furthermore, by 
enabling the effectiveness of other U.S. and partner instruments of 
power, bomber conventional capability can provide alternatives for 
deterrence beyond the obvious threat of annihilation. The most 
illustrative example is U.S. bombers operating in conjunction with 
indigenous ground forces in Serbia, which ultimately helped facilitate 
enemy capitulation without large scale North Atlantic Treaty 
Organization ground force insertion.
    To be sure, all components of the Strategic Triad are critical to 
our National Security Strategy but the bomber force has and will 
continue to be unique in its ability to assure allies, shape 
environment, dissuade potential adversaries, complicate adversary 
planning, provide escalation control, and offer alternatives to our 
combatant commanders and the President and Secretary of Defense. 
Bombers are the only platform in the Strategic Triad which can be 
employed in either conventional or nuclear roles. As our forces 
continue to redeploy from forward bases around the world, long-range 
strike aviation will remain one of our Nation's key power projection 
capabilities in the foreseeable future. This long-range strike 
capability provides the Nation the most powerful means to rapidly 
respond or attack around the globe and offers our Nation's leaders 
freedom of choices and freedom of action in the new world environment. 
Our national security will increasingly depend on strategic bombers to 
meet the demands of responding rapidly and decisively to security 
threats. Thank you for this opportunity. I look forward to your 
questions.

STATEMENT OF RADM STEPHEN E. JOHNSON, USN, DIRECTOR, STRATEGIC 
                        SYSTEMS PROGRAMS

    [The prepared statement of Rear Admiral Johnson follows:]

            Prepared Statement by RADM Stephen Johnson, USN

    Chairman Nelson, Senator Vitter, distinguished members of the 
Strategic Forces Subcommittee. Thank you for this opportunity to appear 
before you to discuss our Navy's nuclear enterprise, today's force and 
the efforts to ensure the continued reliability of our submarine 
strategic forces, and the Ohio class replacement to maintain continuous 
strategic deterrence.

                        NAVY NUCLEAR ENTERPRISE

    The Navy remains vigilant in executing our nuclear strategic 
deterrent mission. The Department of Defense nuclear enterprise has 
gone through several important events over the last year. Through 
numerous reviews, both internal and external, the Navy has been found 
satisfactory in executing our responsibilities although there are areas 
where improvement is required. These efforts included an in-depth 
review of nuclear weapon custody and accountability procedures, weapons 
handling procedures, training, and flight test non-nuclear verification 
requirements. These reviews have confirmed the Navy has maintained a 
safe and secure environment for our strategic assets As a result of 
these reviews, the Navy has established two new three Star level 
councils chaired by the Director Navy Staff to provide central 
coordination to focus and address policy, operational and acquisition 
issues associated with our nuclear weapons enterprise, and ensure the 
Chief of Naval Operations (CNO) receives comprehensive recommendations 
for nuclear weapons governance. The first council involves the three 
Star Admirals on the CNO's direct staff and is called the Operational 
Navy Nuclear Weapons Council. The second brings together the 
Operational Navy leadership, the Fleet leadership, and acquisition 
leadership and is called the Navy Nuclear Weapons Senior Leadership 
Oversight Council. These new councils demonstrate the Navy leadership's 
continued focus and commitment to this mission area.
    I have focused Strategic Systems Programs on six major areas to 
continue to sustain high standards which include: (1) rigor; (2) field 
activity oversight; (3) self-assessment; (4) corrective action; (5) 
material management; and (6) personnel. These six areas of focus form 
the guiding principles by which we will manage our day to day 
operations and set the culture to sustain this mission for the long 
term. The men and women of Strategic Systems Programs and our industry 
partners remain dedicated to implement these guiding principles to meet 
the mission of our sailors on strategic deterrent patrol and our 
marines and sailors who are standing the watch to ensure the security 
of the weapons we are entrusted with by this Nation.

                             TODAY'S FORCE

    Our 14 Trident Submarines, eight of which are homeported in the 
Pacific and 6 in the Atlantic fleet, continue to provide a credible, 
survivable, and reliable sea-based strategic deterrent for our national 
leadership. Two of our submarines, USS Nevada (SSBN 733) and USS 
Tennessee (SSBN 734) are undergoing Engineering Refueling Overhauls 
which will maintain the viability of these platforms through the end of 
the class. USS Alaska (SSBN 732) has recently completed her overhaul 
and post availability testing and is preparing for her Demonstration 
and Shakedown Operation with a Replacement strategic outload and return 
to the operational cycle next spring.
    The men and women of Strategic Systems Programs (SSP) are committed 
to maintaining the high reliability of our 14 Ohio class SSBNs with 
their Trident II D5 Missiles, as well as the four Ohio class SSGNs that 
have been converted to carry Tomahawk missiles and support Special 
Operating Forces (SOF) missions as directed by our combatant 
commanders. In February the USS Alabama (SSBN 731) conducted the 126th 
consecutive successful flight test of the Trident D5 missile as part of 
her Demonstration and Shakedown Operation. This record of successful 
flight tests is unmatched by any previous missile launch system. 
Therefore, I am pleased to report to you that the Trident Strategic 
Weapons Systems continues to meet the operational requirements 
established for the system almost 30 years ago. However, it is my 
military opinion that the overall health of the D5 weapons systems is 
not without cause for pause, as the weapon system is nearing its 20th 
year of deployment and now enters an era of its lifecycle where age-
related issues may impact its reliability. With D5 planned for 
operational deployment to match the Ohio class hull life extension, D5 
hardware will age beyond our previous experience base and will be 
operational almost twice as long as any previous sea-based strategic 
deterrent. Age related concerns have been validated by several 
technical issues that have arisen over the past year that remind us 
that the Trident weapons system requires increased vigilance to 
maintain the demonstrated high reliability of the system. I am 
confident that the dedicated SSP team is up to this challenge.

                       D5 LIFE EXTENSION PROGRAM

    Our efforts to extend the life of the Trident II D5 missile 
continue. We are procuring additional missiles, due to the Ohio class 
hull life extension, to ensure that our Ohio class submarines are fully 
out loaded throughout their service life. This is being accomplished 
through continuous production of critical components such as rocket 
motors, major requalification efforts when necessary, and an update to 
missile electronics and guidance packages to address obsolescence. 
However, even with continuous production of solid rocket motors, we are 
experiencing cost challenges today as both NASA and Air Force demand 
declines and will continue to experience those cost increases as demand 
continues to shrink in future years. We are approaching the Critical 
Design Review for our missile electronics update and are evaluating 
various options to determine the most cost effective implementation 
into the fleet. These updated electronic packages form a large part of 
the life extension strategy which supports the deployment of the 
Trident II D5 weapons systems on the Ohio class submarine and its 
impending replacement program.
    Key to the success of the Trident II, D5 Life Extension is the life 
extension of the W76, Mk4 warhead refurbishment known as the W76-1 
which we are executing in partnership with the Department of Energy. 
This program is on track to provide the Navy with the weapons we need 
to meet operational requirements throughout the Ohio class deployment 
and the planned follow-on platform.

                        NUCLEAR WEAPONS SECURITY

    As technical program manager responsible for the Navy's Nuclear 
Weapons Security, SSP has actively pursued technologies which will 
provide credible, cost effective security for the nuclear assets 
entrusted to our watch. Our Marines and Navy Master-at-Arms are 
providing an effective and integrated elite security force at both of 
our strategic weapons facilities. We have begun construction of our 
Limited Area Production and Support Complex at Strategic Weapons 
Facility Pacific, Bangor, WA. When complete, this facility will provide 
a higher degree of security for our ashore operations.
    The United States Coast Guard, Maritime Protection Force Units have 
been commissioned at Kings Bay, GA, and Bangor, WA. These Coast 
Guardsmen and the Navy vessels they man provide a security umbrella for 
our Ohio class submarines as they deploy and return from their 
deterrent patrols. They form the basis of our Trident Transit 
Protection System.

                         OHIO CLASS REPLACEMENT

    In 2027, the Navy will retire the oldest of the 14 Ohio-class SSBNs 
when it reaches the end of its service life. Over the subsequent 13 
years the Navy will retire the remaining Ohio-class SSBNs at a rate of 
approximately one per year. The Ohio class replacement is the 
replacement capability for the Ohio class ballistic missile submarine. 
It will be a strategic national asset whose endurance and stealth will 
enable the Navy to provide continuous uninterrupted survivable sea-
based strategic deterrence. Appropriate investment in the Ohio class 
replacement research and development and concept development is 
essential to a reliable, survivable and adaptable sea-based strategic 
deterrent prepared to face an uncertain future. The Analysis of 
Alternatives study commenced on 13 Aug 2008 and will complete this 
summer. The Navy's fiscal year 2010 budget provides the required RDT&E 
investment to support the lead ship construction.
    The U.S. will maintain its strong strategic relationship with the 
U.K. for follow-on platforms, based upon the Polaris Sales Agreement of 
1963 and recently reinforced by the Presidential, Prime Minster and 
Secretary of Defense exchange of letters. The U.K. has provided funding 
in 2008 and 2009 to support the design and development of a Common 
Missile Compartment that supports both the Ohio class replacement and 
the successor to the U.K. Vanguard class.

                                  SSGN

    Although SSGN is not a strategic asset, the program synergizes off 
of the Trident system. This highly successful program, authorized by 
Congress as a method to maintain the viability of four Ohio class 
submarines and bring a major advance in tactical submarine overseas 
presence is almost complete. All four of these submarines have 
completed their conversion to SSGN Attack and SOF Platforms. USS Ohio 
(SSGN 726) completed a highly successful 14 month forward deployed 
period, USS Florida (SSGN 728) just returned from her deployment in 5th 
Fleet, USS Michigan (SSGN 727) is forward deployed in 7th Fleet, and 
USS Georgia (SSGN 729) will depart on her maiden deployment later this 
year. By any measure, these platforms have delivered on the promise to 
provide high volume strike and high capacity SOFs capability to our 
combatant commanders. I am in the process of turning over the day-to-
day maintenance operations and future spiral development efforts of 
these fine ships to the Naval Sea System Command In-Service Submarine 
Organization as these platforms are no longer considered part of the 
Nation's Strategic Forces.
    Mr. Chairman and distinguished members of this subcommittee, I 
sincerely appreciate your continued support of the Navy's nuclear 
enterprise. Your efforts will ensure the continued credibility and 
reliability of our Trident II Weapons System and its remarkable Trident 
II D5 Missile, maintaining an unmatched record of success by any 
missile system. The men and women of Strategic Systems Programs are 
committed to the highest standards of safety, surety, and reliability 
of this remarkable system. Thank you again for the opportunity to 
appear before you today and am prepared to answer any questions you may 
have.

    Senator Bill Nelson. Mr. D'Agostino, there's an article in 
the New York Times and in a bunch of other papers about the 
publication of the Government Printing Office (GPO) Web site of 
a report that, according to the article, ``gives detailed 
information about hundreds of the Nation's civilian nuclear 
sites and programs, including maps showing the precise location 
of stockpiles of fuel for nuclear weapons.'' I understand that 
they've taken this report down from the Web site.
    Tell us about this, and tell us your assessment of any 
vulnerability that was disclosed in the report.
    Mr. D'Agostino. Mr. Chairman, I'd be glad to.
    First of all, the report that you mentioned is the United 
States declaration associated with the additional protocol, 
which is a more rigorous inspection regime set up to assist in 
our nonproliferation efforts around the world. In fact, it's 
not a report about our nuclear weapons activities or sites, 
specific locations of nuclear weapons or nuclear security; it's 
civil nuclear materials that exist around the United States. It 
is a sensitive, but unclassified, report. Ultimately, it would 
have gone after 60 days here in Congress, it would go over to 
the International Atomic Energy Agency. We think the report's a 
great demonstration of U.S. leadership and wanting to be 
upfront, wanting to be the first one to get on to these more 
rigorous inspections. We're certainly dismayed that the 
sensitive information was displayed publicly, but I can assure 
you, sir, I've looked at the actual report--in fact, this 
morning again--to make sure that I was very clear, particularly 
at sites that are the responsibility of my organization, to 
make sure that the information there is all unclassified. It 
went through a detailed interagency review. So, while I'm 
dismayed that it's out, I can assure you, sir, that it doesn't 
release weapons information.
    Senator Bill Nelson. So, it's just an easy locator for 
where nuclear weapons complexes are.
    Mr. D'Agostino. It's an easy locator for the civil side of 
what I would say the research and development that the Nuclear 
Energy Program does in the Department of Energy (DOE); some of 
that work is done at the NNSA site, some of it is done at the 
laboratories. There is some commercial power plant information 
that's out there. But, it does not reveal any classified 
information. Unfortunately, it's a nice compilation of 
information dealing with civil nuclear, and we are always very 
sensitive--and the Nuclear Regulatory Commission is, as well, 
very sensitive--to how much information gets out there that 
doesn't necessarily need to be out there. Unfortunately, this 
is one of those cases.
    The real concern, I think, has to do with, how did this 
information get out onto the GPO Web site, and that's something 
I'm sure we'll be working very closely with Congress on, trying 
to figure that out.
    Senator Bill Nelson. Do you have any idea how this would 
have appeared in the paper? Did they just cobble together a 
bunch of unclassified information?
    Mr. D'Agostino. I think what probably happened is, this 
sensitive, but unclassified, report that was sent was 
inadvertently placed on the GPO Web site. Another group--I 
believe it was the Federation of American Scientists--picked 
that up and placed it on their Web site, and from there it 
spilled into the media. It has since, as I understand it, been 
taken off of the GPO Web site. It's all unclassified 
information, but it's sensitive. It details where the country 
is doing some of its civilian research in nuclear areas, so it 
has information about materials and things like that.
    Senator Bill Nelson. Do we have to worry about any enhanced 
security, or do you feel like the security is adequate?
    Mr. D'Agostino. I'm very comfortable with the security at 
our NNSA sites. Those are the ones I know about the most. We 
design our security posture fairly rigorously against--the 
details, of course, are classified--a pretty broad set of 
threats. It would certainly cover the potential threats that 
might be here.
    We don't want to make things easier for people. I think, 
unfortunately, something like this does make some things 
easier. It just means that we have to maintain our security 
posture and keep it strong and continue to check on how we're 
doing, per our own standards.
    So, I'm very comfortable with the security of our NNSA 
sites, even with this report out, because I've looked at the 
``maps,'' if you will, and there's--on all of our sites--really 
nothing there, quite frankly. It just shows a corridor, for 
example, in a building, nothing else around it, so you have no 
idea of those kinds of details.
    Senator Bill Nelson. The Nuclear Posture Review (NPR) is 
underway, and each of you have a role in the process. So, why 
don't we start with you, Admiral, and you all just go right 
down the line and tell us about your role in the process.
    Admiral Johnson. Yes, sir. The Navy assigns a flag officer 
to each of the working groups for the NPR. I am assigned, 
appropriately, to the Stockpile and Infrastructure Working 
Group, and I support Mr. Henry and Dr. Harvey, who are the 
chairmen of that group. Then, the Strategic Systems Programs 
has key individuals supporting all parts of the NPR. We meet 
weekly. In my opinion, it's good communication, it's a good, 
healthy process, and I expect a good outcome.
    Senator Bill Nelson. Okay. Now, you said you're assigned 
and that you meet weekly. What's your role in the process?
    Admiral Johnson. I provide the answers to postulated 
scenarios provided by the other groups primarily who are the 
force structure groups. In the case of change in weapons 
loading, we would analyze: where would we store weapons; how 
many would have to be moved; how long would it take; what would 
it cost; et cetera. Those sort of practical answers. In the 
group that I'm in, we also help illuminate the investments 
necessary within the infrastructure for the Stockpile 
Stewardship Program and for it to carry on into the future.
    General Carpenter. Sir, like the Admiral, I have no real 
direct role, other than as a technical advisor, if you will, or 
a subject matter expert on the bomber side, since 8th Air Force 
is the nuclear bomber leg, which we consider a critical part of 
the triad. I act as an advisor when there are questions about 
that particular part of the triad, and how many weapons would 
be appropriate for that part of the triad. So, I'm removed, at 
Barksdale Air Force Base, from the NPR process itself, but very 
much engaged, through STRATCOM and through the air staff, with 
General Alston.
    Senator Bill Nelson. Do you get involved in the design of 
the new bomber?
    General Carpenter. No, sir, I have not.
    Senator Bill Nelson. How about you, Admiral? With regard to 
the new submarine?
    Admiral Johnson. Yes, sir.
    Senator Bill Nelson. You get involved in the design?
    Admiral Johnson. Yes, sir. I have been responsible, on the 
Navy side, for all the pre-milestone work, the system-
engineering work that preceded the start of the analysis of 
alternatives, and I will be responsible for the design and the 
operation of the missile compartment.
    Senator Bill Nelson. General?
    General Alston. Mr. Chairman, I am responsible for the Air 
Force support to the NPR process, so I ensure that we have 
proper representation on all of the working groups that are 
working the NPR. Admiral Johnson and I have found ourselves, in 
my 21 months, together very often, because of our somewhat 
common responsibilities, and we also share seats in some of the 
NPR forums. But, my responsibility would be not only to ensure 
that we have active engagement at every level within the NPR, 
but that I ensure that, as discussions and propositions and 
excursions would develop, that whatever would be asked of the 
Air Force, in terms of replies, that I would help manage those 
replies to that process.
    I, too, agree that this has been a very collaborative 
process. I think it's been a very transparent process. It is 
bona fide that the Services have been invited to participate 
fully. I'm very encouraged that, with this level of 
collaboration and a focus on strategy and policy-leading force 
structure, that I, too, am confident that we will get a very 
competent outcome for the Nation.
    Senator Bill Nelson. Mr. D'Agostino?
    Mr. D'Agostino. Yes, Mr. Chairman. I'm a member of the 
Senior Integration Steering Group (SISG). We meet weekly. 
Essentially, there are a series of working groups--the 
Stockpile and Infrastructure Working Group, as you heard 
Admiral Johnson describe, Policy Working Group, Force Structure 
Working Group, an International Working Group. We have this 
organization above that worries about the interagency 
coordination between these detailed working groups. So, I sit 
on that group. We do tradeoffs. We make sure that the strategy 
force structure feeds the number of warheads, types of 
warheads, and then do the iteration back and forth and make 
sure all these pieces tie together. Then, occasionally I've sat 
in as acting for the Deputy Secretary in deputies' committee 
meetings at the National Security Council (NSC) to be on the 
receiving side of some of this. I would agree with General 
Alston, I've seen a tremendous level of collaboration, not only 
between the Services and OSD policy, acquisition technology, 
and logistics, but State Department and international partners, 
as well. So, it's been a great process.
    Senator Bill Nelson. Jeff, do you want to ask any questions 
at this point?
    Senator Sessions. You can go ahead.
    Senator Bill Nelson. All right. Mr. D'Agostino, you know 
that there is a reasonable chance that we're going to reduce 
the nuclear stockpile. That's going to increase the size of the 
backlog of the nuclear weapons waiting to be dismantled. How 
would NNSA handle that increased number of dismantlements?
    Mr. D'Agostino. Absolutely right, sir, we do expect some 
increase in our dismantlement queue. As I've mentioned publicly 
before, we have a pretty sizable dismantlement queue. The 
actual number is classified, but at the pace that we're on, 
we'll take apart our last warhead in that dismantlement queue 
in 2022. That actually is a fairly accelerated rate from where 
we were about 4 years ago, on the pace that we were on. Our 
plan--we submitted a report last year with the classified 
details to Congress, and every 2 years we'll re-up that report. 
The way we would handle the increased rate is to continue to 
use what we call a special tool set. It's what we call 
``Seamless Safety for the 21st Century.'' It's a series of 
special tools that assist us in working on our warheads, where 
we don't have to move the warhead around so much, but it sits 
in a special toolcase where it allows us to take it apart 
fairly rapidly. But, most importantly, more important than 
speed, is the safety piece of this. Many of these warheads, 
particularly these old warheads, were built 40-plus years ago 
of fairly exotic materials, and have been in very hot silos and 
up in cold airplanes and back and forth. It's a very 
complicated job. So, my primary concern is not if I can take 
them apart faster every single year, but can I continue on the 
safety record that we've held essentially since the program 
started, because we're dealing with conventional high 
explosives that don't have the safety--on old systems that 
don't have the safety features of our more modern systems.
    So, I can assure you, safety is number one, not how fast I 
can do them. Clearly it's going to require us to maintain a 
good set of production technicians who are trained in this 
area. I think we have that crew in place right now.
    What I don't want to do is hire up essentially 300 people, 
because it's going to take me a few years to get them trained 
up--have them work really hard for 6 years to take everything 
apart, and then have to lay them off, because it doesn't make 
sense economically.
    Senator Bill Nelson. Do you have enough pit storage at 
Pantex?
    Mr. D'Agostino. Yes, sir, right now, our expectation is 
that we will be able to handle our expected future pit capacity 
not only today on our current plans, but the expectations of 
the NPR. I don't want to be predisposed that I know the answer 
before the review is done, and I don't. But, we're going to 
reevaluate all of these questions on storage facility locations 
as soon as we get the exact numbers. So, I'm anxiously waiting, 
frankly, to get this review done, get the details out, because 
that assists me greatly in my 5-year planning.
    Senator Bill Nelson. Why did you move the responsibility 
for the construction of the pit disassembly facility from one 
office to another?
    Mr. D'Agostino. In many cases, the pit disassembly and 
conversion facility move was directed by Congress, so we had a 
shift. I'm never a big fan of moving large projects from one to 
the other, because what you do is, you disrupt teams. These are 
very complicated facilities. They require a certain set of 
consistency over years of time. Both of those organizations are 
in the NNSA, so I am ultimately responsible for it and 
ultimately that's going to be my objective.
    Senator Bill Nelson. In disassembling the nuclear weapons, 
do you want to do some of that in Nevada or do you want to do 
all that at Pantex?
    Mr. D'Agostino. I want to do that at Pantex, because first 
of all, my production technicians are at Pantex. Next, the 
facilities that I have at Pantex are actually certified by 
ourselves and checked by the Defense Nuclear Facility Safety 
Board to be able to do what I would call the highest level of 
nuclear safety work, because safety is primarily number one. If 
we're ever in a situation where we have, I would say, a problem 
disassembling a particular warhead, for example, because it's 
just been together for so long and we are in a situation where 
we need to get it out of the system because it's stopping a lot 
of other disassembly work from happening, we do have the 
option, and it will be on a case-by-case basis, to say, ``Let's 
use our device assembly facility at the Nevada Test Site, fly 
some technicians out there, do this specialty work on this 
particular warhead while we continue to work away this larger 
bucket of dismantlement work.''
    So, Nevada is always a nice contingency plan for us. I 
don't see anything in the near future that would cause us to 
use it right now.
    Senator Bill Nelson. Senator Sessions?
    Senator Sessions. Thank you.
    Mr. D'Agostino, when we talk about nuclear stockpile 
reductions, which will be part of the President's talks with 
the Russians--have they already begun?
    Mr. D'Agostino. The Assistant Secretary, Rose Gottemoeller, 
from the State Department, has started working with the 
Russians. Yes, sir, she has.
    Senator Sessions. It's on a fast track. I would just note 
that there's no reason that that has to be done this year. It's 
a self-imposed goal. We can extend the Strategic Arms Reduction 
Treaty (START) for up to 5 years with little problem. But, at 
any rate, the President seemed to be determined to move forward 
with that, and announced some reductions. But, the question I 
think we're hearing from various experts in the field, that any 
reduction done by current stockpile should be tied to some sort 
of modernization plan of our existing nuclear weapons. Do you 
share that view?
    Mr. D'Agostino. I think that's a discussion that I'm 
currently having right now. One statement I would make is, I 
feel very strongly that we are in a fragile position, if you 
will, from an infrastructure and people standpoint. There's a 
Perry-Schlesinger report that has come out recently that has a 
fairly accurate portrayal of the infrastructure and people 
concerns that they have. One thing to do is make--we have great 
people in our outfit. The people want to know that they're 
doing work that the country cares about and that they're doing 
work that exercises their skills. So, an element of that is 
extending the life of the warhead. The way that Perry-
Schlesinger Commission report describes life extension is a 
continuum of activities, from refurbishment to replacement. I 
think working in that continuum is where we're going to end up 
and what the NPR is going to end up showing us.
    So, all of these pieces are tied together. In my view, you 
can't just talk about one piece, just talk about size only, and 
not address, frankly, the whole integrated situation, not only 
on the NNSA side, but my colleagues in DOD who also have 
concerns with critical skills.
    Senator Sessions. Former Secretary Perry, on May 28--who's 
been, frankly, very aggressive, more than I would suggest, is 
required to draw our weapons systems down--said this in his 
article: ``The U.S. should maintain a safe, secure, and 
reliable nuclear deterrent for itself and its allies, and that 
this deterrent should be adequately funded and staffed with 
topnotch managers, scientists, and engineers.'' I know that you 
are challenged with making sure that there's no waste, every 
dollar is spent wisely. But, is the budget before us today 
that's been proposed, is that sufficient to meet the standards 
that Secretary Perry made?
    Mr. D'Agostino. The budget we have before us today meets 
the standard for today, for the year that we're talking about, 
2010. I would like to note, though, that particularly when one 
looks at the out-year plan--typically we submit a 5-year series 
of numbers to show direction, if you will, on our programs. 
This program, you'll note that our out-year numbers are 
exactly, in some cases, in science and technology, fairly 
identical with the 2010 number. That is done because I 
recognize that changes are going to have to be made in the out-
years in order to make Mr. Perry's statement a sustainable and 
true statement out in the out-years.
    So, the way I would describe this is as a 1-year budget 
submittal to Congress, that once the NPR comes out, my plan, 
Tom D'Agostino's plan, is to make sure that the challenges of 
securing nuclear materials in 4 years, the challenges 
associated, as the Perry-Schlesinger report puts out, on doing 
life extensions on our warhead and exercising our people, are 
duly reflected in the science element of my program, the 
infrastructure element of my program--not ``my program,'' but 
the program that the country has entrusted me with for now, as 
well as the direct stockpile work piece, the life-extension 
piece.
    Senator Sessions. Is there money in it sufficient to do 
those things in the out-years?
    Mr. D'Agostino. Not in the out-years, but in 2010, yes, 
sir.
    Senator Sessions. Secretary of Defense Gates, just last 
October, said, ``The U.S. is experiencing serious brain drain 
in the loss of veteran nuclear weapons designers and 
technicians.'' He went on to say, ``To be blunt, there is 
absolutely no way we can maintain a credible deterrent and 
reduce the number of weapons in our stockpile without either 
resorting to testing our stockpile or pursuing a modernization 
program.'' Do you agree with that?
    Mr. D'Agostino. I largely agree with that statement. 
There's details below some of those statements. A modernization 
effort, in my view, encompasses a wide variety of activities, 
from reuse of components that we've previously made, exercising 
our scientists, to making sure that when we do a life extension 
on our program, we modernize the safety and security elements 
of our warheads. That's absolutely important. The last thing I 
think is--as we maintain our deterrent, put warheads into our 
stockpile that are based on 1970s- or 1980s-era safety and 
security efforts, because we know that things have changed in 
the last 30 years.
    Senator Sessions. A modernization program should result 
into weapons being more reliable and significantly more safe, 
should they not?
    Mr. D'Agostino. Absolutely, Senator. I agree 100 percent 
with that statement.
    Senator Sessions. What objections are you getting to 
modernizing, even as we draw down some of the numbers?
    Mr. D'Agostino. I think making sure that it's put in the 
context of the President's overall strategic direction, making 
sure that it fits in. We have an integrated framework to talk 
about nuclear security.
    Senator Sessions. Yet, you don't have a commitment for 
funding that would allow you to do that. Is that what you're 
saying?
    Mr. D'Agostino. The program I have right now puts us in a 
position to be able to respond to the NPR. I'm very confident--
and that's why I'm very excited about being able to get a NPR 
out, because we want that detail and that information in there. 
That's why Dr. Harvey, who is co-leading the stockpile and 
infrastructure group, understands this program, has my views--
is working that in the NPR process, because I have these views 
that I want to be reflected in, ultimately, the 
administration's position for the future.
    So, I have no objection to modernization. I think it's 
important. We need to put safety and security into our 
stockpile. We have some in already. We want to make sure that, 
if we're going to extend the lives and maintain our deterrent, 
that continues out into the future.
    Senator Sessions. You also would acknowledge that we're the 
only nuclear weapons country in the world that doesn't have a 
modernization ongoing program. Is that right?
    Mr. D'Agostino. That's correct, but we do have a life 
extension program. I want to make sure that that's clear. Some 
of this is not semantics--there are some details behind the 
difference between a pure refurbishment life extension and a 
reuse life extension or a replacement life extension activity. 
So, it's absolutely correct, if we're talking about what I 
would call advancing the ball dramatically on safety, security, 
and reliability. But, we do have a life extension program 
underway; in fact, we're supporting the Navy, Admiral Johnson's 
requirements, for the W-76 warhead, in that respect.
    Senator Sessions. We just need to do what is necessary to 
move forward with these programs. I just am not seeing a firm 
commitment from the administration that that's what's going to 
happen. We hear some positive talk. I think you guys hope that 
the NPR will help move us in that direction, but I haven't seen 
it yet, and it makes me somewhat nervous.
    Admiral Johnson, tell us briefly about missile defense, 
about your requirements to test submarine-launched missiles, 
how often do you launch those, how many you do, and why you 
think that's necessary to guarantee the reliability of those 
systems.
    Admiral Johnson. Yes, sir. The Navy tests four missiles per 
year in a program we call a Follow-on Commander's Evaluation 
Test. The submarines are on patrol. They are notified. They're 
selected at random. They're notified by message. They return to 
port. Two missiles are selected--again, randomly. Those 
missiles are then--the warheads are removed, and the 
appropriate test instrumentation, telemetry, and destruct 
capability are installed. It takes a couple of days, a matter 
of days, and the ship proceeds to the range area and conducts 
normally two missiles from that submarine. We do that twice a 
year, a total of four.
    Senator Bill Nelson. Tell us where that range is, Admiral.
    Admiral Johnson. There are two ranges. The one we used 
yesterday is off the coast of Florida. It's the same operation 
center the Air Force runs for a variety of tests. They share 
that facility with us at the 45th Space Wing, and it's the 
eastern range. We fired, in this case, from Her Majesty's ship, 
Victorious, a Royal Navy submarine fired off the coast of 
Florida for a 5,000-mile test splashing down off the coast of 
Africa.
    Senator Sessions. Mr. Chairman, I think, one thing we will 
need to look at is that the national missile defense--they 
reduced the number to 30. If that goes forward, which I'm not 
comfortable with, I think it puts an even greater requirement 
that we have enough missiles that we have tested over the 
years, because all of our other areas test. You've been a 
critic, I know, for some time, and then--that we haven't 
probably tested that system enough. So, however we come out 
with national missile defense, I think we're going to have to 
produce those things while the assembly line is hot so they can 
be used for testing.
    Thank you. I appreciate your leadership. You are 
exceedingly knowledgeable on all these issues, and I'm pleased 
that you're chairing our committee.
    Senator Bill Nelson. Just for you students, here, this is 
the famous Senator whose picture is on the front page of the 
Washington Post this morning. [Laughter.]
    Mr. D'Agostino, we're not only reducing the number of 
nuclear warheads, but we're going to reduce the actual types of 
nuclear warheads. So, how do you go about reducing the weapons 
types and reducing redundant warheads?
    Mr. D'Agostino. What I would say now is, there is 
discussion about reducing types, but that will be left for the 
NPR ultimately to come out. But, I would offer the following, 
if I could. Ultimately, it gets driven by DOD's requirements, 
the types of targets that are part of the algorithm that 
determines the size of the stockpile, whether or not certain 
targets can be covered by multiple warheads, are there backups 
needed. From my standpoint, reducing the numbers of types makes 
the maintenance element a lot easier. I don't have to make X 
number of different types of neutron generators or thermal 
batteries or other particular components that we have to 
replace on a periodic basis. So, the maintenance piece becomes 
easier. There's a downside, of course, to reducing the types, 
and that is, you become more and more dependent on the types 
you have remaining. Therefore, that drives you to want to make 
doubly sure or triply sure that you know exactly what's going 
on with those particular warheads you've decided you're going 
to retain in your arsenal, both in numbers and types. So, I've 
always emphasized the point that as--if our stockpile gets 
smaller, and if the numbers of types go down, that more and 
more reinforces the need to have this discussion on having a 
very sustainable workforce and infrastructure that does that. 
Right now, we don't have that in the out-years, in my opinion, 
but that's what we have to get to.
    General Chilton ultimately can provide a more fullsome 
answer, sir, to your question on reducing the types.
    Senator Bill Nelson. Okay. We'll take that up with him.
    Historically, each lab has been responsible for the weapons 
that it designed. What do you think of the idea of having all 
the data on all of the weapons available to each of the 
laboratories and having each lab do an independent review of 
each weapon?
    Mr. D'Agostino. I like that idea, sir. I think it's a great 
idea. We discussed, last year, on how we make our annual 
assessment process stronger as our stockpile size changes. We 
believe we've reached that point where our stockpile size is 
small enough that we need two independent checks, full sets of 
experiments run independently by both labs, keeping the 
responsibility, of course, for the design with one laboratory, 
because we always want one organization responsible. But, 
having another institution do that--Secretary Chu has looked at 
this idea. In his first month or so as the Secretary, I talked 
to him about that. He was convinced enough that he signed out, 
essentially, a piece of paper that directed us to go off and 
establish the system where we work that in. It means a little 
bit more science work, it means a few more experiments, it 
means a bit more analysis, and it means a bit more back and 
forth between our two laboratories, but that's a good thing. I 
think the country will be better off because of that.
    Senator Bill Nelson. Senator Sessions?
    Senator Sessions. Just briefly. The Wall Street Journal, on 
June 2, has an article that the U.S. and Russia talks appear 
headed for a framework agreement by July 6, and a final treaty 
by December. That's moving right along.
    Mr. D'Agostino. I would agree with that, sir.
    Senator Sessions. Have you been involved in that?
    Mr. D'Agostino. Yes, sir, at what we call the interagency 
meetings we have at the NSC and advising the Assistant 
Secretary of State--that is the prime negotiator for the 
administration.
    Senator Sessions. Mr. Daryl G. Kimball, Executive Director 
of the Arms Control Association here in Washington, which is a 
private group, I think, that apparently knows a lot about it, 
described the atmosphere at these meetings, usually tedious, as 
``electric.'' White House officials wouldn't say what their 
targets are on a treaty with Russia, but Mr. Kimball said the 
deployed nuclear weapons in each country could be reduced by 30 
percent to 40 percent from their current limit of 2,200 warhead 
delivery systems, Admiral Johnson, would be cut by half. 
General Alston and team, let me ask the military witnesses 
whether they've conducted any analysis on the implications of 
these reductions for their leg of the triad.
    Who wants to start?
    General Alston. Senator, I'd be happy to start.
    The process so far with regard to the NPR has been looking 
at the existing treaty limits with regard to Moscow and the 
combatant commander has been involved in his assessment as to 
force levels, but the discussions have not gotten so specific 
yet as to identify specific force levels. It has been a 
priority, certainly of the Air Force, and I will let Admiral 
Johnson speak for his service, but that we are ensuring that 
our responsibilities to maintain nuclear surety at lower levels 
is a very important matter to us. You would have, in your 
workforce, their ability to perform their roles and 
responsibilities. It's a sensitivity that we have. As we get 
deeper into this discussion and deeper into the NPR, I know 
we're going to reach a point where we're going to have to be 
able to make the assessments that you indicate we will need to 
make.
    Senator Sessions. But, you haven't been asked to, and have 
not completed an assessment to reduce your delivery systems by 
one-half?
    General Alston. No, sir, we have not. There have been some 
excursions to see what would be the art of the possible, but I 
really would not qualify those as reaching the point where they 
would be sufficiently mature for force-structure 
recommendations. But, for half of the force, no, sir, there 
hasn't been that level of detailed discussion involved in the 
Air Force.
    Senator Sessions. General Carpenter?
    General Carpenter. I agree with everything General Alston 
said. Our position basically has been that we have been 
promoting a balanced triad, whatever the numbers are, that the 
end result should end with a triad, as we have today, that is a 
balanced triad, so that every leg has a sufficient number of 
weapons to make it sustainable.
    Senator Sessions. Admiral Johnson?
    Admiral Johnson. Yes, sir, I agree with the same position. 
I do make the observation that, in the case of the missile tube 
numbers, the current numbers are set higher than the number of 
missile tubes that we have today, and that may provide some 
insight into the way--I haven't read the article, so I can't 
exactly respond to it.
    Senator Sessions. They just speculated. They talked about 
delivery systems being reduced by half. Let me ask you--you're 
aware--and I know when you've been promoted and had hearings, 
you've been asked whether or not you would give your honest 
assessment, regardless of what the politicians tell you, so I'm 
going to ask each one of you three uniformed personnel, will 
you, if asked about whether or not you can accept a 50 percent 
reduction in the delivery systems of our triad, will you give 
your best military judgment?
    General Alston. Yes, sir.
    General Carpenter. Yes, sir.
    Admiral Johnson. Yes, sir.
    Senator Sessions. All three of you said ``Yes.'' I 
appreciate that.
    Also, Secretary D'Agostino, on the question of nuclear 
weapons, the numbers slip my mind right now; perhaps you can 
recall how many tactical nuclear weapons the Russians have and 
how many we have.
    Mr. D'Agostino. The actual numbers are classified, but I 
will say there's a 10-to-1 ratio, roughly, give or take. It's a 
big difference between the two.
    Senator Sessions. If the START goes forward, we're talking 
about the strategic nuclear weapons primarily being reduced, 
and there's no plan to narrow the gap in the tactical nuclear 
weapons, is there?
    Mr. D'Agostino. The administration is focused--you 
described the timeframe earlier, which is correct, sir. 
Addressing the tacticals would be very difficult to do in the 
time period. There's other implications. Russia's been very coy 
about the role of their tactical nuclear weapons, vis-a-vis 
their overall national defense. It's a different approach than 
what we have.
    Senator Sessions. Oh, I see. The Russians don't want to 
talk about it? That's right, the Russians don't want to talk 
about tactical nuclear weapons. That's off the table. They're 
willing to talk about strategic nuclear weapons, and that's the 
fact of the matter. The administration is determined to reach 
this treaty, for reasons that baffle me. Hopefully we can go in 
that direction and move forward in that direction. I'm 
supportive of that. But, we're not under any pressure to do 
this. This is a self-imposed pressure that worries me. So, 
these are important issues. I know you will work on them, and 
give your best judgment.
    Mr. Chairman, thank you.
    Senator Bill Nelson. Thank you, Senator Sessions.
    Originally, under START II, there was a general 
understanding that once we got to START III, they would take up 
the tactical nuclear weapons, but we never got around to 
ratifying START II. So, this is something you have brought up 
in a most timely fashion, and I thank you for bringing it up. 
We need to keep it out there on the table and ultimately get to 
that issue.
    The idea was to address the strategic weapons first and 
then get to the tactical. Well, we never got there. So, thank 
you, Senator Sessions.
    Senator Sessions. Thank you.
    Senator Bill Nelson. Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    Welcome, to all of you. In particular, General Carpenter, 
welcome to you, and thanks for your new leadership of the 
Mighty 8th in Louisiana. We're very proud of that.
    My first question goes to something focused there, which is 
of the Air Force's movement on Global Strike Command, which is 
slated for Barksdale and obviously we hope that moves along and 
continues, in terms of the new major command that is clearly a 
significant high national priority, and it's a national 
priority to stand it up in a timely way. Can you give us a 
view--and/or, General Alston--an update on how that's 
progressing?
    General Carpenter. I can give you a timeline, and General 
Alston can fill in any gaps I missed.
    June 27 is the end of the environmental assessment period. 
Assuming that all comes out as we hope, then it will be 
announced as the final location. Once that happens, then you 
will start seeing people and resources being moved there. 
General Kowalski, who's the vice commander now of Global Strike 
Command, I believe is scheduled to arrive the first week and a 
half of July, followed by General Klotz, the new commander, and 
he is to arrive by early August. We're going to have a standup 
of the command, an activation of the command, and I believe 
August 7 is the planned date right now, tentatively at least. I 
think you know that the initial operating capability is 
scheduled for September. Come December of this year, the 
Intercontinental Ballistic Missile (ICBM) wings move over to 
Global Strike Command out of Space Command, and then followed, 
in February 2010, the bomber units will be moved from Air 
Combat Command into Global Strike Command, with, finally, full 
operating capability in September 2010. So, that's the schedule 
as I know it today.
    Senator Vitter. Thank you very much, and thanks for your 
leadership in that important transition. Again, thanks for your 
leadership of the Mighty 8th and your being part of our 
military community in Louisiana. We're very proud to have you.
    General Carpenter. Thank you.
    Senator Vitter. Gentlemen, I share many of Senator 
Sessions' concerns about some of this work toward treaties with 
regard to START. I can support the concept, and I can support 
the goal, I just want to make sure we do it right and don't set 
deadlines or timetables or goals with PR in mind, versus 
substance, and basically put politics and PR ahead of 
substance.
    With respect to that, I'm concerned about this schedule of 
trying to get to a new START in December, when the current NPR 
isn't slated to be done yet. It isn't slated to be completed 
until early next year. Isn't that potentially putting the cart 
before the horse? Shouldn't we have the new NPR finalized to 
understand the landscape with regard to what we should agree 
to, in terms of a new START?
    General Alston. Senator, I'll be glad to take a first 
answer there. Sir, I think the process that we have, that we 
are participating in with the NPR, has been a very 
collaborative process. It has been a very transparent process. 
Personally, I see very talented people that are trying to work 
these issues very much in earnest, very much in the open, and 
the Services have been a part of this process from the 
beginning. So, the dynamic that is helping work through these 
issues, I think, is a very positive dynamic, so I can't comment 
on assessing the pace. But, for the efforts that are underway, 
there's been very good, deliberate effort, and I think the work 
is moving towards a productive outcome from DOD for the 
participation that the Air Force is having in this process 
right now.
    Senator Vitter. I appreciate that. My question is about 
timing. Is it correct that that process is slated to be 
finalized early next year?
    General Alston. Sir, I think the NPR is supposed to be 
complete by the end of this year, but clearly there's a 
relationship between the analysis that is underway with the NPR 
and the START activities. It's just the way the process is 
working right now.
    Senator Vitter. I'm not sure I understand what that means. 
Let me ask it a different way. Does it make any sense to agree 
to a new START product before the NPR is completed and digested 
and understood, including by the START negotiators?
    General Alston. Sir, I can't speak to that, I can only 
speak to the Air Force role contributing to that process. The 
Department would be ultimately responsible for the quality of 
the NPR product.
    Senator Vitter. Mr. D'Agostino, maybe that's more 
appropriate for you to comment on that. It seems pretty logical 
that you want to complete and digest and understand the NPR 
before you agree to a new START. What's the matter with that 
assumption?
    Mr. D'Agostino. I think there clearly are two activities 
happening. In fact, one does inform the other activity. But, 
there's overlap. I think it is not unreasonable to say--there's 
a lot of detail that would have to happen in the NPR that 
doesn't have anything necessarily to do with START. If I can 
give an example or two, it might help, examples associated with 
maintenance of how we recapitalize our infrastructure, on what 
pace we would recapitalize our infrastructure, the actual 
different types of warheads themselves, where it depends on if 
the focus on the START number--the situation is a number and an 
agreement in a general direction. We can get the President, 
who's already said publicly that he is looking at a lower 
number than what the Moscow Treaty was and that he's interested 
in certain verification measures, as well. That framework is 
already established, in essence, and that provides a framework, 
so you don't have to wait until the NPR is exactly done, until 
the books are closed on it, because my expectation, frankly, 
what we want to do in the NPR process is, in fact, fairly 
accelerated.
    The DOE, the NNSA, need elements of that NPR understood 
before we develop our budget for fiscal years 2011 through 
2015, our 5-year budget. That is a program and budget that 
we're working on to get done by September of this year, so it's 
an element of the NPR process that's accelerated to get to that 
answer sooner so we can develop an actual program. In fact, 
that's exactly what we're going to do, and that's why General 
Alston described the NPR largely being completed by the 
beginning of the fiscal year later on this fall, if you will, 
because that's going to inform us as we develop, with DOD, our 
joint programs.
    So, there's certainly some parallelism going on. I can't 
deny that, and I don't want to deny that. I don't want to send 
that signal. But, at the same time, because we have such very 
good collaborative process, frankly, and we've gone through, 
already, a couple of iterations of how policy drives the force 
structure and how the force structure drives the warheads, 
numbers, and types, we've gone through an iteration that way. 
We have some sense of where things may end up. We don't want to 
give an answer right now.
    Ultimately there's a negotiation piece with Russia; that's 
important. So, I'm very confident, because of the transparency 
and because of our desire to get that NPR largely done later 
this year, so we can finish our budget preparations, because we 
submit that to you, sir, in January, that we are on a very 
tight path, but doable, is how I would describe it. It's not 
just one finishes and then the other starts, sir.
    Senator Vitter. I'm not suggesting it should be one 
finishes and then the other starts. I'm suggesting it should 
not be that the treaty finishes before the NPR finishes.
    Mr. D'Agostino. Yes, sir, I understand.
    Senator Vitter. Do you understand the difference? I'm not 
saying the NPR has to finish before treaty discussions start, 
but it does seem a little odd for the detailed treaty 
negotiations potentially to finish before the NPR is finished. 
What am I missing?
    Senator Bill Nelson. Let me interject, here. I think 
there's an element of this that the NPR discussions will inform 
the START negotiations, and the box that they find themselves 
in, that neither the Russians nor the Americans want this START 
extended. Under the terms of the treaty, it can only be 
extended for 5 years. Five years only. It can't be extended 1 
year, it can't be extended 10 years. It can only be extended 5 
years. So, the expectation may well be, according to the 
implication of your question, which I think is right on the 
money, is that these negotiations own what may end up being 
several treaties will be informed by the NPR discussions. Is 
that in the ballpark, Mr. D'Agostino?
    Mr. D'Agostino. That's my understanding, sir. I'm not an 
expert on the extension parts of the treaties, frankly, but 
that is, in essence--we can be informed enough by the work 
we've actually done to date on the NPR to start on the treaty 
discussions. Details do matter.
    Senator Vitter. Start. But my question is about the 
finishing of the treaty discussions before you finish the NPR. 
Mr. Chairman, I appreciate your comment, and you make some very 
good points. But, forgive me, as a recovering lawyer, the first 
thing I would say is, I don't care what the current START says. 
You can sign a new treaty that's the same as the old one, with 
one comma missing, and it can last 6 months if you want to, if 
that's the smart thing to do, and it can be a new treaty that 
can just bridge to the next treaty, if that is the right thing 
to do, substantively. My only suggestion is, let's put 
substance first, whatever that is.
    Mr. D'Agostino. Yes, sir, absolutely.
    Senator Vitter. I have a similar question about the 
Comprehensive Test Ban Treaty (CTBT). Now, I have to say, right 
off, my impulse about that is a lot different from START, which 
is--I questioned the whole premise of the soundness of the 
CTBT. But, Secretary Gates has said that, without testing, it 
will, ``become impossible to keep extending the life of our 
arsenal.'' Given that, do you think any consideration--
ratification of a CTBT should be preceded by plans for a new 
redesigned and more reliable warhead?
    Mr. D'Agostino. Sir, I would look at the question. I'm 
going to answer your question, but I would say, for the last 
13-plus years--or longer than that, frankly, 16 years--we have 
been operating, in effect, without underground testing, as a 
matter of policy. So, we have a program, a Stockpile 
Stewardship Program, designed to take a deep look inside our 
warheads, do an annual assessment.
    In an earlier question, Chairman Nelson asked about beefing 
up our peer-review process to make sure that we can do that. I 
am comfortable that, with what I could call a sustainable 
effort on science, a sustainable effort on the facilities that 
are required that the country is going to need, and a 
sustainable effort on modernization activity for our stockpile, 
that we can maintain the stockpile well on out into the future, 
without underground testing. I would add that that's one 
element of the CTBT discussion, sir, that the Senate will be 
looking at, I'm sure. Another element, of course, is the 
verification questions, which are fairly complicated, deal with 
seismic issues and being able to find out what the rest of the 
world is doing.
    The one comment I would like to make on that is, the same 
people that maintain our current stockpile and that we need to 
beef up, if you will, over the next few years, are the exact 
same people that do the intelligence analysis, the seismic 
analysis, as well. So, having a NNSA infrastructure that is 
taken care of out into the future is going to be an important 
part of a CTBT. That's the piece I'm going to make sure I 
communicate very clearly in this administration. That is my 
job, sir.
    Senator Vitter. Okay. I take it from what you said that you 
just disagree with Secretary Gates that it will ``become 
impossible to keep extending the life of our arsenal,'' without 
testing.
    Mr. D'Agostino. That's if we just leave the arsenal the way 
it is. In other words, to just do the day-to-day maintenance, I 
would agree with the Secretary, if we do what I would call the 
life-extension approach, which is a reuse or replacement 
approach--and I think this is where Secretary Gates was going, 
in effect, was modernizing, driving more reliable performance 
margins in there so we're sure we don't have to test--then my 
view is that we can do that in a nontesting future.
    Senator Vitter. I just want to make clear, his comment was 
not about that, it was about testing. He said, ``Without 
testing, we won't have this.'' You're disagreeing with that, 
correct?
    Mr. D'Agostino. I don't know the context of Mr. Gates's 
statement, so I think we are actually agreeing that if I can't 
modernize the stockpile, we're going to find ourselves where 
every year we're getting closer and closer to the point where 
the scientists and engineers in my organization--they're going 
to get to a point that say, Mr. President or Mr. Secretary, 
first, and then we tell the President, we're facing a moment of 
truth here with respect to testing, but we believe, in DOE or 
in the NNSA, that an integrated program of fixing the 
infrastructure, of working on the stockpile, and modernizing 
pieces of it, together with a science program to back it up, 
can take care of our nuclear deterrent out into the future 
indefinitely without testing.
    Senator Vitter. I will try to get that full context to you. 
But, my understanding is, he wasn't talking about this, he was 
talking about testing. Without testing, we can't do this. But, 
I will get that.
    Mr. D'Agostino. I would love to come back on that.
    Senator Bill Nelson. I would be surprised, Senator Vitter, 
if it were said in that isolated context, because I've had 
lengthy discussions with General Cartwright, the Vice Chairman 
of the Joint Chiefs, on this very issue, and I think he has 
every confidence to feel that, with the appropriate 
modernization program, that we can have the reliability we have 
to have. That's my impression.
    Senator Vitter. I will get that context to you and follow 
up on the discussion.
    Mr. D'Agostino. I would love to do that.
    Senator, I'd appreciate that.
    Senator Vitter. Admiral, if I can ask you--and thank you 
for your visit yesterday; I enjoyed that very much--the fiscal 
year 2010 budget continues funding for the next-generation 
follow-on to the Ohio-class SSBN. Can you discuss the Navy's 
current plans for that next generation, and steps, in 
particular, that have been taken early on to try to ensure we 
don't experience cost overruns or scheduling delays?
    Admiral Johnson. Yes, sir. This budget includes a request 
for $495 million to begin the work for the replacement of the 
Ohio class. The Ohio class is tremendously capable submarine 
today. It has no particular shortcomings. This request is based 
on the end of service life of that ship, which has been 
extended to 40 operational years. This is an on-time--it's not 
early, it's not late--it's an on-time start for the engineering 
and the research and development work to support and start 
construction in 2019. It's also on time with respect to the 
industrial base, and it's timed well to support our ally the 
United Kingdom. The work that we're doing early is concept work 
and missile launcher development prototype work, and it can be 
guided by the decisions of the NPR and the other events we talk 
about. I think it is well-timed to accommodate all the work 
that is going forward. It includes the early propulsion work 
for a ship of that size.
    Senator Vitter. Great.
    Thank you, Mr. Chairman, that's all I have.
    Senator Bill Nelson. I want to take your previous question 
and now ask that of the Admiral. How can you start the design 
of the new submarine if you don't know the outcome of the NPR?
    Admiral Johnson. Yes, sir. The very early work is concept 
work, layout, and qualification of vendors. In the case of the 
Ohio class, the youngest of the Ohio class is the Louisiana, 
delivered in 1996, so we have been out of production of large, 
heavy missile tubes and the launching equipment for about 25 
years. So, this early work is a combination of laying out how 
we will make that part of the submarine acoustically quiet, and 
other characteristics because, of course, we have very quiet 
attack submarines, but they do not have a missile compartment. 
It will be assessing how to do design and build that part of 
the ship, the missile compartment, with the same labor-saving 
techniques that we used on the attack submarines, in that 
section of the ship that we have not looked at in our Navy for 
almost 40 years.
    So, the exact number of tubes, the exact number or 
dimensions of those tubes, the exact speeds, none of those 
things need to be known in the first year of concept and 
research and development. Instead, we do things like we find a 
vendor capable of doing a missile hatch of that size out of the 
type of materials that we need to do--a core test article, 
which is representative, but not identical--and then 
destructively test it to make sure that vendor can give us a 
device or a hatch without flaw.
    Senator Bill Nelson. General Alston, the same question. How 
can you design a future airplane without knowing the results of 
the NPR?
    General Alston. Sir, we won't do that. The follow-on bomber 
requirements--we heard the Secretary of Defense loud and clear, 
in terms of our requirement to improve and take a harder look 
at the requirements that we had already posited, as well as the 
technology that would be available at the time that we need 
this penetrating platform to be available. This platform would 
be informed by the Quadrennial Defense Review (QDR), probably 
even more so than the NPR, but we do see linkages between both 
of those examinations, and we think that we will be better 
informed as the QDR and the NPR analysis continues. So, we 
think there's a strong relationship between the two studies, 
and the outcome of that, with a better set of requirements for 
that platform in the future.
    Senator Bill Nelson. Is the B-1 bomber going to be part of 
the Global Strike Command?
    General Alston. No, sir, it's not. It's a conventional-only 
platform, and that will remain in the Air Combat Command.
    Senator Bill Nelson. Did you have a question, Senator 
Vitter?
    Senator Vitter. I just have one followup.
    Senator Bill Nelson. Go ahead.
    Senator Vitter. I just wanted to follow up on the Senator's 
line.
    Admiral, I take it from what you're saying, you would 
never, for instance, finish design of a submarine before the 
NPR was finished.
    Admiral Johnson. Yes, sir.
    Senator Vitter. General, similarly, you would never finish 
design of a new aircraft before this NPR is finished.
    General Alston. No, sir.
    Senator Vitter. I was just suggesting, earlier, that 
logically it seems pretty clear to me we shouldn't finish a new 
START before the NPR is finished. That was my earlier point.
    Senator Bill Nelson. General Carpenter, from an operational 
perspective of the 8th Air Force, what are your plans to 
balance the conventional and nuclear excellence of the bomber 
force?
    General Carpenter. Sir, we've been doing that for a long 
time, ever since we took on the conventional mission in full 
force, starting around the Operation Desert Storm timeframe, 
but with the recent issues with the nuclear mission, obviously 
we've put a lot more focus on the nuclear side, and we designed 
the global deterrent force to address that issue. But, we've 
put a wing in the bucket, if you will, for the nuclear mission, 
and they stayed there for a whole year. So, while Minot Air 
Force Base is in North Dakota, the 2nd Bomber Wing at Barksdale 
is focused on the nuclear mission. So, we have that balance 
now.
    The 4th Squadron becomes a big issue now. When we stand up 
the 4th Squadron at Minot, it fills out that force, so we have 
enough force structure to separate that mission as we can.
    So, while neither are always exclusively focused, we always 
have to keep the nuclear certification, the crews ready to go, 
and the nuclear and on the conventional side, both, but the 
focus shifts from day-to-day, or from year-to-year, if you 
will. So, while the Global Deterrent Force, 2nd Bomber Wing 
right now--or, I'm sorry--and I got that backwards--2nd Bomber 
Wing is in Guam today, and Minot is in the Global Deterrent 
Force, kind of really focused on the nuclear mission, and that 
swaps back and forth. The B-2s don't have the luxury of having 
two separate wings, but they have two separate squadrons. So, 
those two squadrons rotate back and forth, as well, where one 
is always assigned the Global Deterrent Force mission, and they 
focus, primarily at least, on the nuclear mission. When they do 
the training, they really go out and focus on the nuclear side. 
Then, the other squadron is the conventional role. So, we're 
able to do that with the force structure we have today.
    General Alston. Sir, I just might add that, to the credit 
of 8th Air Force and General Elder and now General Carpenter, 
all three of our bomber wings have undergone no-notice nuclear 
surety inspections and have all passed those inspections. Those 
are exceptionally rigorous tests of nuclear requirements, and 
so, we are showing some positive results in that regard.
    Senator Bill Nelson. All right. Now, we're expecting B-52s 
and B-2s to take us all the way through 2030. Are we going to 
be able to sustain their viability?
    General Alston. Yes, sir, we will. I would ask General 
Carpenter to comment on this, as well, but first let me just 
say that the B-52 has a lot of life left in it, and we have 
plans in place to ensure its vitality in both the nuclear and 
conventional roles into the out-years. The B-2 ultimately will 
be facing threats that will exceed its capability as a 
penetrating platform; hence, the reason that we believe we need 
a penetrating platform to take on that responsibility when the 
B-2 may no longer be as effective at that role as we believe it 
is today.
    General Carpenter. I would agree, sir. The great programs 
we have in place now, with the radar programs and all three 
bomber platforms--the B-2 specifically, and the B-52 on the 
books, and the B-1, as well, and the communications upgrades we 
have planned for all those platforms--it will take them well 
into the 2040 timeframe. So, yes, sir, we can sustain those 
weapon systems.
    Senator Bill Nelson. General Alston, you've had to work 
overtime to straighten out the loose nukes and all of that. 
Have you got it under control?
    General Alston. Sir, we absolutely have it under control. 
As you may know, I came into my Pentagon tour about 21 months 
ago, which happened to coincide within days of the challenge 
that we had with the unauthorized munitions transfer. So, I've 
been personally focused on this through this entire assignment.
    My responsibilities have shifted, and right now, as a 
consequence of Secretary Donley's and the Chief of Staff, 
General Schwartz's, decision last fall, I work directly for the 
Chief of Staff now in my responsibilities, on their behalf. 
Their personal leadership drove us to prepare a roadmap that we 
published last fall to set the course, with six principal 
strategic objectives to help the institution focus better and 
achieve the outcomes that we are starting to achieve at this 
time.
    General Carpenter's folks and our other deployed 
commanders, with a lot of very aggressive personal leadership, 
are ensuring the success that we have today. But, we need to 
move forward with the personnel development changes that we 
have underway. We're bringing an additional 2,500 people into 
the nuclear mission over the course of this next year.
    General Chilton has pointed out in previous Defense Science 
Board studies, there has been an erosion of nuclear deterrence 
skills. So, the people component of our effort will continue to 
require the kind of vigilance and focus that we have in motion 
right now, and I believe it will take several more years before 
we feel that we have completely overcome some of the skill 
challenges we have.
    But, we have aggressive inspection programs, we have 100 
percent oversight of all of our inspections. We've changed the 
Air Force corporate structure to have a dedicated nuclear 
operations panel. This is going to ensure a very thorough 
vetting of nuclear-related requirements so that they compete 
well for Air Force resources. Air Force leadership intervention 
has ensured very good resourcing of the nuclear mission at this 
time. So that's a thumbnail of the number of programs that we 
have underway that is fulfilling the Chief and Secretary's 
establishment of reinvigorating the nuclear enterprise as the 
Air Force's number-one priority in the strategic plan.
    Senator Bill Nelson. Part of our labs need to help out the 
intelligence community to support the analysis of foreign 
nuclear capabilities. There's no funding in your budget for 
2010 in the NNSA fiscal year 2010 budget request. Are you going 
to be needing funding for this, coming up in the future?
    Mr. D'Agostino. For intelligence analysis, sir?
    Senator Bill Nelson. For analysis of foreign nuclear 
capabilities and the proliferation challenges.
    Mr. D'Agostino. In a way, the intelligence funding request 
comes through another part of the Department, not through the 
NNSA. But, what I would say, with respect to your question, the 
funding that we do--the same people that do this intelligence 
analysis are the same people that are either experienced 
weapons designers, people that understand the physics behind 
how to understand timers, special detonator devices--these are 
the same people that we start off with in the NNSA. Ultimately, 
as they go through our program, they can shift to other 
divisions in the laboratory. So, Z Division, for example, at 
Lawrence Livermore National Laboratory, funded through the 
intelligence program, essentially contained people that started 
off in my program in the NNSA.
    So, the funding that I have ultimately supports 
intelligence, but in an indirect way, by exercising the 
capabilities, by getting these folks exercised, not only 
experiments, but having this design experiment.
    That essentially goes to the previous questions we talked 
about, is, are we sustainable, in the long term? That is why I 
want to get the science and the infrastructure pieces 
essentially on the right track.
    We've turned it around in this budget. We've shifted $130 
million back into the science area, for this very reason. My 
view is, in the out-years we'll ultimately need more, and that 
will be, ultimately, my job within the administration, to work 
this problem in the out-years.
    Senator Bill Nelson. You're going out to outside financing 
for a number of the buildings that you need. Why wouldn't you 
ask for a government line item?
    Mr. D'Agostino. I'll go. For an example, one of the 
facilities you probably allude to, sir, is our Kansas City 
project. That is a General Services Administration project. 
There are a couple of reasons, but let me focus on one that is 
particularly attractive to me as we look at transforming 
ourselves from a kind of a Cold War nuclear weapons complex 
into a 21st-century nuclear security enterprise, and that is, I 
don't know what the future brings with respect to unclassified 
parts that the Kansas City plan may need to make. We may find, 
as a result of our modernization efforts, that we can reduce 
the number or the complexity of these non-nuclear parts and 
find ourselves much more efficient, 20 years from now, if you 
will, from being able to make those parts at our laboratories.
    There's a certain attractiveness that I find in driving 
efficiency in the program if I have a 20-year lease that is 
approved, of course, appropriately--there's a financial 
payback, in this case, of $100 million a year that has been 
audited, we believe--but being able to say, 20 years from now, 
I'm not building a facility that the Nation does not need way 
out into the future. So, from my standpoint, there's a certain 
attractiveness in being able to say, 20 years from now, turning 
that manufacturing facility back over to the developer, and not 
having to worry about maintaining the structure out on the 
taxpayers' burdens.
    Senator Bill Nelson. Let's talk about Los Alamos and Y-12. 
That's where the problems are. Tell us about that.
    Mr. D'Agostino. Los Alamos has a proposal that I have not 
approved yet. It's a proposal, right now, for a science 
complex. It's a proposal that we agree that we need to get 
people out of trailers at the laboratory. These are our world-
class scientists, and yet, we have them in facilities, frankly, 
that I'd be embarrassed to have any of these folks go into. So 
the laboratory is looking at--and we agree that there's a need, 
but now we're in the process of examining--should it be a 
third-party-financed facility, should it be a line-item 
facility, do the numbers work, does the analysis come through? 
General Harencak, who's with me, who's running defense 
programs--I talked to him this morning, frankly, about, where 
are we on our third-party-financed projects? He's looking at 
this--DOD calls it an alternative analysis. What are our 
options with respect to acquisition? Doing what we need for our 
scientists.
    One thing that's clear to me, though, is, for facilities 
that are--we have to be very careful about employing this 
technique. For one thing, it has to be done judiciously. 
Obviously, it has to make a lot of sense, financially, for the 
taxpayers. Obviously, it can't put us in the position where we 
have to be moving large fences around and having pockets of 
uncleared spaces, because, ultimately, if the country decides 
it doesn't need it anymore, then we turn it back over to the 
developer, and then we have an issue of fencelines and the 
like.
    Senator Bill Nelson. The lease would probably provide that, 
if you can't fill it up with the government activities, that 
they could lease it on their own.
    Mr. D'Agostino. If the government walks away from the 
lease, and each arrangement is, in effect, different. 
Certainly----
    Senator Bill Nelson. But, let me just cut to the chase.
    Theoretically you wouldn't have the space leased; they 
could lease the space. You'd be inside the fence.
    Mr. D'Agostino. Theoretically, if we ended up that way, 
yes, sir. Theoretically, yes, sir.
    Senator Bill Nelson. Okay. You have to watch that.
    Mr. D'Agostino. Yes, sir, absolutely.
    Senator Bill Nelson. We had some very serious problems at 
Air Force bases, on Air Force housing, with the result that, 
inside the fence, at the Air Force base, you could have private 
housing, because the housing could be rented to non-Air Force 
personnel. Now, there's a pecking order that they would have to 
go through, but, theoretically, at the bottom of the pecking 
order, you could have somebody just off the street renting a 
house inside an Air Force base. That's what our present 
condition is. So, we don't want that, especially when you start 
fooling around with facilities in your line of work.
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. The Los Alamos Neutron Science Center, 
an accelerator facility that produces protons for a variety of 
scientific and weapons research, was supposed to have an 
upgrade beginning in fiscal year 2010, but the upgrade was not 
funded. Is this upgrade necessary to maintain nuclear weapons?
    Mr. D'Agostino. Sir, the facility is definitely necessary 
to maintain our stockpile. The upgrade reduces the risk that 
the facility will not--reduces the risk. We want the facility, 
of course, online to support our deterrent out into the future. 
So, the upgrades approach was to take away a fair amount of 
risk associated with the facility going down. You're right, 
sir, first of all, we continue to operate that facility. Second 
of all, you're absolutely right, we need it for neutron cross-
section measurement for doing material science, nuclear 
science.
    Senator Bill Nelson. Okay. So, you're saying you need it. 
So, what happens to the facility without the upgrade?
    Mr. D'Agostino. What happens without the upgrade is 
increased risk associated with operations. It's a fairly old 
facility. It's something that I believe is an important part of 
maintaining a deterrent and maintaining a laboratory, quite 
frankly, that can attract scientists that want to work in 
material science and in nuclear science.
    Senator Bill Nelson. All right. How much will the full 
upgrade cost, and how long will it take?
    Mr. D'Agostino. I'll give you a sense, sir, but I would 
like to take that for the record, if I could.
    There's rough numbers of $150 to $200 million or so, as 
preconceptual design activities, but I don't have the 
particulars. If I could take that for the record, I will 
provide the answer.
    [The information referred to follows:]

    The Los Alamos Neutron Science Center refurbishment project would 
replace major components of the accelerator and accelerator control 
system that are required to maintain reliable operations and extend the 
life, but would not alter the design capability or capacity. The cost 
is currently estimated at $149 million, and the project could be 
completed within a few years of receiving full funding. This estimated 
cost places the project within the oversight guidelines of the 
Department of Energy order for project management. This order requires 
the cost for a project of this size to be validated; therefore, it is 
possible this estimate could fluctuate.

    Senator Bill Nelson. Do you have a guess on how long?
    Mr. D'Agostino. Multiple years. It's not a 2-year activity. 
It's probably 3 to 5 years, sir.
    Senator Bill Nelson. Let me ask each of you, were your top 
five unfunded priorities--if funds were available, what would 
your top five be?
    Admiral Johnson. Sir, I would like to take that question 
for the record, if I may.
    Senator Bill Nelson. Okay. So, you have to counsel up the 
chain of command?
    Admiral Johnson. Yes, sir.
    Senator Bill Nelson. Okay.
    General Alston. Sir, the Air Force would have to do the 
same. We would like to take that for the record.
    [The information referred to follows:]

    Admiral Johnson. The President's budget represents the best balance 
of resources to requirements. The Chief of Naval Operations' top 
unfunded priorities includes SSP's considerations and represents the 
top priorities of the Navy if additional funding should become 
available.
    General Alston. Currently we have identified only one unfunded 
strategic deterrence-related requirement for fiscal year 2010, the B-52 
1760 Data Bus Internal Weapons Bay programs, which is on the unfunded 
requirements list submitted by the Chief of Staff on 18 May 09. The B-
52 1760 Weapons Bay unfunded requirement totals $30.6 million which 
funds modification of the bay to add internal carriage capability for 
smart weapons and overall bomb-load capacity on the B-52. We will 
continue to identify areas requiring additional funding, and develop 
strategies to meet all combatant commanders' requirements.

    Senator Bill Nelson. Do you want to take a stab at it? 
[Laughter.]
    Mr. D'Agostino. I'd like to provide the details for the 
record, but what I would like to iterate--and I can give you 
my--three broad priorities, are----
    Senator Bill Nelson. Modernization?
    Mr. D'Agostino. Yes, sir. Modernization. It's the science 
and the infrastructure that need to do that. But, we'll take 
the question for the record, sir.
    [The information referred to follows:]

    Our top five unfunded priorities, if funds were available, 
would be to: (1) fully satisfy our Directed Stockpile Work 
program of work, including targeted life extensions for the 
weapon systems which support the Navy and Strategic Command 
needs and meet our extended deterrent obligations to our 
allies; (2) protect, replenish, and sustain the science, 
technology, and engineering capabilities required to leverage 
the Nation's significant investment in science-based tools to 
assess the state of the stockpile and certify it's safety, 
security, and reliability; (3) recapitalize our Cold War 
infrastructure so that our special nuclear materials (plutonium 
and uranium) processing capability is assured for the unknown 
future, including actions that will greatly reduce the size of 
the complex and reduce our security costs; (4) begin work on 
specific projects in the Global Threat Reduction Initiative 
that will help achieve some of the goals in the President's 
speech in Prague; and, (5) support International Materials 
Protection and Cooperation activities to reduce special nuclear 
material inventories through down-blending, and initiate 
activities to upgrade security in countries outside of the 
Former Soviet Union.

    Senator Bill Nelson. Okay.
    Thank you all very much. The record will be kept open for 3 
days.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Bill Nelson

                      AIR FORCE NUCLEAR ENTERPRISE

    1. Senator Bill Nelson. General Alston, are there any authorities 
that you need or that your successor will need to fully manage, 
oversee, and coordinate the Air Force nuclear enterprise?
    General Alston. I am confident we have the requisite authorities 
and structure in place to ensure enduring stewardship, manage, oversee, 
and coordinate the Air Force nuclear enterprise. The establishment of 
AF/A10 sends a clear and visible signal that the Air Force is committed 
to resolving the fragmented lines of authority across all levels of the 
nuclear enterprise and provides a headquarters Assistant Chief of Staff 
that reports directly to the Chief of Staff with authority to drive 
nuclear enterprise policy, guidance, requirements, and advocacy across 
the Air Staff. I am the single Air Staff authority for all nuclear-
related issues and have lead responsibility for nuclear operations, 
plans, policy, and requirements.

                              INSPECTIONS

    2. Senator Bill Nelson. General Alston and Admiral Johnson, the 
Defense Threat Reduction Agency (DTRA) also has a role in conducting 
inspections at nuclear facilities. How are the DTRA inspections 
coordinated with the service inspections, what do the DTRA inspections 
cover that the service inspections do not, and what is the benefit from 
each type?
    General Alston. DTRA inspects Air Force nuclear certified units in 
accordance with T.O. 11N-25-1, Department of Defense (DOD) Nuclear 
Weapons Technical Inspection System. These inspections are coordinated 
with the Air Force Inspection Agency (AFIA) and the appropriate nuclear 
major command. DTRA inspections encompass those criteria established in 
T.O. 11N-25-1. The Air Force inspects using the same guidance, as well 
as that contained in AFI 90-201, Inspector General Activities, and 
major command specific supplemental guidance. Additionally, AFIA 
conducts independent oversight of Air Force nuclear surety inspections. 
DTRA inspections allow for an independent assessment, validation, and/
or oversight of DOD nuclear weapon surety for the Chairman, Joint 
Chiefs of Staff. Air Force inspections, in line with their supplemental 
guidance, validate mission readiness as well as nuclear weapon surety 
for the major command commander and the Secretary of the Air Force.
    Admiral Johnson. There are two types of DTRA inspections associated 
with Navy nuclear weapons certified units. A Defense Nuclear Surety 
Inspection (DNSI) is conducted on a not-to-exceed 5-year basis for each 
certified unit. DTRA is also tasked to conduct Surveillance Inspections 
(SI) that involve DTRA inspection team members providing an over-the-
shoulder assessment of the Navy's inspection team performance during a 
scheduled service Navy Technical Proficiency Inspection (NTPI).
    DTRA inspections of Navy nuclear weapons units are coordinated 
annually through direct liaison with the organizations responsible for 
Navy inspections. DTRA coordinates inspection scheduling of Navy afloat 
units with the type commanders for submarine inspections and with SSP 
for Strategic Weapons Facility inspections.
    DTRA inspections evaluate the 10 areas directed by the Joint Staff 
(JS) approved Special Weapons Ordnance Publication 25-1 which includes 
Management and Administration; Technical Operations; Tool, Test, 
Tiedown, and Handling Equipment; Condition of Stockpile; Storage and 
Maintenance Facilities; Security, Safety, Supply Support; Nuclear 
Weapon Personnel Reliability Program; and Logistics Movement. A NTPI 
covers an additional four areas which include Nuclear Weapons 
Radiological Controls; Radiation Health; Command and Control; and 
Nuclear Weapons Accident/Incident procedures.
    The benefit of DNSI is subjective and has been called into question 
by recent DOD level reports: Defense Science Board Report of Nuclear 
Surety Inspections, Schlesinger Commission Report, and others.

    3. Senator Bill Nelson. General Alston and Admiral Johnson, do you 
see any use in joint Air Force-Navy inspections? Would joint 
inspections address, among things, the shortage of skilled inspectors?
    General Alston. The Air Force fully supports the current joint 
inspection process performed by DTRA. Any new joint inspection 
requirement for Air Force personnel would have limited applicability 
due to Service-specific mission requirements and weapon systems.
    Admiral Johnson. Joint inspections occur today in the form of DTAR 
DNSI.
    Variations exist in technical operations and weapons system 
facility design between Air Force and Navy. A more consistent Office of 
Secretary of Defense (OSD)/Navy/Air Force criteria for inspection will 
better support a more streamlined DNSI process in the future.

                   BOMBERS AND GLOBAL STRIKE COMMAND

    4. Senator Bill Nelson. General Alston and General Carpenter, the 
new Global Strike Command, which will stand up at the end of the year, 
will eventually have responsibility for the B-52 and B-2 aircraft. It 
will not have responsibility for the B-1 aircraft. While I understand 
that the B-1 is no longer nuclear capable, on many occasions we have 
been told that the new Global Strike Command is not a reincarnation of 
the old Strategic Air Command and is not ``nuclear command''. In any 
event, the majority of the B-1, B-2, and B-52 sorties is, and will 
continue to be, conventional. I would like to get your personal and 
professional views on whether the B-1 should or should not be part of 
the new command and why?
    General Alston and General Carpenter. The Air Force is reversing 
the trend of declining nuclear mission focus and erosion of nuclear 
expertise. One of the root causes of this trend was fragmented lines of 
authority and responsibility of our nuclear forces. Global Strike 
Command was created to align all nuclear forces under a single command 
and demonstrate full commitment to the global strike mission.
    While our primary focus is on reinvigorating the nuclear 
enterprise, we do realize there is a vital conventional mission for our 
B-52s and B-2s that must not be compromised. The B-1 is currently being 
used as a combat support aircraft in today's operations, and related 
organize, train, and equip responsibilities will be retained by Air 
Combat Command. Additionally, Global Strike Command will provide the 
necessary leadership and focus to effectively balance the nuclear and 
conventional missions of the B-2s and B-52s to ensure they are ready to 
support the warfighter when called upon by combatant commanders.

                   LOS ALAMOS NEUTRON SCIENCE CENTER

    5. Senator Bill Nelson. Mr. D'Agostino, the Los Alamos Neutron 
Science Center (LANSCE), an accelerator facility that produces protons 
for a variety of scientific and weapons research, was supposed to have 
an upgrade beginning in fiscal year 2010, but the upgrade was not 
funded. Is the LANSCE upgrade necessary to maintain nuclear weapons?
    Mr. D'Agostino. The LANSCE facility is currently used to conduct 
experiments to answer specific stockpile-relevant questions, the 
answers to which are required to improve the science-based tools which 
allow certification of the nuclear weapons stockpile without resorting 
to underground nuclear testing. Those experiments include precision 
measurements of nuclear data on special materials important to nuclear 
weapons performance, classified experiments, and experiments utilizing 
high explosives and proton radiography. The weapons program requires 
data from LANSCE. The loss of the data from LANSCE would seriously 
affect our ability to improve our stockpile stewardship tools and 
therefore our capability to maintain the stockpile without testing. 
Unfortunately, the LANSCE accelerator facility has not received 
adequate preventive maintenance for years. Many of its components are 
long past their expected lifetimes and spares are in short supply. In 
the opinion of experts, the accelerator is ``running to failure.'' The 
failure of any one of the major components could result in a loss of 
continued operation of the facility for an extended period. The 
probability of a failure grows each year without refurbishment; yet 
other funding priorities within funding constraints have required that 
the National Nuclear Security Administration (NNSA) continues to absorb 
this risk. It was a Presidential initiative to cancel the original 
LANSCE refurbishment partly because we acknowledged that cheaper 
approaches to ameliorate these problems were available. These are now 
under consideration.

    6. Senator Bill Nelson. Mr. D'Agostino, what happens to the LANSCE 
facility without the upgrade?
    Mr. D'Agostino. It isn't really possible to know how long the 
accelerator will be able to operate without refurbishment. All of the 
individual components are in principle repairable indefinitely, but in 
practice, we expect that the reliability of the facility will continue 
to decay without further investment. Without the refurbishment, we are 
accepting increased risk of major component failures affecting 
continued operations and increasingly large downtime.

    7. Senator Bill Nelson. Mr. D'Agostino, how much would the full 
upgrade cost and how long would it take to complete?
    Mr. D'Agostino. The LANSCE refurbishment project would replace 
major components of the accelerator and accelerator control system that 
are required to maintain reliabe operations and extend the life, but 
would not alter the design capability or capacity. The cost is 
currently estimated at about $150 million, and the project could be 
completed within a few years of receiving full funding. This estimated 
cost places the project within the oversight guidelines of the 
Department of Energy order for project management. This order requires 
the cost for a project of this size to be validated; therefore, it is 
possible this estimate could fluctuate.

        NATIONAL NUCLEAR SECURITY ADMINISTRATION REORGANIZATION

    8. Senator Bill Nelson. Mr. D'Agostino, the Strategic Posture 
Commission made several recommendations with respect to the 
organization of the NNSA. One in particular was focused on the 
regulatory environment. It appears that there might have been some 
confusion on the part of the Commission with respect to the role of the 
Defense Nuclear Facilities Safety Board (DNFSB), which is not a 
regulatory body, when they suggested that the nuclear weapons complex 
be regulated by the Nuclear Regulatory Commission (NRC) rather than the 
DNFSB. Have you looked at the cost and the impact of having the nuclear 
weapons complex regulated by the NRC in lieu of the self-regulation 
that is in place today?
    Mr. D'Agostino. The NNSA has considered the impact of having the 
weapons complex regulated by the NRC in lieu of self regulation. We 
have not evaluated the cost impact of NRC regulation as opposed to 
self-regulation; however, there are several reasons that continued 
self-regulation is advisable.
    The first is that self-regulation has demonstrated an enviable 
nuclear safety record. Although the Commission was critical of our 
treatment of requirements, it did not question the safety of our 
operations.
    The second is that self-regulation permits the operational 
flexibility we need with respect to nuclear safety requirements to 
ensure we meet our mission. Following recommendations from the Colombia 
Accident Investigation and those of the DNFSB, we have established a 
Central Technical Authority and associated safety infrastructure to 
evaluate and concur on requests for relief from nuclear safety 
requirements where appropriate. Since September 2005, we have received 
and evaluated 20 requests for related exemptions. Only two were 
ultimately denied. Our streamlined evaluation process allows a quick 
turnaround where warranted, and exemptions have been concurred on in 
less than a day from receipt. Such responsiveness would not be possible 
with external regulation. Our demonstrated ability to grant relief 
where warranted provides effective control over the requirements under 
which we operate.
    Finally, external regulation would not relieve NNSA from the need 
to oversee nuclear safety. Most of our nuclear facilities are unique 
and provide products and services that are vital to our mission and 
that cannot be obtained elsewhere. In addition to possible damage to 
personnel, public, and the environment, a serious accident in one of 
our facilities would result in a loss of capability that would 
jeopardize our mission. If a public power utility has an accident, 
power can be obtained at a higher cost from other utilities. The same 
is not true for our operations. If our plutonium facility (for example) 
shuts down there is no replacement for the lost services and our 
mission is crippled. The same is true of most of our facilities. Thus, 
from a business perspective, our mission responsibilities require us to 
ensure that our nuclear facilities are operated safely. External 
regulation would result in more oversight, not less. These and similar 
considerations have led us to conclude that it is best if NNSA 
continues to self-regulate.

                          TRIDENT D-5 MISSILES

    9. Senator Bill Nelson. Admiral Johnson, the Navy is moving towards 
more fixed-price type contracts to purchase the D-5 ballistic missile, 
which is used on the Trident ballistic missile submarine. In making 
this transition what are the issues that concern you most?
    Admiral Johnson. SSP recognizes the potential value of using fixed-
price type contracts for mature production efforts and has committed to 
transition to the use of such contracts beginning in fiscal year 2011, 
where appropriate. As we make this transition there are several issues 
that concern us.
    First, there is a concern that the contractor may be motivated to 
make cost, performance, and safety tradeoffs that might not be in the 
best interest of the program or the Nation. Through the years, SSP has 
developed and implemented an acquisition strategy that maintains a 
primary focus on safety and reliability, while managing cost risk at or 
below budget. Because of the strategic importance of the system, any 
deviation from this successful acquisition strategy could engender 
unintended consequences that could impact the safety and reliability of 
the weapon. SSP will closely monitor contractor performance to ensure 
we maintain the optimal balance between contractor assumption of 
significant cost risk and managing an acceptable level of technical 
risk.
    Our second concern is maintaining the affordability of the system. 
While Trident II (D5) is a mature production program, the nature of the 
technical requirements leads to a program that still contains 
significant risk. The technical requirements of the D5 missile are 
unique in many respects. The volume limitation of the launch tubes 
combined with the stringent range performance requirements dictate the 
need for high energy class 1.1 propellants in the rocket motors. This 
technology is unique to the Submarine Launched Ballistic Missile (SLBM) 
systems, and is not otherwise supported by other DOD or commercial 
(space) applications. A similar situation exists for the Trident Post 
Boost Control System components. Driven by the requirement for a 
Multiple Independently Targeted Re-entry Vehicle capability and the 
submarine safety requirements of using solid propellants, the designs, 
materials, and processes are unique to the SLBM system and are not 
supported by other government or commercial applications. Additionally, 
the electronics designs are driven by the need for radiation hardened 
components capable of performing in hostile environments. These unique 
requirements combined with very low production rates driven by budget 
constraints result in an increasingly fragile supplier base which 
requires constant management and oversight by the prime contractors to 
ensure a continuous supply of safe, reliable components. The ever 
present potential for complex, expensive efforts to requalify 
substitutes for legacy technologies and loss of suppliers represents 
significant cost risk along with the attendant technical risk which, in 
a fixed-price environment, would inevitably result in higher prime 
contractor cost proposals.
    Finally, we are concerned about the potential degradation of the 
open communication between SSP and its prime contractors. The success 
of the Trident program is due in no small measure to the cooperative 
government/contractor partnership developed over the past 50 years. 
When potential problems are identified they are discussed openly and 
solutions are developed through a collaborative effort. In a fixed-
price environment, our contractors may be more motivated to 
unilaterally increase technical risk in an effort to save costs. This 
incremental increase in program risk may not be immediately apparent, 
but could lead to a cumulative unacceptable level of risk in the 
program.

                    HELICOPTERS FOR THE ICBM FIELDS

    10. Senator Bill Nelson. General Alston, for years the Air Force 
has been searching for replacement helicopters for use in the ICBM 
fields. In your prepared statement you are introducing a program to 
replace the old, Vietnam-era helicopters. What is the new program and 
what is the fiscal year 2010 funding?
    General Alston. The Common Vertical Lift Support Platform (CVLSP) 
program will replace the existing 39 year old UH-1N helicopter fleet. 
CVLSP will provide vertical lift support for a number of missions 
including: Intercontinental Ballistic Missile (ICBM) nuclear weapon 
convoy escort, ICBM emergency security response, and National Capitol 
Region emergency response support. The UH-1N has deficiencies in 
carrying capacity, speed, range, endurance, and survivability for 
meeting mission requirements.
    The fiscal year 2010 budget requests $9.5 million of RDT&E for the 
CVLSP program. This funding supports development of statutory and 
regulatory acquisition documentation along with activities to support a 
request for proposal and source selection.

                     MISSILE AND COMPONENT TESTING

    11. Senator Bill Nelson. Mr. D'Agostino, General Alston, and 
Admiral Johnson, the Services and NNSA work together to establish and 
conduct a minimum number of missile and component tests to ensure 
reliability. Most years there are not enough tests to meet the minimum 
standards. What is the minimum number of tests, including the number of 
joint test assemblies (JTAs), that are needed in fiscal year 2010 and 
are all of these tests funded? If not, why not?
    Mr. D'Agostino. Each weapon system has a testing plan that will 
feed the reliability model so a proper reliability assessment can be 
made. The number and type of tests for each weapon system varies every 
year based upon trends that are discovered and data gaps from previous 
years. NNSA accomplishes system, component, material, margin, aging, 
and flight tests as well as performing modeling and simulation 
programs. Joint flight testing with the DOD has the highest priority 
within the surveillance and assessment program. There are currently 19 
joint flight tests planned for fiscal year 2010. All are fully funded. 
While additional laboratory tests would certainly enhance our 
confidence in the stockpile, NNSA must also prioritize this testing and 
assessment work against all of the other NNSA workload to maximize the 
benefit of the budget allocation.
    General Alston. Reliability testing involves both the delivery 
system and the warhead or bomb. DOD's portion of weapon system 
reliability is computed using the delivery system reliability combined 
with the weapon's or bomb's reliability. Warhead and bomb reliability 
testing requirements are NNSA's responsibility, with the number of 
associated JTAs determined in consultation with the Services.
    A minimum of four ICBM tests, all using JTAs, are required to 
determine weapon system reliability. The Air Force conducts 
approximately one test every 4 months, resulting in a 16-month cycle to 
determine weapon system reliability. This frequency meets the minimum 
requirement for nuclear weapons planning activities.
    A minimum of eight gravity weapon tests per year (five strategic 
and three non-strategic), all using JTAs, are required to determine 
reliability.
    A minimum of eight Air Launched Cruise Missile tests per year, 
three using JTAs, are required to determine reliability.
    In total, the Air Force has 19 fully funded reliability tests 
scheduled in fiscal year 2010, 14 of which will also contribute to 
warhead reliability testing, requiring NNSA support with JTAs.
    Admiral Johnson. Reliability is determined by a combination of 
flight test and ground test activities. The Navy performs four Trident 
II Follow-on Commander Evaluation Tests to validate that the weapons 
system continues its demonstrated performance in terms of reliability 
and accuracy as required by U.S. Strategic Command Instruction 526-1. 
Within the Navy flight test program, we fly four test heads (three NNSA 
JTAs and one Navy Enhanced Navy Test Bed) per weapon type to maintain 
reliability of Navy/NNSA components. These flight tests and hardware 
are funded in the President's budget request. The Navy requirement for 
ground test evaluation is 11 warheads per year to be disassembled, 
tested, and 10 reassembled into war reserve units. The Navy portion of 
the cost of this testing is in the President's budget, the NNSA portion 
should be in the NNSA budget.

                                  B-2

    12. Senator Bill Nelson. General Carpenter, the B-2 budget request 
for fiscal year 2010 includes $16.8 million to integrate the Massive 
Ordnance Penetrator (MOP) on the B-2. Has DTRA completed the MOP 
development program?
    General Carpenter. No, the DTRA technology demonstration is 
scheduled to complete in calendar year 2009. The MOP is being developed 
in three phases. Phase I (Concept Refinement) and Phase II (Design and 
Preliminary Testing) have been successfully completed. Phase III, 
Weapon Performance Demonstration, is underway and will culminate with 
MOP research and development flight tests from a B-52 aircraft.
    B-2 integration efforts are occurring concurrently with the DTRA 
effort and will culminate with final hardware buildup and testing 
during the Air Force program.

    13. Senator Bill Nelson. General Carpenter, what is the capability 
and purpose of the MOP and why is it being integrated on the B-2?
    General Carpenter. MOP will provide the B-2 with a capability to 
defeat very hard and deeply buried targets such as deep bunkers and 
tunnel facilities. MOP is designed to improve weapon survivability, 
lethality, and penetration compared to existing Air Force penetrator 
weapons.
    The purpose of MOP technology demonstration program is to 
demonstrate the survivability, lethality, and penetration of a 30,000-
lb. class penetrator weapon. The purpose of the MOP Quick Reaction 
Program is to deliver an improved Hard and Deeply Buried Target (HDBT) 
defeat capability beyond the Air Force's current (2,000-lb. and 5,000-
lb. class) penetrator weapons.
    MOP is being integrated on the B-2 to provide a capability to 
defeat high value assets in HDBTs in a high threat environment.

    14. Senator Bill Nelson. General Carpenter, what is the requirement 
that the MOP is satisfying?
    General Carpenter. MOP requirement is captured in the following 
Joint Requirements Oversight Council validated documents: HDBT-Defeat 
Mission Area Initial Capabilities Document (ICD) dated January 20, 
2005; and in HDBT Characterize, Engage and Assess ICD dated September 
19, 2005. Those documents specify a requirement for improved HDBT 
defeat capability beyond the Air Force's current (2,000-lb. and 5,000-
lb. class) penetrator weapons. Additionally, the 2006 HDBT Analysis of 
Alternatives Weapons Effectiveness Study found that MOP provides 
greatly improved HDBT defeat capability and the 2007 Air Force 
Capabilities Review and Risk Assessment highlighted the need for HDBT 
defeat capability. Most recently, the Air Force received an Urgent 
Operational Need (UON) request for a HDBT capability. The UON has been 
endorsed by multiple COCOMs.

                            FUTURE CONCEPTS

    15. Senator Bill Nelson. Mr. D'Agostino, General Alston, and 
Admiral Johnson, in thinking about the future of the life extension 
programs for nuclear weapons in a smaller stockpile without testing, 
there may be opportunities to fundamentally improve the safety, 
security, and reliability of the weapons. This could include having a 
complete inventory of weapons with fire-resistant pits, insensitive 
high explosives, and other safety and security features. To do this 
could require replacing or rebuilding the pit or the secondary and 
other components of a weapon or slightly reducing the yield of the 
weapon. Have there been discussions about this type of approach for the 
future?
    Mr. D'Agostino. Yes, NNSA is working closely with DOD to study 
opportunities for life extension programs (LEPs) that would increase 
surety (safety, security, anti-use control) and reliability in the 
nuclear weapons stockpile. Within the context of the joint NNSA-DOD 
Phase 6.x acquisition process, NNSA iterates the military requirements 
with the DOD and conducts design and trade studies. These studies 
examine trade-offs between improvements in surety and potential 
reductions in performance (yield), as well as other impacts to both DOD 
and NNSA. The amount of rework required to improve weapon surety varies 
between weapon system and detailed assessments already required to 
understand the trade space. The optimal technical approach for the 
future involves modernizing the stockpile by selecting from among the 
spectrum of options described in the Perry/Schlesinger Congressional 
Posture Review Report. Success in improving the safety, security, and 
reliability of the nuclear weapon stockpile will require all of the 
tools developed in the stockpile stewardship program and support for 
the Nation's nuclear weapons enterprise. The affordability of making 
such improvements in safety and surety must ultimately be considered in 
relation to other priorities. Such investment decisions should be made 
on the best available analysis as derived from the planned studies.
    For example, the current B61 LEP Phase 6.2 (Feasibility Study and 
Option Down-Select) was initiated by the Nuclear Weapons Council in 
September 2008, and is conducting an assessment to determine 
requirements and options for improving safety, security, use control, 
and reliability. This study is examining the amount of pit and 
secondary work that would accompany certain proposed surety 
enhancements. Although the B61 is an insensitive high explosive (IHE) 
weapon, and contains some of the most advanced surety features in the 
stockpile, additional features are being considered to address current 
and postulated future threats. Other weapons could require even more 
extensive nuclear explosive package (NEP) modifications to update their 
surety features, to include, for instance, replacing conventional high 
explosive with IHE. LEPs would require more extensive NEP rework, which 
would be assessed during the study phase and in conjunction with DOD. 
Preliminary discussions on such improvements to the W78 ICBM warhead 
are already underway with the Air Force, prior to entering its LEP 
study phase.
    Accomplishing these improvements to the safety, security, and 
reliability of the stockpile without nuclear testing is understandably 
challenging and will integrate all of the tools developed under the 
stockpile stewardship to ensure success. In addition, understanding the 
overall enterprise capacity for design and production drives the time 
to achieve a stockpile with modern safety and security features. 
Optimizing the order and priority of weapons is an ongoing conversation 
between the NNSA and DOD communities and requires all participants for 
success. However, a modernized stockpile with improved safety, 
security, and reliability is achievable and should be actively pursued.
    General Alston. Yes. The Air Force has established long-term goals 
with NNSA to incorporate enhanced surety features (safety, security, 
and use-control features) and reliability in life extension programs. 
Additional considerations include reduced maintenance workload, 
complexity, and cost. The use of alternative pits and major components, 
along with the possibility of reduced yield (which may be offset by 
increased accuracy) or other performance trade-offs would also be 
factors in planning for the long-term viability and reliability of the 
future nuclear deterrent stockpile, consistent with congressional 
direction and support.
    Admiral Johnson. The Navy, in coordination with NNSA through the 
Project Officers Group, is evaluating options for maintaining the 
Navy's nuclear deterrent that include improving weapon safety, 
security, and reliability. For example, in coordination with the NNSA, 
the Navy, Air Force, and United Kingdom are working on a joint fuze 
effort to leverage technologies across Services. In addition, the Navy 
is coordinating with NNSA to look at safety and security technology 
applications in the planning and development of current and future 
Submarine Launched Ballistic Missile (SLBM) weapons.

                     COMPREHENSIVE TEST BAN TREATY

    16. Senator Bill Nelson. Mr. D'Agostino, the United States has 
maintained nuclear weapons for 17 years without explosive nuclear 
weapons testing. As one lab director recently said, ``we know how to do 
this.'' On the other hand, there are many experimental and 
computational tools, and skilled people needed to do this task. What is 
needed in the way of tools, people, and funding to continue to maintain 
the stockpile over the next 5 to 10 years without nuclear testing, and 
does the fiscal year 2010 budget support this? If not, why not, and 
what is missing or not funded?
    Mr. D'Agostino. The Stockpile Stewardship program has invested in 
improved experimental and simulation capabilities--e.g., Dual-axis 
Hydrodynamic Radiographic Test (DAHRT) facility, National Ignition 
Facility (NIF), and Advanced Simulatilon and Computing (ASC) tools--as 
key elements of a comprehensive science-based approach to the nuclear 
mission. Employing these capabilities is essential to deliver the 
robust, scientific underpinning needed to maintain the legacy stockpile 
over the coming decade. Additional resources would enable us to 
recapitalize major production facilities and enhance the science and 
engineering and Directed Stockpile Work needed to transform the 
stockpile to a smaller, more reliable deterrent without Underground 
Tests (UGTs). We incur more risk each year as the stockpile ages, 
critical skills erode, and historic UGT data becomes less relevant. The 
recent Perry Schlesinger Report indicates that in order to keep a vital 
skills base we will need to evolve the legacy stockpile by 
demonstrating capability to field modern warheads that have no new 
military capabilities. We have not fielded a modern warhead in two 
decades, and critical skills are deteriorating. Activities are needed 
now to ensure experienced designers and engineers can mentor a new 
generation. Additionally, the growing dependence on scientific 
understanding for the future stockpile will require additional experts 
in theory, experiments, and simulation.
    Each year the NNSA evaluates its ability to accomplish its mission 
and prioritizes its work scope within available resources across a 5-
year horizon. Our fiscal year 2010 request is sufficient to assure the 
safety and reliability of the current stockpile and sustain critical 
skills as we wait for the Nuclear Posture Review (NPR) to conclude and 
the national level direction to be provided for the future stockpile.
    We anticipate that identified funding levels for the out-years may 
not be sufficient to meet the post-NPR stockpile requirements--
including directed stockpile work, science-based stewardship, and 
recapitalization of NNSA's aging plutonium and highly-enriched uranium 
facilities--along with the requisite skills to be successful.

                  MAINTAINING CRITICAL SKILLS AT NNSA

    17. Senator Bill Nelson. Mr. D'Agostino, maintaining critical 
skills throughout the NNSA complex is necessary to maintain a smaller 
stockpile in absence of nuclear weapons testing. This is not a new 
revelation but the Strategic Posture Commission (the Perry-Schlesinger 
Commission) has raised this issue again as one of their highest 
priority issues. What specifically is the NNSA plan to maintain these 
skills and transfer them to a next generation?
    Mr. D'Agostino. I am committed that the talents and facilities of 
the NNSA can and should be brought to bear on science and technology 
for the full complement of national security challenges. I am working 
to broaden the NNSA mission to become a science and technology arm for 
national security issues, a resource to which other agencies with 
national security responsibilities turn. By taking on the additional 
challenge of national security science and technology, we can provide 
the next generation of graduate students in science and engineering 
with exciting and relevant scientific challenges at premier research 
facilities such as Lawrence Livermore, Los Alamos, and Sandia National 
Laboratories, so that they may contribute to the security of our 
Nation.
    In the absence of nuclear testing, the mission of the Defense 
Programs laboratories is focused on Science-Based Stockpile 
Stewardship. The success depends on the ability to show that 
simulations can credibly be used to replace nuclear testing as a means 
of ensuring stockpile confidence. Universities recognize the challenge 
in developing new kinds of simulation tools across a number of related 
disciplines to accomplish this mission.
    Multitude of university collaboration programs are being conducted 
by NNSA that include establishing focused center of excellence at 
universities performing leading-edge research to graduate and 
undergraduate internships and summer institutes in various disciplines 
at the laboratories. In addition, NNSA funds fellowships, Research 
Centers of Excellence, Minority Serving Institution partnerships, post-
doctoral appointments, and critical skills development programs. These 
activities not only engage academic communities in advanced research in 
areas of critical importance to NNSA but also maintain hiring pipelines 
from university graduates to the national laboratories. NNSA's 
investment in key critical skills pipeline programs exceeds $74 million 
annually.
    NNSA also offers unique capabilities and facilities such as the 
Roadrunner, the world's fastest computer; National Ignition Facility, 
the most powerful laser in the world; the Microsystems Engineering 
Science Applications facility, a premier micro-electronics facility; 
and the LANSCE, doing research that helps maintain the Nation's nuclear 
deterrent, counter the spread of weapons of mass destruction, and lay 
the foundation for many of the products we use in our daily lives by 
supporting materials, sciences, and technology. These are but a few of 
the capabilities and facilities that attract university researchers and 
in turn, universities develop cutting-edge simulation tools, 
experimental methods, et cetera that are critical to NNSA's mission. 
Specific examples of collaboration include the Advanced Simulation and 
Computing (ASC) Program's 10-year $220 million Academic Strategic 
Alliance Program (ASAP) (1997-2007) and the followup, 5-year $87 
million Predictive Science Academic Alliance Program (PSAAP) (2008-
2013); and the Science Campaign's Stockpile Stewardship Academic 
Alliances Program (SSAA). These programs engage multiple universities 
in the country and research conducted through these partnerships 
contributes to the knowledge base required to demonstrate the 
capabilities of predictive modeling and simulation across a broad 
spectrum of science and engineering applications using some of the most 
powerful computers in the world. The ASAP, PSAAP, and SSAA encourage 
collaboration between the national laboratories and universities in the 
advancement of multi-disciplinary predictive modeling and simulation 
technologies, and educating and recruiting individuals with skills 
critical to the Stockpile Stewardship Program.

                   STOCKPILE REDUCTIONS-STOCKPILE MIX

    18. Senator Bill Nelson. Mr. D'Agostino, with the possibility of a 
smaller stockpile there is the possibility that there will be fewer 
types of nuclear weapons in the future. In preparation for the NPR, is 
NNSA looking at the technical feasibility of reducing the total number 
of weapons types and how technically feasible it is to reduce the 
number of redundant warheads? For example would it be possible to have 
an ICBM warhead serve as a backup for an SLBM warhead?
    Mr. D'Agostino. NNSA's Defense Programs is a force provider to the 
DOD and does not establish the mix of weapons or the stockpile 
quantities needed to support the mission. As an active participant in 
the DOD-led NPR, NNSA is assisting DOD in assessing the nuclear weapons 
stockpile needs of the future. NNSA will be supporting DOD in the 
process to define options for force size and mix of weapons in the 
future stockpile. Currently, the operational environments of ICBMs and 
SLBMs differ significantly and no current warhead meets the 
requirements of both. The DOD would be the appropriate agency to 
determine if warfighting needs for such things as military targeting, 
weapon effects against targets, and military characteristics such as 
reliability and survivability could be met by having an ICBM warhead 
serve as a backup for an SLBM warhead.

    19. Senator Bill Nelson. Mr. D'Agostino, would the overall 
stockpile be easier to maintain if there were fewer types of nuclear 
weapons, and if so, why?
    Mr. D'Agostino. While ``easier'' is subjective, there are 
sustainment advantages to having fewer types of nuclear weapons. Fewer 
warhead types would reduce the variety of surveillance and maintenance 
activities. Furthermore, it would reduce the number of life extension 
programs. Over the long-term, it would also reduce the diversity of 
weapons capabilities and expertise needed across the Nuclear Security 
Enterprise. Once the entire inventory of a particular weapon type is 
retired, NNSA could eliminate recurring activities and funding needed 
to support such efforts as maintenance, core surveillance, assessment, 
and other design and production support; however, NNSA will need 
continued funding for associated weapons experts, safety, surveillance, 
and dismantlement and disposition of weapon components until all 
activities associated with the retired weapon type are complete.
    There are counterpoints to these advantages. Fewer weapons types 
will reduce the capabilities provided to the DOD. The DOD would have to 
respond regarding the impact this reduction of capability would have on 
mission effectiveness. For the NNSA, even though there are potential 
cost avoidances by reducing nuclear weapon types in the stockpile, 
there are also potential investments needed. For example, having 
multiple nuclear weapon types available for each weapon system in the 
triad does provide confidence that one technical failure will not 
completely negate one leg of the triad. By eliminating redundancy, the 
confidence in the reliability of each remaining system will be much 
more critical. Modernization of the stockpile and an even greater 
reliance on surveillance and the tools of Stockpile Stewardship will be 
essential to provide credibility of deterrence.

                       COMPUTATIONAL CAPABILITIES

    20. Senator Bill Nelson. Mr. D'Agostino, the computational 
capabilities of all the labs have proved to be the real game changer 
for maintaining nuclear weapons in the absence of nuclear testing. As 
you move from two-dimensional modeling to three-dimensional modeling, 
is NNSA able to fund fully the code development and hardware needs of 
the stockpile stewardship program?
    Mr. D'Agostino. The NNSA Advanced Simulation and Computing (ASC) 
Program and DOE Office of Science's Advanced Scientific Computing 
Research have recently established a long-term collaboration and have 
charged a steering committee of laboratory technical experts to 
identify the impediments to exascale and strategies for overcoming 
them. Once the steering committee's analysis is properly vetted, we 
will understand the schedule and resources required to achieve exascale 
computing and move our trusted codes to this next generation of 
computing.
    One of the greatest successes of the ASC program has been the 
successful addition of three-dimensional capability in the codes and 
the corresponding computer power to run highly resolved, three-
dimensional calculations. So while many of the day-to-day calculations 
run in two dimensions for practical computing purposes, three-
dimensional capability also exists to explore detailed weapons 
characteristics and explore scientific phenomena. Because of the grand 
challenge nature of the modeling and simulation in ASC, this will 
continue to be a balancing act for code development and hardware--as 
well as other aspects of the program.
    For the near future, the ASC program is working to maintain 
expertise, utilize peer-review, and sustain healthy code teams to 
improve the scientific underpinnings of the codes and meet the 
simulation needs of the SSP for key applications. This will be 
supported by the Roadrunner, Zia, and Sequoia platforms slated to run 
these simulations.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                         NEXT GENERATION BOMBER

    21. Senator Vitter. General Alston, 20 B-2s are the only long-range 
strike assets in the Air Force inventory that can access high threat 
environments and survive. These aircrafts have not been in production 
since 1997 and so there are no viable replacements to backfill losses. 
When a B-2 crashed in Guam in 2007, the Air Force lost 5 percent of its 
stealthy long-range strike fleet. The B-52 and B-1 have been upgraded 
numerous times to take advantage of new technology such as precision 
strike, global positioning systems, and targeting pods. However, 
stealth can never be incorporated into these aircrafts and they could 
remain vulnerable to attacks by surface-to-air missiles and fighters.
    It is important to remember that in the final days of Vietnam, the 
Air Force lost 15 B-52s in 12 days during Operation Linebacker II. Air 
defenses have advanced markedly since then, but 47 percent of the long-
range strike fleet is comprised of these same B-52s. While aircrafts 
such as the F-22 are certainly useful in certain scenarios, tactical 
strike assets require access to regional bases and forward deployed 
logistical support.
    As recent events at Manas Air Base in Kyrgyzstan and K2 in 
Uzbekistan have illustrated, access to regional operating bases is 
becoming increasingly tenuous. Furthermore, potential adversaries have 
anti-access and area denial capabilities that could severely curtail 
operations at these forward bases. Taking all of this into 
consideration, what were the original Air Force recommendations in the 
Future Years Defense Program (FYDP) for the Next Generation Bomber?
    General Alston. The Air Force manages Long Range Strike (LRS) 
capability through execution of its three-phase strategy: sustain and 
modernize the legacy bomber fleet, develop a mid-term LRS capability 
survivable in a high threat environment, and create a long-term 
solution using advanced technologies to generate revolutionary LRS 
capabilities. The existing bomber fleet, while aging, uses focused 
sustainment and modernization programs to maintain mission relevance, 
addressing issues with communications, navigation, electronic attack, 
and weapons delivery systems, as well as for integrating new weapons 
onto the B-52. While these aircraft do face survivability concerns 
against advanced air defenses, this can be mitigated by using 
complementary capabilities, such as standoff weapons. To address this, 
the Air Force has funded in fiscal year 2010 an Analysis of 
Alternatives (AOA) for a Long Range Standoff follow-on capability that 
will mitigate the high threat scenarios. America's bombers retain 
superior direct attack capability in lower threat environments. These 
continuing Air Force efforts ensure the bomber fleet continues to be a 
responsive, flexible, adaptive, and lethal platform able to support the 
Nation's LRS requirements.
    Concerning the Next Generation Bomber (NGB), as part of its second 
phase, the Air Force was actively pursuing LRS capability to meet 
emerging operational requirements. One specific initiative within this 
effort, completed in 2007, was an AOA that identified the most 
promising of many possible aircraft designs. In April 2009, OSD 
cancelled the NGB program with Secretary Gates citing the need to 
better define the need, requirement, and technology required for this 
complex program. As a next step, the Air Force is fully committed to 
supporting and participating in the ongoing 2009 Quadrennial Defense 
Review (QDR) and accompanying NPR. After completion of the reviews, the 
Air Force will reevaluate its LRS strategy based on direction and 
findings from the reviews.

    22. Senator Vitter. General Alston, what threat-based analysis 
changed this requirement?
    General Alston. The decision to cancel the Next Generation Bomber 
was directed by the Secretary of Defense in the fiscal year 2010 budget 
submission until we have a better understanding of the need, the 
requirement, and the technology. The Air Force supports the QDR and NPR 
to assess future strategic requirements.

    23. Senator Vitter. General Alston, stand-off weapons are key 
enablers for legacy bombers that are increasingly less survivable in 
defended air space. Conventional air launched cruise missiles (CALCM) 
comprise the majority of the Air Force's stand-off weaponry inventory, 
but recent comments by Air Force leaders suggest that these systems 
will not be viable over the long-run. This year's budget paused joint 
air to surface standoff missile (JASSM) acquisition, the replacement 
for CALCM. Why did this pause occur?
    General Alston. JASSM went through Nunn-McCurdy certification in 
fiscal years 2007-2008 based on unit cost increases. Defense 
Acquisition Executive direction out of Nunn-McCurdy was to test Lot 5 
missiles prior to awarding the fiscal year 2009 contract. This test 
resulted in 6 successes out of 10 shots. Based on the test results, the 
program was paused to incorporate fixes identified during the Nunn-
McCurdy certification, determine root causes of the failures on Lot 5, 
and incorporate necessary fixes on Lot 5, Lot 6, and Lot 7 missiles. 
With the delay of the Lot 8 award, fiscal year 2010 production money 
was removed.

    24. Senator Vitter. General Alston, will the Air Force continue to 
invest in JASSM?
    General Alston. Yes, the Air Force is committed to the JASSM 
program as it is the Nation's only stealthy, conventional, precision, 
launch-and-leave, standoff missile capable of being launched from 
fighter and bomber aircraft. As part of the Nunn-McCurdy certification, 
OSD certified the JASSM program's importance to Congress and stated 
that there are no alternatives to the JASSM program which will provide 
equal or greater military capability at less cost.

    25. Senator Vitter. General Alston, is the Air Force investigating 
new technologies that enhance or supersede JASSM?
    General Alston. Yes, the Air Force is investigating both 
enhancements to JASSM and technologies to supersede JASSM.
    The Air Force is committed to the JASSM program as it is the 
Nation's only stealthy, conventional, precision, launch-and-leave, 
standoff missile capable of being launched from fighter and bomber 
aircraft. As part of the Nunn-McCurdy Certification effort, OSD 
certified the JASSM program's importance to Congress and stated that 
there are no alternatives to the JASSM program which will provide equal 
or greater military capability at less cost. Near-term enhancements to 
the baseline JASSM missile include extended range (ER) and Anti-Surface 
Warfare (ASuW) variants. Currently in development, JASSM-ER uses a 
different engine and larger fuel tanks to significantly increase 
standoff capability. In addition, the Air Force is investigating a 
JASSM/ASuW variant that would integrate a datalink onto the weapon and 
update JASSM software to enable attacking moving surface ships.
    The Air Force, in conjunction with the Air Force Research 
Laboratory (AFRL) and other national laboratories, is constantly 
looking at the next level of technologies. The Air Force is researching 
technologies for higher survivability weapons, high speed (up to 
hypersonic) weapons, and directed energy but none are planned to be 
operational within the Future Years Defense Plan. One example is an Air 
Combat Command (ACC) coordinated effort working with AFRL on a 
Technologies for Responsive Precision Air Strike (TRESPAS)/Technologies 
for Responsive Precision Air-Land-Surface Strike (TRESPAL2) concept 
which will examine future technologies that can be developed to strike 
fixed and mobile targets with varying degrees of weapon effects.

    [Whereupon, at 3:57 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
